 Interagency Coordination
Group Of Inspectors General
   For Guam Realignment
       Annual Report




          Section 2835 Of The National Defense
          Authorization Act For Fiscal Year 2010




                   [February 1, 2011]
                     (Public Law 111-84)
On October 28, 2009, the President signed the National Defense Authorization Act for FY 2010,
Public Law 111-84. Section 2835 established the Interagency Coordination Group of Inspectors General
for the Guam Realignment with the following duties.



                                        PUBLIC LAW 111-84
          It shall be the duty of the Interagency Coordination Group to conduct, supervise, and coordinate
          audits and investigations of the treatment, handling, and expenditure of amounts appropriated
          or otherwise made available for military construction on Guam and of the programs, operations,
                                            and contracts carried out utilizing
                                                such funds, including—

                    (A) the oversight and accounting of the obligation and expenditure of
                         such funds;
                    (B) the monitoring and review of construction activities funded by such
                         funds;
                    (C) the monitoring and review of contracts funded by such funds;
                    (D) the monitoring and review of the transfer of such funds and
                         associated information between and among departments, agencies, and
                         entities of the United States and private and nongovernmental entities;
                    (E) the maintenance of records on the use of such funds to facilitate
                         future audits and investigations of the use of such funds; and
                    (F) the monitoring and review of the implementation of the Defense
                         Posture Review Initiative relating to the realignment of military
                         installations and the relocation of military personnel on Guam.

          Not later than February 1 of each year, the chairperson of the Interagency Coordination
          Group shall submit to the congressional defense committees, the Secretary of Defense, and the
          Secretary of the Interior a report summarizing, for the preceding calendar year, the activities
          of the Interagency Coordination Group during such year and the activities under programs
          and operations funded with amounts appropriated or otherwise made available for military
          construction on Guam. Each report shall include, for the year covered by the report, a detailed
            statement of all obligations, expenditures, and revenues associated with such construction.



See Appendices A and B for the legislative mandates for Guam realignment in the National Defense Authorization Act
for FYs 2010 and 2011, respectively.
                            Message from the Chairman,
                          Interagency Coordination Group

I am pleased to provide the second annual report of the Interagency Coordination Group of
Inspectors General for Guam Realignment. This annual report, as required by the National Defense
Authorization Act for Fiscal Year 2010 (Public Law 111-84), covers the reporting period
January 1 through December 31, 2010.

The Interagency Coordination Group meets semiannually to discuss legislative requirements,
facilitate interagency coordination, and request information on oversight initiatives that are planned
or completed. The members are the Inspectors General of the Departments of Defense and Interior,
joined by representatives of the Inspectors General of the Departments of Agriculture, Education,
Health and Human Services, Homeland Security, Transportation, and the Environmental Protection
Agency.

The Interagency Coordination Group focuses on challenge areas for the realignment including
operational readiness, quality of life, contract management, contractor oversight, asset
accountability, and financial management. The group considers risks associated with these
challenges when developing oversight initiatives.

Members of my senior staff and I visited the U.S. Pacific Command and its subordinate commands
on two occasions in 2010. Based on the observations and briefings during the site visits, concerns
related to the Defense Posture Review Initiative and Guam infrastructure were identified. The
second visit included representatives from Inspectors General of the Departments of Education,
Interior, and Transportation, as well as representatives from the Auditors General for the Navy and
Air Force. This visit reviewed issues surrounding the U.S. Marine Corps realignment to Guam in
order to gain a better understanding of the oversight required.

I want to thank those participating as part of the Interagency Coordination Group and those Federal
and Defense agencies supporting this effort. As the group goes forward, Congress, the Department,
and senior leadership throughout the U.S. Government will use these oversight efforts to minimize
the impact on the citizens of Guam; improve the economy and efficiency of vital programs and
operations; and sustain the readiness of U.S. forces.




                                         Gordon S. Heddell
                                         Inspector General


                                                                               Guam Realignment Report
                                                                                       February 1, 2011
Guam Realignment Report
February 1, 2011
                           EXECUTIVE SUMMARY
Section 2835 of the National Defense Authorization Act for Fiscal Year 2010 designates
the Inspector General of the Department of Defense as the Chairman of the Interagency
Coordination Group of Inspectors General for Guam Realignment (ICG). The Chairman is
required to provide an annual report to the congressional defense committees, the Secretary
of Defense, and the Secretary of the Interior on the activities of the ICG and the programs
and operations funded with amounts appropriated or otherwise made available for military
construction on Guam. This report contains data collected from multiple organizations.
The Department of Defense Office of the Inspector General did not independently verify,
analyze, or validate the data provided.

The Defense Posture Review Initiative serves as the framework for the future of U.S.
force structure in Japan and the U.S. Marine Corps realignment to Guam. The purpose of
the Defense Posture Review Initiative is to develop a common security view; to review
roles, missions, and capabilities; and to review force posture changes. Included in these
initiatives are the relocation of U.S. Marine Corps personnel to Guam, the return of selected
bases and facilities to the government of Japan (GOJ), and the consolidation of some of the
remaining U.S. bases and facilities in Japan. The Joint Guam Program Office continues
to facilitate, manage, and execute requirements associated with the Guam realignment.
Expected construction costs for facility and infrastructure development requirements
relating to the Guam realignment were initially estimated by the U.S. Government and GOJ
at $10.27 billion. The GOJ has agreed to provide up to $6.09 billion in cash contributions
and financing.

This report identifies the programs and operations funded with appropriated amounts or
funds otherwise made available for military construction on Guam in calendar year 2010.

   •	 DoD obligated approximately $164.0 million and expended approximately
      $55.0 million. Other Federal agencies obligated approximately $3.3 million and
      expended approximately $1.2 million. (Section 1)
   •	 GOJ provided revenues valued at $497.8 million and earned approximately
      $1.3 million in interest. DoD obligated approximately $9.0 million and expended
      approximately $7.5 million. (Section 2)
   •	 DoD reported 146 projects and programs with costs totaling approximately
      $44.5 million and an estimated completion cost of approximately $149.7 million.
      Other Federal agencies reported five projects and programs with costs totaling
      approximately $3.0 million and an estimated completion cost of approximately
      $50.1 million. (Section 3)
   •	 DoD reported operating expenses of approximately $26.7 million. Other Federal
      agencies reported operating expenses of approximately $1.1 million. (Section 4)
   •	 DoD reported 133 contracts and 10 grants with obligations totaling approximately
      $157.5 million. Other Federal agencies reported seven contracts with obligations
      totaling approximately $2.0 million. (Section 5)

                                                                         Guam Realignment Report
                                                                                 February 1, 2011
                          Proposed Actions on Guam




Guam Realignment Report
February 1, 2011
                                                Table of Contents
Background                                                                        1

Efforts of the Interagency Coordination Group of Inspectors General for Guam      7
Realignment (Section 2835(e)(1))

Section 1. U.S. Government Obligation and Expenditure Data                       13
            (Section 2835(e)(1)(A))

Section 2. Government of Japan Revenue                                           17
            (Section 2835(e)(1)(C))

Section 3. Project and Program Costs                                             21
            (Section 2835(e)(1)(B))

Section 4. Operating Expenses                                                    41
            (Section 2835(e)(1)(D))

Section 5. Contracts, Grants, Agreements, or Other Funding Mechanisms Data       45
            (Section 2835(e)(1)(E))

Appendices

     A.    Legislative Mandates for Guam Realignment in the National Defense 68
            Authorization Act for FY 2010
     B.    Legislative Mandates for Guam Realignment in the National Defense 76
            Authorization Act for FY 2011
     C.    Preferred Alternatives Selected from the Final Environmental Impact 79
           Statement
     D.    Implemented Mitigation Measures from the Record of Decision          80
     E.    Federal Funding Allocated to Guam Not Directly Related to the        99
           Realignment
     F.    Guam-Related Completed Reports and Testimony                        100
     G.    Acronyms                                                            102
     H.    Endnotes                                                            103
     I.    Source Documentation                                               104
                                                                 Guam RealiGnment RepoRt
                                                                         FebRuaRy 1, 2011
                    Andersen Air Force Base, Guam, is photographed
                from an F-16D Fighting Falcon during Exercise Cope North,
                                     February 2010.




Guam Realignment Report
February 1, 2011
Background
Defense Posture Review Initiative
                                    In 2001, President George W. Bush ordered a review of Defense strategy
                                    and capabilities with the intent to change how DoD conceptualized and
                                    projected American presence overseas. In response, the Secretary of
                                    Defense initiated the Global Defense Posture Review, a strategy-based
                                    reassessment of the size, location, types, and capabilities of our forward
                                    military forces.

                                       The United States engaged the government of Japan (GOJ) in discussions to
                                       coordinate changes in U.S. force posture in Japan and the options on how to
                                       best coordinate those changes with other force realignments in the Pacific.
                                       Over a three and one-half year period, the United States engaged with the
                                       GOJ in a series of sustained security consultations under the auspices of
                                       the U.S.-Japan Security Consultative Committee. These talks, which came
                                       to be known as the Defense Posture Review Initiative (DPRI), were meant
                                       to improve the U.S.-Japan Security Alliance to reflect the rapidly changing
global security environment. The DPRI focused on alliance transformation at the strategic and operational
levels, with particular attention to the posture of U.S. and Japanese forces in Japan, as well as transforming
capabilities in the Western Pacific around the U.S. and Japanese alliance.

U.S. Military Realignment on Guam
The GOJ and the United States examined and identified appropriate financial and other measures to maintain
the deterrent effect of forward-deployed U.S. forces and recognized the strong desire of Okinawa residents
to have the U.S. presence reduced rapidly. These measures included the relocation of Marine
aviation capabilities from Marine Corps Air Station
Futenma to a new facility, relocation of Marines
and dependents from Okinawa to Guam, and
consolidation of remaining Marine forces in
Okinawa into less land area enabling the return of
valuable real estate to the GOJ. These discussions
resulted in an agreement known as the “U.S.-Japan
Alliance Transformation and Realignment for the
Future.”

On May 1, 2006, representatives from both
Governments signed the “U.S.-Japan Roadmap
for Realignment Implementation.” The Roadmap
consists of 19 separate initiatives dealing with the
realignment of U.S. forces in Japan. The Roadmap
states that the United States and Japan will locate
the Futenma Replacement Facility in the Camp
                                                           A Japan Air Self-Defense Force crew chief directs
Schwab area of Okinawa and that approximately
                                                          an E-2C at Andersen Air Force Base, Guam, during
8,000 III Marine Expeditionary Force personnel
                                                                exercise Cope North, February 2010.
and their approximate 9,000 dependents will
relocate from Okinawa to Guam.

                                                                                       Guam Realignment Report
                                                         1
                                                                                               February 1, 2011
 In 2009, representatives of the Democratic Party of Japan were elected to office. These representatives asked
 to reopen negotiations on the May 1, 2006, agreement. Meetings were held in September and October 2009
 between the GOJ, the President, and the Secretary of Defense, but no further agreements were made until
 May 2010.


 Recent Events
 Some recent significant events may delay the deadline for realigning the service members from Okinawa to
 Guam. The House of Representatives Report 111-559, “Military Construction, Veterans Affairs, and Related
 Agencies Appropriations Bill, 2011,” July 22, 2010, states the relocation of 8,000 Marines from Okinawa to
 Guam may be delayed until 2017 or beyond. In addition, in January 2011, the “Ike Skelton National Defense
 Authorization Act for FY 2011” cut approximately $320 million from the fiscal year (FY) 2011 budget request.1
 Figure 1 identifies recent significant events in the Guam realignment.

              Figure 1. Recent Significant Events in the Guam Military Realignment Timeline




 U.S. and Japan Reaffirm Futenma Replacement Facility Relocation. In May 2010, the United States
 and GOJ reaffirmed plans to relocate the Futenma Replacement Facility to a less densely populated area on
 Okinawa. They also reaffirmed that the relocation of the 8,000 III Marine Expeditionary Force personnel
 and their dependents from Okinawa to Guam is dependent on tangible progress toward the completion of the
 replacement facility. Both the United States and GOJ want to verify and validate that the Futenma relocation
 plan appropriately considers factors such as safety, operational requirements, noise impacts, environmental
 concerns, and effects on the local community. In order to proceed, the Governor of Okinawa must sign a
 landfill agreement. The signing of the landfill agreement is considered a requirement to begin the relocation of
 Marines from Okinawa to Guam.


Guam Realignment Report
                                                        2
February 1, 2011
Final Environmental Impact Statement. As required by the National Environmental Policy Act, DoD
prepared an Environmental Impact Statement (EIS) to document and analyze the environmental impacts
associated with the Guam military realignment efforts. The three major components include:
   •	 relocating Marine units from Okinawa to Guam,
   •	 creating a berth for visiting aircraft carriers in Apra Harbor, and
   •	 placing an Army Air and Missile Defense Task Force in Guam.

DoD completed the Final EIS in July 2010. The Final EIS included revisions and resolutions of issues raised
during the Draft EIS public comment period and responded to comments received on the Draft EIS. The
project locations addressed in the Final EIS
are Guam and Tinian, which are part of the
Mariana Islands. The public comment period
for the Draft EIS generated 10,323 comments.
According to the Final EIS, every comment
submitted during the 90-day public comment
period was thoroughly reviewed. In response to
comments, the Final EIS was either revised or
the existing analysis/approach was reaffirmed.

In general, DoD received a significant number of
comments that highlighted a concern that adding
thousands of new citizens to Guam’s population
would overwhelm existing infrastructure and
social and health services. For example, the
realignment will require additional workers to
move to the island. To meet the demands of
construction associated with the realignment,
the Final EIS estimates the need for more than            U.S. sailors raise the U.S. flag for students of Price
18,000 construction workers at the peak of                 Elementary School during a community relations
construction. After the peak, project-related
              2                                                       project at Mangilao, Guam,
construction expenditures and the associated                                 February 2010.
influx of construction workers would decline
rapidly. In addition, the combined civilian and
military population of the island is expected to increase by approximately 24,700.2 Because of this influx,
the U.S. military realignment will substantially impact Guam’s community and infrastructure. For example,
according to the Department of Education Office of the Inspector General (OIG), the population growth
resulting from the realignment will significantly affect the education systems on Guam, including the Guam
Department of Education (GDOE) and the DoD school system. GDOE faces many existing challenges and does
not currently have the resources to address the impacts of the realignment. GDOE needs adequate facilities
and staffing to meet the peak population increase. This will be difficult because GDOE facilities are in need
of improvement just to meet the needs of their current student population. Additionally, Guam legislators and
GDOE administrators are concerned that the expansion of the DoD school system may result in high quality
teachers choosing to leave GDOE for positions at DoD schools. Successfully planning for and executing a
strategy to address the educational impacts of the realignment through a coordinated approach are not only
important during the buildup, but also are critical to the long-term success of the realignment. The increased
population will need access to quality education during the buildup, and Guam will need an increasingly
educated workforce to sustain a more robust economy and island community once the realignment is complete.


                                                                                     Guam Realignment Report
                                                         3
                                                                                             February 1, 2011
 Experts Study Group Report. On August 31, 2010, an Experts Study Group consisting of U.S. representatives
 from the Office of the Secretary of Defense, the Department of State, U.S. Military, and GOJ representatives
 from the Ministry of Defense, Ministry of Foreign Affairs, and the Cabinet Secretariat issued a report on the
 Futenma Replacement Facility’s location, configuration, and construction method. The “Futenma Replacement
 Facility Bilateral Experts Study Group Report” focused on two plans for the replacement facility and evaluated
 the advantages and disadvantages of both plans. The report also identified that cost differences exist between
 the two plans and additional studies may be necessary prior to making a final decision on a plan for the
 replacement facility.

 Record of Decision. The Record of Decision (ROD) is the final step in the EIS process. The ROD was issued
 in September 2010 and represents the two types of decisions made by the Department of the Navy (DON) and
 the Department of the Army regarding the proposed actions for the Guam and Commonwealth of the Northern
 Mariana Islands (CNMI) Military Relocation. The first type addresses the selection of actions and alternatives.
 The second type relates to how DoD will implement the selected actions and alternatives, including those
 agreements reached between DoD and resource agencies to mitigate the impact of the military relocation
 construction and operational activities. In order to relocate the USMC forces from Okinawa to Guam, the DON
 decided to select most of the preferred alternatives described in the Final EIS and to implement all mitigation
 measures noted in the ROD. See Appendix C for a list of the preferred alternatives selected and Appendix D for
 a list of the implemented mitigation measures.

 Governor of Okinawa Re-election. On November 28, 2010, Hirokazu Nakaima was re-elected as governor
 of Okinawa. Governor Nakaima once backed the Futenma Replacement Facility relocation plan but publicly
 opposed it during the campaign. The construction of a new Futenma site needs the governor’s approval.




                      DoD OIG team inspecting the new solid waste facility in Guam.




Guam Realignment Report
                                                       4
February 1, 2011
Funding Arrangements
The U.S. Government and the GOJ estimated costs for facility and infrastructure development requirements
relating to the realignment to be approximately $10.27 billion (FY 2008 U.S. dollars). The GOJ agreed to
provide up to $6.09 billion of the $10.27 billion and the U.S. Government will fund approximately
$4.18 billion.3 According to the “U.S.-Japan Roadmap for Realignment Implementation,” the United States will
fund the remainder of the facilities and infrastructure development costs for the relocation to Guam. Figure 2
identifies the 2006 funding arrangement between the U.S. Government and the GOJ.

          Figure 2. 2006 Funding Sources for Realignment (numbers below total $10.27 Billion)
                                              (Billions)




              * The National Defense Authorization Act for FY 2010, Section 2832, defines Special Purpose Entities (See Appendix A).


              Sources: Agreement Between the Government of Japan and the Government of the United States of America
              Concerning the Implementation of the Relocation of III Marine Expeditionary Force Personnel and their Dependents
              from Okinawa to Guam, 2/17/2009 and JGPO, Guam Military Realignment Overview, 2/5/2008.




Federal Funding for the Government of Guam
The government of Guam (GovGuam) receives federal funding through programs such as the Federal Highway
Administration (FHWA) Territorial Highway Program, Medicaid, and the Supplemental Nutrition Assistance
Program - Food Stamps. In addition, Guam receives grants for school improvement, energy efficiency,
and conservation. According to an Office of Management and Budget official, these funds would be spent
regardless of the military relocation from Okinawa to Guam. Based on a February 2010 budget data request
from the Office of Management and Budget, Federal agencies allocated approximately $620 million to Guam in
FY 2009. The budget data also included estimated increases in FYs 2010 and 2011 to $668 million and
$679 million, respectively.4 See Appendix E for an agency breakout of federal funding allocated to Guam but
not directly related to the realignment for FYs 2009 through 2011.

GovGuam is also receiving additional funds from the American Recovery and Reinvestment Act. According to
the official U.S. Government web site for American Recovery and Reinvestment Act spending, as of
December 2010, GovGuam received approximately $281.8 million in federal stimulus funding in the form of
contracts, grants, and loans.5



                                                                                                                    Guam Realignment Report
                                                                         5
                                                                                                                            February 1, 2011
                         Andersen Air Force Base, Guam, is photographed
             from an F-16D Fighting Falcon during Exercise Cope North, February 2010.




Guam Realignment Report
                                               6
February 1, 2011
Efforts
 fforts of the Interagency
        of the  nteragency
Coordination
 oordination Group  of Inspectors
               roup of  nspectors
General for Guam
 eneral for    uam Realignment
                     ealignment




                                              	 Section 2835(e)(1)




                             Guam Realignment Report
                 7
                                     February 1, 2011
                      Efforts of the Interagency Coordination Group of
                      Inspectors General for Guam Realignment

                      Section 2835 of the National Defense Authorization Act for FY 2010 (Public Law 111-84) designates the
                      Inspector General (IG) of the DoD as the Chairman of the Interagency Coordination Group of Inspectors
                      General for Guam Realignment (ICG). Currently, the members of the ICG are the Inspectors General of the
                      DoD and Department of the Interior (DOI).
                         •	 Department of Defense. DoD’s mission is to provide the military forces needed to deter war and to
                            protect the security of our country. The DoD OIG, as well as the audit and investigative agencies within
                            the Departments of the Navy, Air Force, Army, and defense agencies, will provide oversight of the Guam
                            realignment to improve the efficiency and effectiveness of the military.

                         •	 Department of the Interior. DOI’s mission is to protect America’s natural resources and heritage,
                            honor our cultures and tribal communities, and supply the energy to power our future. Within DOI, the
                            Insular Branch is responsible for issues pertaining to Guam. Under the Insular Areas Act of 1982 (title
                            48, U.S. Code, section 1422), the IG of the DOI serves as “government comptroller” in the U.S. insular
                            area of Guam by conducting audits of all properties, receipts, revenues, and expenditures.

                      On April 23, 2010, the ICG Chairman met with representatives of the Inspectors General of the Departments
                      of Education, Health and Human Services, Homeland Security, and Interior, to provide an overview of the
                      ICG Chairman’s February 2010 visit to the Pacific Theater, discuss concerns identified as a result of the trip,
                      and to encourage each of the Federal agencies to participate in the oversight efforts. On December 8, 2010,
                      the ICG Chairman held another meeting to discuss results of his October 2010 visit to Guam, the status
                      of the infrastructure requirements review, and ongoing and planned audit projects. Representatives of the
                      Inspectors General of the Departments of Agriculture, Education, Energy, Homeland Security, Interior, and the
                                                                              Environmental Protection Agency (EPA) attended.

                                                                                The ICG continues to develop a strategy to conduct,
                                                                                supervise, and coordinate oversight activities to monitor
                                                                                the use of funding for the Guam realignment. In
                                                                                order to assist with the development of this strategy,
                                                                                the ICG Chairman established the Guam Interagency
                                                                                Planning Group (IPG). Participants of the IPG include
                                                                                representatives of the other Federal agencies and
                                                                                DoD offices involved in the oversight of the Guam
                                                                                realignment. On August 11, 2010, the IPG met to
                                                                                discuss the ICG Chairman’s planned trip to Guam,
                                                                                existing conditions and socio-economic issues on
                                                                                Guam, and future audit plans. On December 14, 2010,
                                                                                the IPG met to discuss results of the ICG’s
Section 2835(e)(1)




                                                                                October 2010 visit to Guam, the status of the
                        ICG representatives meet with individuals in            infrastructure requirements review, and future oversight
                          Guam during their visit, October 2010.                and audit plans related to the Guam realignment.

                                                                              The ICG Chairman participates as an observer on
                      the Guam Oversight Council. The Guam Oversight Council was established as a senior decision-making
                      body to oversee implementation of the Guam realignment. It serves as a forum to unify efforts, facilitate
                      implementation, validate requirements, identify and resolve issues, and provide resource guidance. The
                      members include senior leaders from across DoD and the Military Services. The first official meeting was held
                      on April 3, 2009.
	




                     Guam Realignment Report
                                                                            8
                     February 1, 2011
                                                                 Efforts of the Interagency Coordination Group of
                                                                        Inspectors General for Guam Realignment

In addition to the Guam Oversight Council, DoD has established the Guam Executive Council to function in
an advisory and oversight management role for the rebasing of Marines from Okinawa to Guam. Its members
include senior leaders from across DoD and the Military Services. They are responsible for overseeing the Joint
Guam Program Office (JGPO) efforts and ensuring integration of the Services’ and Military Departments’ plans
with the overall Marine rebasing efforts. The Guam Executive Council is subordinate to and overseen by the
Guam Oversight Council.

IC
Section 2835 of the National Defense Authorization
Act for FY 2010 also requires the ICG to provide
objective supervision of audits and investigations,
to include inspections, evaluations, and reviews
relating to the programs and operations funded with
amounts appropriated or otherwise made available
for military construction on Guam. Specifically, the
ICG oversight duties are to conduct, supervise, and
coordinate audits and investigations of the treatment,
handling, and expenditure of amounts appropriated
for military construction on Guam. For a list of
on-going and planned audits conducted by DoD and
other Federal agencies refer to the                            ICG Chairman Gordon Heddell meets with
FY 2010 Comprehensive Oversight Plan for Guam                the Guam Lieutenant Governor Michael Cruz,
Realignment, which is available at                                          March 2010.
www.dodig.mil/Audit/guam/index.htm.


IC
The ICG Chairman visited the U.S. Pacific Command and its subordinate organizations from
February 28 through March 9, 2010, and October 19 through 22, 2010. During the first visit, the ICG Chairman
met with senior officials in Hawaii, Guam, and Japan. Based on the observations and briefings during the site
visit, the DoD OIG issued a progress report, “Significant Challenges Remain in the Realignment of U.S. Forces
from Okinawa to Guam,” on May 14, 2010. This report presents concerns related to the DPRI and Guam
realignment in an effort to provide transparency and accountability to the American people and to the
U.S. Armed Forces. These concerns include issues related to:

   •	   the environmental impact statement,
   •	   contracting oversight,
   •	   labor force issues,                                                                                         Section 2835(e)(1)
   •	   competition for limited resources,
   •	   port capabilities,
   •	   schools,
   •	   air space and flight safety, and
   •	   military housing.
                                                                                                                    	




                                                                                       Guam Realignment Report
                                                         9
                                                                                               February 1, 2011
                      Efforts of the Interagency Coordination Group of
                      Inspectors General for Guam Realignment

                      The ICG Chairman, along with representatives of Inspectors General of the Departments of Education, Interior,
                      and Transportation, as well as the Auditors General for the Navy and Air Force, conducted a follow-up trip in
                      October 2010 to:

                         •	 visit with members of the Guam legislature, the Guam Lieutenant Governor, other civilian government
                            officials, agencies, authorities, utilities officials, and military commanders on Guam;
                         •	 gather background knowledge to better understand the issues confronting the various agencies and
                            commands as they prepare for the USMC move from Okinawa to Guam;
                         •	 familiarize the ICG with the myriad of issues surrounding the USMC move;
                         •	 provide the ICG a better understanding of the need for its oversight in the USMC move to Guam; and
                         •	 demonstrate the need for a “whole of government” approach to solving the issues surrounding the
                            USMC move to Guam.

                      The trip enhanced the ICG’s knowledge about, and provided beneficial insight into, the concerns and issues
                      confronting individual agencies, authorities, and particularly the people of Guam as they plan for the Marine
                      relocation. The remainder of the trip consisted of tours of the various bases and proposed construction sites.
                      The trip enabled the ICG to visualize the layout of the plans and develop an understanding of the issues
                      surrounding the Marines’ move from Okinawa to Guam.


                      O
                      From January 1 through
                      December 31, 2010, the Defense
                      Contract Audit Agency (DCAA)
                      and the Naval Audit Service
                      (NAVAUDSVC) completed three
                      audit projects related to the Guam
                      realignment. The objective and results
                      of each audit report is summarized
                      below.

                      DCAA. On April 2, 2010,
                      DCAA issued Report No. 04901-
                      2010N27000001, “Audit of Portions
                      of the Direct and Indirect Expense
                      Rates included in Proposal under
                      Solicitation No. N62742-09-R-0005.”
Section 2835(e)(1)




                      The objective of the audit was to
                      examine the direct labor and indirect           ICG Chairman and ICG representatives meet with
                      expense rates of the proposal for                   representatives from the Guam Legislature,
                      design support on various aviation                                 October 2010.
                      related projects covered by the
                      DPRI. DCAA reviewed these rates to determine whether the parts of the proposal were acceptable as a basis to
                      negotiate a fair and reasonable price. The proposal was found to be an acceptable basis for negotiation of a fair
                      and reasonable price.
	




                     Guam Realignment Report
                                                                            10
                     February 1, 2011
                                                                Efforts of the Interagency Coordination Group of
                                                                       Inspectors General for Guam Realignment

On September 3, 2010, DCAA issued Report No. 4201–2010L27000002, “Report on Audit of Parts of a
Proposal Submitted in Response to Solicitation No. N62742-09-R-0005.” The objective of the audit was to
examine the direct labor and indirect expense rates of the proposal for various aviation related projects covered
by the DPRI. DCAA reviewed these rates to determine whether the parts of the proposal were acceptable as a
basis to negotiate a fair and reasonable price. The proposal was found to be an acceptable basis for negotiation
of a fair and reasonable price.

NAVAUDSVC. On July 22, 2010, the NAVAUDSVC issued Report No. N2010-0043, “Use of Established
Department of Defense Shipping Agreements/Contracts for Department of the Navy Acquisitions on Guam.”
The objective of the audit was to verify whether DON contracting activities were sufficiently using established
DoD shipping agreements/contracts for movement of goods from the Continental United States to Guam.
The NAVAUDSVC determined that one DON contracting activity did not use established DoD shipping
contracts and the Defense Transportation System when they awarded supply contracts that included a shipping
requirement. This occurred because the contracting activity lacked sufficient internal controls and management
oversight to ensure appropriate use of established DoD shipping contracts and the Defense Transportation
System. In addition, the office responsible for developing DON transportation operating procedures did not
develop or issue detailed guidance and procedures for DON supply contracts.

O
From January 1 through December 31, 2010, the Department of Homeland Security completed one audit
project related to the Guam realignment. In November 2010, the department issued Report No. OIG-11-14,
“Processing of Nonimmigrant Worker Petitions in Support of U.S. Marine Guam Realignment Construction
Activities.” The objective of the audit was to determine whether the Department of Homeland Security,
through its U.S. Citizenship and Immigration Services, had the capability to process and adjudicate an adequate
number of H-1B and H-2B temporary nonimmigrant worker visa petitions to support construction requirements
associated with the Guam realignment. The department indicated that the U.S. Citizenship and Immigration
Services has the personnel, policies and procedures, and infrastructure necessary to support the Guam
realignment.

See Appendix F for a list of all DoD and other Federal agency Guam-related reports and testimony completed to
date.

C
From January 1 through December 31, 2010, the Defense Criminal Investigative Service, U.S. Army Criminal
Investigation Command, Air Force Office of Special Investigations, Marine Corps Criminal Investigative
Division, and the other Federal law enforcement agencies did not complete any investigations related to the
Guam realignment.
                                                                                                                    Section 2835(e)(1)
The Naval Criminal Investigative Service completed one investigation related to programs and operations
funded with amounts appropriated or otherwise made available for military construction on Guam. The Naval
Criminal Investigative Service investigated possible procurement integrity violations. The case was closed as
no information was developed that supported the original complaint.
                                                                                                                    	




                                                                                       Guam Realignment Report
                                                        11
                                                                                               February 1, 2011
                     Aerial view of housing facilities at Naval Base
                      Guam in Santa Rita, Guam, August 2010.




Guam Realignment Report
                                            12
February 1, 2011
                                                   1
U.S. Government Obligation and Expenditure
Data




                                               	 Section 2835(e)(1)A)




                              Guam Realignment Report
                   13
                                      February 1, 2011
                         Section 1: U.S. Government Obligation and
                         Expenditure Data (Section 2835(e)(1)(A))

                         Public Law 111-84 states that not later than February 1 of each fiscal year, the ICG Chairman must report
                         on the programs and operations funded with amounts appropriated or otherwise made available for military
                         construction on Guam. Each report shall include a detailed statement of all obligations and expenditures
                         associated with such construction.

                         DoD Appropriation Types
                         DoD plans to fund the majority of its costs for the Guam realignment with Military Construction (MILCON)
                         and Operation and Maintenance appropriations. The MILCON appropriation will be used to fund any
                         construction, alteration, development, conversion, or extension carried out with respect to a military installation.
                         Operation and Maintenance appropriations will be used to fund expenses whose benefits are derived for a
                         limited period of time and are not related to military personnel or research and development.

                         U.S. Funding for the Realignment
                         Construction of new facilities, improvements to existing facilities, and improvements to infrastructure
                         will result from the movement of the USMC forces to Guam. For FYs 2008 through 2010, the DoD was
                         appropriated $11.0 million, $28.0 million, and $324.7 million, respectively.6 As of December 2010, there has
                         been no final enactment for the FY 2011 MILCON appropriation. The President’s FY 2011 budget request for
                         MILCON totaled $452.2 million.7 Figure 3 identifies the appropriated or requested amounts for MILCON for
                         these years.

                                                  Figure 3. Military Construction Appropriations FYs 2008-2011
                                                                            (Millions)
Section 2835(e)(1)(A)




                                      	
                                      Source: Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer response provided on 1/14/2010 and 12/6/2010
                                      and JGPO response provided on 1/14/2010.
	




                        Guam Realignment Report
                                                                                                14
                        February 1, 2011
                                                                                            Section 1: U.S. Government Obligation and
                                                                                              Expenditure Data (Section 2835(e)(1)(A))

DoD obliGations anD expenDituRes
DoD plans to obligate and expend the majority of MILCON
and Operation and Maintenance appropriated funds in future
fiscal years. DoD OIG requested that the Office of the
Under Secretary of Defense (Comptroller)/Chief Financial
Officer (OUSD[C]), the Assistant Secretary of the Air Force
for Financial Management and Comptroller, the Office of
the Assistant Secretary of the Navy (Financial Management
and Comptroller) (OASN[FM&C]), the Assistant Secretary
of the Army (Financial Management and Comptroller)
(ASA[FM&C]), the Defense Finance and Accounting Service
(DFAS), and the JGPO provide obligation and expenditure
data supporting the USMC realignment to Guam. In calendar
year 2009, the DoD obligated approximately $60.3 million
and expended approximately $35.7 million in MILCON and
Operation and Maintenance appropriations.6                                                     A U.S. Navy Seabee
                                                                                           moves material at the Mineral
For calendar year 2010, DoD obligated approximately                                     Products Rock Quarry, Apra Harbor,
$164.0 million and expended approximately $55.0 million.                                              Guam.
The increase in the amount of both obligated MILCON and
Operation and Maintenance funding from calendar year 2009 is indicative that project related construction work
has begun and will continue to increase until the Guam realignment is complete. Table 1 identifies the amounts
obligated and expended for each appropriation from January 1 through December 31, 2010.

              Table 1. DoD Obligations and Expenditures Related to the Guam Realignment
                                (January 1, 2010 – December 31, 2010)
                                Appropriation*                                    Obligations                     Expenditures

             MILCON, Navy and Marine Corps                                        $112,964,463                     $29,501,527

             Operation and Maintenance, Navy                                     $    6,654,905                    $ 4,953,451

             Operation and Maintenance, Marine Corps                             $ 42,417,203                      $20,015,500

             Operation and Maintenance, Army                                     $      187,893                    $     106,728
             Family Housing Operation and Maintenance,
                                                                                 $    1,732,498                    $     389,425
             Navy and Marine Corps
                Total                                                            $163,956,962                      $54,966,631



                                                                                                                                                  Section 2835(e)(1)(A)
           * The Department of the Air Force reported no obligations or expenditures supporting the Guam realignment for calendar year 2010.

           Sources: Assistant Secretary of the Air Force (Financial Management and Budget) response to DoD OIG data call, 1/5/2011;
           ASA(FM&C) response to DoD OIG data call, 1/14/2011; Naval Facilities Engineering Command Headquarters response to DoD
           OIG data call, 1/18/2011; Headquarters USMC response to DoD OIG data call, 1/19/2011; and JGPO response to DoD OIG data
           call, 1/4/2011.
                                                                                                                                                  	




                                                                                                                       Guam Realignment Report
                                                                          15
                                                                                                                               February 1, 2011
                         Section 1: U.S. Government Obligation and
                         Expenditure Data (Section 2835(e)(1)(A))

                         Other Federal Agency Obligations and Expenditures
                         In calendar year 2009, the Department of Transportation obligated approximately $7.8 million and expended
                         approximately $3.4 million related to programs and operations funded with amounts appropriated or otherwise
                         made available for military construction on Guam.6

                         For calendar year 2010, the Department of Commerce (DOC), Department of Labor (DOL), and Department
                         of Transportation (DOT) reported obligations and expenditures related to programs and operations funded with
                         amounts appropriated or otherwise made available for military construction on Guam. These agencies obligated
                         approximately $3.3 million and expended approximately $1.2 million. Table 2 identifies the amounts obligated
                         and expended for each agency from January 1 through December 31, 2010.

                                               Table 2. Other Federal Agency Obligations and Expenditures
                                                            Related to the Guam Realignment
                                                          (January 1, 2010 – December 31, 2010)

                                                         Agency                    Obligations                   Expenditures

                                                 DOC                                $ 123,841                     $ 123,841

                                                 DOL                                $ 177,534                     $ 177,534

                                                 DOT                                $2,956,057                    $ 917,395

                                                    Total                           $3,257,432                    $1,218,770

                                               Sources: DOC response to DoD OIG data call, 1/10/2011; DOL response to DoD OIG data call,
                                               1/7/2011; and DOT response to DoD OIG data call, 1/19/2011.
Section 2835(e)(1)(A)
	




                        Guam Realignment Report
                                                                                         16
                        February 1, 2011
                                        2
Government of Japan Revenue




                                        Section 2835 (e)(1)(C)
                                    	


                                                 	




                      Guam Realignment Report
              17
                              February 1, 2011
                         Section 2: Government of Japan Revenue
                         (Section 2835(e)(1)(C))

                         Section 2350k, title 10 of the U.S. Code grants the Secretary of Defense authority to accept cash contributions
                         from any nation in support of a relocation of the armed forces. According to agreements between the United
                         States and the Japanese government, the GOJ is expected to provide up to $6.09 billion (FY 2008 U.S. dollars)
                         for the USMC relocation from Okinawa to Guam.8 Public Law 111-84 requires the ICG annual report to
                         contain a detailed statement on the revenues contributed by the GOJ and any obligations or expenditures of
                         these revenues.

                         Government of Japan Funding for the Realignment
                         In May 2006, the GOJ agreed to provide approximately $2.8 billion in direct cash contributions for facilities
                         and infrastructure development and approximately $3.29 billion in equity and loans to Special Purpose Entities
                         (SPEs) to finance construction and maintenance of housing and utilities.9 GOJ will deposit the direct cash
                         contributions into a trust fund account. Each month, DoD must provide a report to the GOJ showing the activity
                         in this account and any related sub-accounts for the direct cash contributions provided by GOJ. The amount of
                         equity and loans provided will be recorded separately. Table 3 shows the specific funding by category for GOJ
                         funds.

                                                                     Table 3. GOJ Funding Breakout
                                                                                   (Billions)
                                                                                                                  Special Purpose
                                                                                          Direct Funds            Entity Financing
                                                 Operating Facilities                          $1.29                        $    0
                                                 Utility Infrastructure                        $     0                      $0.74
                                                 Family Housing                                $     0                      $2.55
                                                 Barracks / Quality of Life                    $1.51                        $    0
                                                   Total                                       $2.80                        $3.29

                                                Source: Secretary of the Navy, Report on DoD Planning Efforts for Guam, 9/15/2008 and JGPO,
                                                SAME International Business Opportunity Workshop, 2/22/2007.


                         Several organizational elements within the DON have key roles and responsibilities associated with the GOJ
                         funding.

                            •	 JGPO is responsible for providing the necessary documentation to the OASN(FM&C) when GOJ funds
                               are received.
                            •	 OASN(FM&C) reviews and processes necessary documentation for the OUSD(C) regarding the receipt
                               and execution of GOJ funds.
Section 2835(e)(1)(C)




                            •	 The Naval Facilities Engineering Command (NAVFAC) is responsible for preparing necessary
                               documentation for the OASN(FM&C) requesting authority to execute the GOJ funding on construction
                               projects and managing the technical and financial execution of the GOJ-funded construction projects.
                            •	 OUSD(C) is responsible for submitting required notifications of the receipt of GOJ funds and planned
                               construction obligations to Congress, issuing fund allocations for GOJ funding, and providing guidance
                               as necessary to DFAS.
                            •	 DFAS is responsible for receiving the GOJ funding from the Federal Reserve Bank; providing necessary
                               documentation to the U.S. Treasury; providing reports on collections, disbursements, and earnings;
                               and processing necessary documentation to return any residual funding to the GOJ. In addition, DFAS
                               monitors disbursements and collections and allocates interest earned by the “Support for U.S. Relocation
                               to Guam Account” trust fund.
	




                        Guam Realignment Report
                                                                                          18
                        February 1, 2011
                                                                  Section 2: Government of Japan Revenue
                                                                                   (Section 2835(e)(1)(C))




 U.S. Navy and Japan Maritime Self-Defense Force ships sail in formation on the final day of                 Section 2835(e)(1)(C)
                           Keen Sword 2011, December 2010.



Revenues (Contributions) / Interest / Obligations / Expenditures
In calendar year 2009, DFAS reported that the GOJ contributed $336 million for design and on base
infrastructure projects related to the Guam realignment.6 The earnings on investment of GOJ contributions
totaled $369,315, and no funds were obligated or expended.6
                                                                                                             	




                                                                                Guam Realignment Report
                                                  19
                                                                                        February 1, 2011
                         Section 2: Government of Japan Revenue
                         (Section 2835(e)(1)(C))

                            For calendar year 2010, DFAS reported that the GOJ contributed $497.8 million for construction,
                            design, and on base infrastructure projects. The DoD obligated approximately $9 million and expended
                            approximately $7.5 million. For the GOJ revenues, DFAS used the Trust Fund Reporting System to report
                            the amount received, earnings on investments, obligations, and expenditures from January 1 through
                            December 31, 2010. Table 4 identifies the revenues, interest, obligations, and expenditures for calendar
                            year 2010.

                                        Table 4. GOJ Revenues / Interest / Obligations / Expenditures for Calendar Year 2010
                                                                                 Revenue                 Earnings on
                                             Project                                                                   Obligations   Expenditures
                                                                               (Contribution)            Investment
                             Interest Earned Japanese FY* 09
                                                                                $              0         $1,021,526    $        0    $         0
                             Funds
                             Interest Earned Japanese FY 10
                                                                                $              0         $ 241,116     $        0    $         0
                             Funds
                             Japanese FY 10 Construction Apra
                                                                                $ 96,000,000             $        0    $        0    $         0
                             Medical
                             Japanese FY 10 Construction
                                                                                $ 24,800,000             $        0    $        0    $         0
                             Waterfront Headquarters
                             Japanese FY 10 Construction
                                                                                $ 25,100,000             $        0    $        0    $         0
                             Finegayan Fire
                             Japanese FY 10 Design Base
                                                                                $     6,600,000          $        0    $        0    $         0
                             Administrative
                             Japanese FY 10 Design Marine
                                                                                $     5,800,000          $        0    $        0    $         0
                             Logistics Group Admin
                             Japanese FY 10 Design Physical
                                                                                $     4,400,000          $        0    $        0    $         0
                             Training Complex
                             Japanese FY 10 Enlisted Dining
                                                                                $     4,800,000          $        0    $        0    $         0
                             Facility
                             Japanese FY 10 Design Bachelor
                                                                                $     8,556,516          $        0    $        0    $         0
                             Enlisted Quarters Site 1
                             Japanese FY 10 On-base
                                                                                $ 309,000,000            $        0    $        0    $         0
                             Infrastructure Phase 2
                             Japanese FY 10 Design Police
                                                                                $     3,200,000          $        0    $        0    $         0
                             Station
                             Japanese FY 10 Design Bachelor
                                                                                $     9,543,484          $        0    $        0    $         0
                             Enlisted Quarters Site 2
                             Japanese FY 09 Design Fire
                                                                                $              0         $        0    $1,704,666    $   901,485
                             Station**
                             Japanese FY 09 Design Waterfront
                                                                                $              0         $        0    $1,921,597     $1,832,657
Section 2835(e)(1)(C)




                             Headquarters**
                             Japanese FY 09 Design Apra
                                                                                $              0         $        0    $2,505,277     $2,505,277
                             Medical**
                             Japanese FY 09 Design Bachelor
                                                                                $              0         $        0    $2,836,735     $2,249,256
                             Enlisted Quarters Complex**
                              Total                                             $497,800,000             $1,262,642    $8,968,275     $7,488,675

                             * The Japanese FY begins April 1 and ends March 31 of the following year.
                            ** Additional details of these projects are provided in Table 5.

                             Source: DFAS response to DoD OIG data call, 1/5/2011.	
	




                        Guam Realignment Report
                                                                                                    20
                        February 1, 2011
                                       3
Project and Program Costs




                                       	 Section 2835(e)(1)(B)




                      Guam Realignment Report
             21
                              February 1, 2011
                         Section 3: Project and Program Costs
                         (Section 2835(e)(1)(B))

                         Public Law 111-84 requires the ICG annual report to contain a detailed statement on the costs incurred to date
                         and costs estimated to complete each DoD or DOI military construction project or program. The report must
                         identify all projects and programs associated with the realignment of military installations and the relocation of
                         military personnel to Guam.

                         RecoRDinG anD appRoval oF DoD pRoJects
                                                                                          The DoD Financial Management Regulation
                                                                                          requires a narrative justification and validation
                                                                                          for each military construction project. DoD
                                                                                          uses the DD Form 1391 to provide justification
                                                                                          for U.S. funded military construction projects.
                                                                                          When the DD Form 1391 is approved, DoD
                                                                                          includes the military construction project within
                                                                                          its budget justification, which becomes part of
                                                                                          the President’s annual budget. The DD Form
                                                                                          1391 is also used to request funds from the
                                                                                          GOJ. NAVFAC Pacific assists Headquarters
                                                                                          USMC with preparing the DD Form 1391.
                                                                                          Headquarters USMC verifies the scope
                                                                                          requirements of each project prior to submitting
                                                                                          the forms to the GOJ for approval.

                                                                                         In calendar year 2009, NAVFAC Headquarters
                                                                                         and ASA(FM&C) reported 102 projects that
                                                                                         were directly associated with the realignment
                                                                                         of military installations and military personnel
                             U.S. sailors and contractors participate in the             to Guam. The scope of the projects included
                            groundbreaking ceremony for a training center,               program support, waste water studies, social
                            a headquarters facility, and an exercise support             impacts assessment, and natural resources
                               facility at Polaris Point, Guam, July 2010.               surveys. These projects incurred costs of
                                                                                         approximately $17.5 million with an estimated
                                                                                         completion cost of approximately $36.1 million.6

                         DoD and Government of Japan Project and Program List
                         For calendar year 2010, the NAVFAC Headquarters, Headquarters USMC, and ASA(FM&C) reported
                         146 projects that were directly associated with the realignment of military installations and military personnel
Section 2835(e)(1)(B)




                         to Guam. These projects incurred costs of approximately $44.5 million with an estimated completion cost of
                         approximately $149.7 million. The NAVFAC Headquarters response indicated that the expenditure data for
                         DoD and GOJ projects was derived from the Facilities Information System, which is not an official accounting
                         system. The Headquarters USMC response indicated that the expenditure data for USMC projects was derived
                         from the Standard Accounting Budget and Reporting System, which is an official accounting system. The
                         Department of the Army response indicated that the expenditure data was derived from the Standard Army
                         Finance Information System, which is an official accounting system. Table 5 identifies the DoD and GOJ
                         projects and their associated costs.
	




                        Guam Realignment Report
                                                                                22
                        February 1, 2011
                                                                                                                                                        Cost Incurred
                                                                                                                                       Cost Incurred                       Estimated
                                                                                                                     Total Estimated                     January 1 -
                                           Project                     Description/Scope             Start Date                        to Date (US or                       Costs to
                                                                                                                           Cost                         December 31,
                                                                                                                                        GOJ Funds)                         Complete
                                                                                                                                                            2010
                           J006, GOJ Design, Apra Medical Clinic   Apra Medical Clinic (Apra        February 18,
                                                                                                                     $     2,533,344   $    2,505,277 $      2,505,277 $        28,066
                           (GOJ Funded)                            Harbor)                             2010
                           J007, GOJ Design, Waterfront            Waterfront Headquarters
                                                                                                   January 11, 2010 $      2,034,582   $    1,832,657 $      1,832,657 $       201,925
                           Headquarters Building (GOJ Funded)      Building
                           J008, GOJ Design, Fire Station (GOJ
                                                                   Fire Station (Finegayan)        January 11, 2010 $      1,822,420   $      901,485 $       901,485 $        920,935
                           Funded)




                                                                                                                                                                                           Table 5. Costs for DoD and GOJ Projects and Programs
                           J010, GOJ Design, Bachelors Enlisted    Bachelors Enlisted Quarters      February 27,
                                                                                                                     $     2,917,552   $    2,249,256 $      2,249,256 $       668,297
                           Quarters Complex (GOJ Funded)           Complex                             2010
                           1003; Construction; Military Working    Military Working Dog             September 29,
                                                                                                                     $     7,670,969   $            0 $             0 $       7,670,969
                           Dog                                     Relocation, Apra Harbor              2010
                                                                   Apra Harbor Wharf
                           204; Construction, Apra Harbor Wharf                                     September 30,
                                                                   Improvement, Increment 1                          $   91,380,938    $            0 $             0 $      91,380,938
                           Improvement                                                                  2010
                                                                   of 2
                           010; Design, Marine Corps MILCON        Marine Corps MILCON              April 15, 2008   $     2,013,864   $    1,637,322 $       595,910 $        376,542
                           100; Design, DPRI-North Ramp Utilities, DPRI-North Ramp Utilities,
                                                                                                    December 3,
                           Increment 1 (Andersen Air Force Base    Increment 1 (AAFB)                                $     1,290,000   $    1,220,479 $      1,220,479 $        69,522
                                                                                                       2009
                           (AAFB))
      23




                           1003; Design, DPRI-Military Working     DPRI-Military Working Dog         October 25,
                                                                                                                     $     1,546,526   $    1,536,526 $       137,173 $         10,000
                           Dog Relocation, Apra Harbor             Relocation, Apra Harbor              2008
                           101; Design, DPRI-North Ramp            DPRI-North Ramp Parking,         December 3,
                                                                                                                     $     3,551,880   $    1,984,779 $      1,984,779 $      1,567,101
                           Parking, Increment 1 (AAFB)             Increment 1 (AAFB)                  2009
                           109; Design, DPRI-Aircraft Maintenance DPRI-Aircraft Maintenance
                                                                                                   March 14, 2009    $     1,273,950   $      133,905 $        45,041 $       1,140,045
                           Hangar (North Ramp)                    Hangar (North Ramp)
                           110; Design, DPRI-Site Prep and         DPRI-Site Prep and Utilities,    September 30,
                                                                                                                     $     8,832,600   $    5,644,150 $      5,644,150 $      3,188,450
                           Utilities, Phase 1 (Finegayan)          Phase 1 (Finegayan)                  2009




                                                                                                                                                                                                                                                  Section 3: Project and Program Costs
                           111; Design, DPRI-Apra Harbor Victor    DPRI-Apra Harbor Victor          November 25,
                                                                                                                     $     1,251,286   $    1,251,286 $      1,251,286 $               0
                           Wharf Improvement                       Wharf Improvement                   2009
                           113; Design, DPRI-Finegayan Site Prep   DPRI-Finegayan Site Prep         February 13,
                                                                                                                     $      201,260    $      121,260 $       121,260 $         80,000
                           and Utilities - Phase 2                 and Utilities - Phase 2             2010
Guam Realignment Report




                           2014: Base Communications Center        DPRI-Base Communications         November 9,




                                                                                                                                                                                                                                                                (Section 2835(e)(1)(B))
                                                                                                                     $     2,671,000   $            0 $             0 $       2,671,000
                                                                   Center                              2010
                           204; Design, DPRI-Apra Harbor Wharf     DPRI-Apra Harbor Wharf
                                                                                                    February 14,
                           Improvement, Increment 1 of 2           Improvement, Increment 1                          $     6,681,320   $    6,013,471 $      5,278,969 $       667,849
                                                                                                       2009
        February 1, 2011




                                                                   of 2
                           599; Design, DPRI-Combat Logistic       DPRI-Combat Logistic
                                                                                                    December 19,
                           Company Facilities (Finegayan)          Company Facilities                                $      408,324    $      408,324 $       408,324 $                0
                                                                                                       2009
                                                                   (Finegayan)




                           	      Section 2835(e)(1)(B)
                          	         Section 2835(e)(1)(B)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                               (Section 2835(e)(1)(B))
                                                                                                                                                                                               Section 3: Project and Program Costs
                                                                                                                                                            Cost Incurred
                                                                                                                                           Cost Incurred                       Estimated
                                                                                                                         Total Estimated                     January 1 -
                                               Project                       Description/Scope           Start Date                        to Date (US or                       Costs to
                                                                                                                               Cost                         December 31,
                                                                                                                                            GOJ Funds)                         Complete
                                                                                                                                                                2010
                              600X; Design, DPRI-Apra Harbor             DPRI-Apra Harbor Embark         January 30,
                                                                                                                         $      509,003    $      504,251 $       504,251 $          4,752
                              Embark Operations                          Operations                         2010
                              601; Design, DPRI-Aviation Facilities at   DPRI-Aviation Facilities at    December 19,
                                                                                                                         $      271,521    $      259,050 $       259,050 $         12,471
                              North Ramp                                 North Ramp                        2009
                              602; Design, DPRI-III Marine               DPRI-III Marine
                                                                                                        February 13,
                              Expeditionary Force Headquarters           Expeditionary Force                             $      465,938    $      425,322 $       425,322 $         40,616
                                                                                                           2010
                              (Finegayan)                                Headquarters (Finegayan)
                              603; Design, DPRI-Finegayan Site Prep      DPRI-Finegayan Site Prep        January 30,
                                                                                                                         $      104,840    $      104,840 $       104,840 $                0
                              and Utilities - Phase 3                    and Utilities - Phase 3            2010
                              604; Design, DPRI-Operations and           DPRI-Operations
                                                                                                        February 13,
                              Armory Facilities (Finegayan)              and Armory Facilities                           $      551,162    $       61,375 $        61,375 $        489,787
                                                                                                           2010
                                                                         (Finegayan)
                              606; Design, DPRI-Corrosion Control        DPRI-Corrosion Control         December 19,
                                                                                                                         $       411,923 $        367,817 $       367,817 $         44,106
                              Facility (Finegayan)                       Facility (Finegayan)              2009
                              700; Design, DPRI-Indoor Multipurpose      DPRI-Indoor Multipurpose        October 27,
                                                                                                                         $       88,630    $        2,804 $          2,804 $        85,826
                              Range                                      Range                              2010
                              705; Design, DPRI-Gas Chamber              DPRI-Gas Chamber                October 27,
                                                                                                                         $       66,815    $            0 $             0 $         66,815
     24




                                                                                                            2010
                              710; Design, DPRI-Engineering Pit          DPRI-Engineering Pit            October 27,
                                                                                                                         $       66,815    $            0 $             0 $         66,815
                                                                                                            2010
                              J001X; Design, Utilities and Site          Utilities and Site             February 14,
                                                                                                                         $     8,566,531   $    8,333,480 $      3,179,402 $       233,051
                              Improvements - Phase 1                     Improvements - Phase 1            2009
                              J006X Design, Apra Medical Clinic          Apra Medical Clinic (Apra
                                                                                                        April 11, 2009   $     2,533,344   $      940,473 $        94,713 $       1,592,871
                                                                         Harbor)
                              J007X Design, Waterfront Headquarters      Waterfront Headquarters
                                                                                                        April 11, 2009   $     2,034,582   $      899,842 $        42,729 $       1,134,740
                              Building                                   Building
                              J008X Design, Fire Station                 Fire Station (Finegayan)       April 25, 2009   $     1,822,420   $      865,658 $        74,749 $        956,762
                              J011; Design, Base Administrative          Base Administrative Building
                                                                                                        April 10, 2010   $      914,142    $      845,363 $       845,363 $         68,779
                              Building (Finegayan)                       (Finegayan)
                              J012; Design, Marine Logistics Group       Marine Logistics Group
                                                                                                        April 10, 2010   $      990,899    $      880,731 $       880,731 $        110,168
                              Headquarters Building                      Headquarters Building
                              J015; Design, Enlisted Dining Facility     Enlisted Dining Facility       April 10, 2010   $      916,380    $      827,876 $       827,876 $         88,504
                              J016; Design, Bachelors Enlisted           Bachelors Enlisted Quarters
                                                                                                        April 10, 2010   $      852,148    $      741,188 $       741,188 $        110,959
                              Quarters Complex                           Complex
                              J017; Design, Utilities and Site           Utilities and Site
                                                                                                        July 4, 2009     $     6,286,710   $    5,374,380 $      4,401,945 $       912,329
                              Improvements - Phase 2                     Improvements - Phase 2
                                                                                                                                                     Cost Incurred
                                                                                                                                    Cost Incurred                      Estimated
                                                                                                                  Total Estimated                     January 1 -
                                               Project               Description/Scope             Start Date                       to Date (US or                      Costs to
                                                                                                                        Cost                         December 31,
                                                                                                                                     GOJ Funds)                        Complete
                                                                                                                                                         2010
                                                                 Perform background and
                                                                 documentary archival
                                                                 research of historical and
                                                                 geographical information
                               P-50 - Historical Ordinance       concerning military, civilian,   July 14, 2009   $      108,477 $          51,111 $        35,234 $        57,366
                                                                 and war-time activities
                                                                 during 1920s through 1950s
                                                                 on the islands of Guam,
                                                                 Tinian, and Pagan.
                                                                 Natural resources bat
                                                                 surveys at Route 15, Andy
                                                                 South and Pagan; snail
                                                                 surveys at Route 15 and
                               E-54 - Bats & Snails              Andy South; and marine           July 24, 2009   $       73,746    $       40,000 $        25,000 $        33,746
                                                                 resources surveys at Oscar
                                                                 and Papa wharves at Apra
                                                                 Harbor are needed for the
                                                                 EIS.
                                                                 Consolidation and summary
                                                                 of all Section 7 natural
      25




                                                                 resource consultations           September 28,
                               E-16 - Natural Resource Study                                                      $      287,066    $      103,199 $        80,000 $       183,867
                                                                 (both informal and formal)           2009
                                                                 associated with the Guam
                                                                 build-up EIS.
                                                                 For archaeological surveys
                                                                 and cultural resources
                                                                 studies analyzing selected
                                                                                                  September 22,
                               E-75 - Cultural Resources Study   areas on the island of Guam                      $      148,271    $       40,731 $        40,731 $       107,540




                                                                                                                                                                                     Section 3: Project and Program Costs
                                                                                                      2009
                                                                 and various locations within
                                                                 the CNMI in support of the
                                                                 Joint Guam build-up EIS.
                                                                 Technical review of the
                                                                 technical assessment of
Guam Realignment Report




                                                                                                  September 21,
                               P-57 - Traffic Study              transportation infrastructure                    $      215,392    $       20,000 $        20,000 $       195,392




                                                                                                                                                                                                   (Section 2835(e)(1)(B))
                                                                                                      2009
                                                                 impacts due to community
                                                                 build-up.
                                                                 Acquisition of lease or fee
                               R-3 - Boundary Survey (Federal                                     September 25,
        February 1, 2011




                                                                 interests Route 15 area                          $      625,514    $       90,144 $             0 $       535,370
                               Aviation Agency)                                                       2009
                                                                 lands, Yigo, Guam.




                           	         Section 2835(e)(1)(B)
                          	         Section 2835(e)(1)(B)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                               (Section 2835(e)(1)(B))
                                                                                                                                                                               Section 3: Project and Program Costs
                                                                                                                                               Cost Incurred
                                                                                                                              Cost Incurred                      Estimated
                                                                                                            Total Estimated                     January 1 -
                                                Project         Description/Scope            Start Date                       to Date (US or                      Costs to
                                                                                                                  Cost                         December 31,
                                                                                                                               GOJ Funds)                        Complete
                                                                                                                                                   2010
                                                            All work necessary for
                                                            planning, coordinating,
                                                            conducting and reporting
                                                            on aeronautical and
                                                            environmental impacts           September 30,
                              E-53 - Airspace                                                               $      455,299    $      150,391 $             0 $       304,908
                                                            analyses supporting the             2009
                                                            establishment of special use
                                                            airspace overlying planned
                                                            USMC live fire ranges on
                                                            Guam, Tinian, and Pagan.
                                                            Funding to support Guam
                                                            sustainability program Phase    September 25,
                              LEED Sustainability Program                                                   $      677,129    $      194,590 $       180,490 $       482,539
                                                            II to build on the master           2009
                                                            planning effort.
                                                            Contractor shall prepare,
                                                            review, collect, file, store,
                                                                                            September 25,
                              E-31 - Admin Record Review    and index administrative                        $     1,000,000   $       89,513 $        59,661 $       910,487
                                                                                                2009
                                                            records supporting the ROD
                                                            for the Guam build-up.
     26




                                                            The planning services
                                                            contractor shall prepare
                                                            an on-base traffic analysis
                                                            in support of the Guam
                                                            build-up. The on-base
                                                            traffic analysis shall
                                                            provide transportation
                                                            and traffic engineering
                                                            recommendations,
                                                            calculations, and design        September 24,
                              On-Base Traffic Analysis                                                      $      275,262    $      124,192 $       122,992 $       151,070
                                                            guidelines to support the           2009
                                                            master planning efforts
                                                            primarily for the new
                                                            USMC base at Finegayan,
                                                            and North Ramp; and
                                                            transportation engineering
                                                            support for Andersen South,
                                                            Route 15 Firing Range
                                                            area, and Naval Base Guam
                                                            (Apra).
                                                                                                                                                    Cost Incurred
                                                                                                                                   Cost Incurred                      Estimated
                                                                                                                 Total Estimated                     January 1 -
                                              Project             Description/Scope              Start Date                        to Date (US or                      Costs to
                                                                                                                       Cost                         December 31,
                                                                                                                                    GOJ Funds)                        Complete
                                                                                                                                                        2010
                                                              Investigations to assess
                                                              the curation needs of
                                                              Commander Navy Region
                                                              Marianas, AAFB, GovGuam,
                                                                                               September 22,
                               E-51 - Arch and Bio Curation   and CNMI Government                                $       47,990    $       38,392 $             0 $         9,098
                                                                                                   2009
                                                              to accommodate artifacts
                                                              and ecofacts recovered in
                                                              conjunction with the Joint
                                                              Guam Build-up project.
                                                              Provide NAVFAC support in
                               P-46 - SPE Construct           analyzing costs and rates for    January 6, 2009   $      985,520    $      981,656 $       788,382 $         3,864
                                                              various SPE utility options.
                                                              Services necessary to
                                                              support preparation of an
                                                              EIS/Overseas EIS and
                                                              all other appropriate and
                                                              associated documentation
                                                              for the proposed 1)
                                                              relocation of the USMC
                                                              forces to the Mariana            September 14,
      27




                               E-04 Draft ER/Draft EIS                                                           $      393,191    $      558,488 $       307,002 $               0
                                                              Islands; 2) enhancement              2009
                                                              of infrastructure, training,
                                                              and capabilities for transient
                                                              Nuclear Aircraft Carrier
                                                              groups in Guam; and 3)
                                                              placement of a U.S. Army
                                                              Ballistic Missile Defense
                                                              Task Force in Guam.




                                                                                                                                                                                      Section 3: Project and Program Costs
                                                              Provide an electromagnetic
                                                              radiation analysis to support
                                                              the on-going Guam Joint
                                                              Military Master Plan and         September 22,
                               P-15 - Master Plan Phase II                                                       $      676,212    $      417,647 $       404,647 $       258,565
                                                              EIS for the USMC relocation          2009
Guam Realignment Report




                                                              Okinawa to Guam for new




                                                                                                                                                                                                    (Section 2835(e)(1)(B))
                                                              electromagnetic radiation
                                                              emitting equipment.
        February 1, 2011




                           	         Section 2835(e)(1)(B)
                          	         Section 2835(e)(1)(B)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                         (Section 2835(e)(1)(B))
                                                                                                                                                                                         Section 3: Project and Program Costs
                                                                                                                                                        Cost Incurred
                                                                                                                                       Cost Incurred                      Estimated
                                                                                                                     Total Estimated                     January 1 -
                                             Project                 Description/Scope               Start Date                        to Date (US or                      Costs to
                                                                                                                           Cost                         December 31,
                                                                                                                                        GOJ Funds)                        Complete
                                                                                                                                                            2010
                                                                 The Navy is interested in
                                                                 acquiring an interest in lease
                                                                 or fee to total current parcels
                                                                 of land under multiple
                                                                 ownerships in connection
                                                                                                   September 22,
                              R-1 - Appraisal Guam               with construction of a                              $      196,400    $       39,832 $        39,832 $       156,568
                                                                                                       2009
                                                                 weapons firing range facility.
                                                                 The requested appraisals
                                                                 are required to assist with
                                                                 planning for and acquiring
                                                                 the parcels identified.
                                                                 Acquisition of lease or fee
                              R-3 - Boundary Survey (Route 15)   interests Route 15 area           October 1, 2009   $      210,199    $       31,184 $             0 $       179,015
                                                                 lands, Yigo, Guam.
                                                                 Program management
                                                                 support services in 1)
                                                                 program integrated schedule
                                                                 management, 2) information
                                                                 management, 3) program
     28




                                                                 integration, 4) Guam
                                                                                                   September 30,
                              S-10 - Program Support Contract    program management                                  $     3,000,000   $            0 $             0 $      3,000,000
                                                                                                       2009
                                                                 office support, 5) asset
                                                                 management support, 6)
                                                                 capital improvements project
                                                                 management support, 7)
                                                                 environmental support, and
                                                                 8) public works support.
                                                                                                                                                         Cost Incurred
                                                                                                                                        Cost Incurred                      Estimated
                                                                                                                      Total Estimated                     January 1 -
                                              Project                     Description/Scope            Start Date                       to Date (US or                      Costs to
                                                                                                                            Cost                         December 31,
                                                                                                                                         GOJ Funds)                        Complete
                                                                                                                                                             2010
                                                                      Significant amounts of
                                                                      construction and demolition
                                                                      debris are anticipated
                                                                      to be generated by the
                                                                      project planned. For the
                                                                      purposes of this study,
                                                                      construction and demolition
                                                                      debris shall include all
                                                                      solid waste generated
                               E-50 Construction and Demolition                                       September 22,
                                                                      on construction projects                        $      249,609    $       89,575   $      12,602 $       160,034
                               Recycling Study                                                            2009
                                                                      including construction
                                                                      debris (concrete, wood,
                                                                      asphalt, blocks, drywall,
                                                                      windows, etc); green waste
                                                                      from clearing and grubbing
                                                                      operations; and packaging
                                                                      material (cardboard,
                                                                      styrofoam, wrap, pallets,
                                                                      etc.).
                                                                      U.S. Geological Survey will
      29




                                                                      perform data collection,
                                                                      field surveys, data analysis,
                                                                      water budget calculation,
                               E-49 – U.S. Geological Survey Ground   numerical modeling, report      December 30,
                                                                                                                      $      425,000    $      275,471 $       260,200 $       149,529
                               Water Study in Guam                    writing, and data archive.         2009
                                                                      U.S. Geological Survey will
                                                                      provide technical expertise,
                                                                      planning, logistical support,
                                                                      travel and field support.




                                                                                                                                                                                         Section 3: Project and Program Costs
                                                                      In support of public hearings
                                                                      on Guam, private facilitator
                                                                      for all hearings, mock
                                                                      hearing and media training,     November 10,
                               E-77 - Public Comment Assistance                                                       $      451,350    $      365,921 $       365,921 $        85,429
Guam Realignment Report




                                                                      90-day Draft EIS review            2009
                                                                      location, and labor and




                                                                                                                                                                                                       (Section 2835(e)(1)(B))
                                                                      equipment to support Draft
                                                                      EIS review location.
                                                                      All work necessary for
        February 1, 2011




                                                                      planning, coordinating,
                                                                      conducting and reporting
                                                                                                      February 24,
                               P-08 - Noise Study                     on noise contour modeling                       $      757,100    $      751,184 $             0 $         5,916
                                                                                                         2009
                                                                      associated with proposed
                                                                      firing ranges on Guam and
                                                                      Tinian.


                           	         Section 2835(e)(1)(B)
                          	         Section 2835(e)(1)(B)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                          (Section 2835(e)(1)(B))
                                                                                                                                                                                          Section 3: Project and Program Costs
                                                                                                                                                          Cost Incurred
                                                                                                                                         Cost Incurred                      Estimated
                                                                                                                       Total Estimated                     January 1 -
                                             Project                    Description/Scope              Start Date                        to Date (US or                      Costs to
                                                                                                                             Cost                         December 31,
                                                                                                                                          GOJ Funds)                        Complete
                                                                                                                                                              2010
                                                                    Conduct remote sensing
                                                                    mapping of jurisdictional
                                                                    wetlands located within
                                                                    alternative project areas
                                                                    proposed in the Guam
                                                                    EIS/Overseas EIS for the
                                                                    proposed 1) relocation of the
                                                                    USMC forces to the Mariana        December 29,
                              E-67 - Wetlands Delineation Study                                                        $      156,534    $      150,144 $       150,144 $         6,390
                                                                    Islands; 2) enhancement              2009
                                                                    of infrastructure, training,
                                                                    and capabilities for transient
                                                                    Nuclear Aircraft Carrier
                                                                    groups in Guam; and 3)
                                                                    placement of a U.S. Army
                                                                    Ballistic Missile Defense
                                                                    Task Force in Guam.
                                                                    Validate the flow capacity
                                                                    of Guam Water Authority
                                                                    (GWA) Sewer Interceptor
     30




                              E-79 - Sewer Interceptor              on Route 3, from AAFB            January 8, 2010   $       90,018    $       85,517 $        85,517 $         4,501
                                                                    SMH tie-in to GWA Northern
                                                                    District Wastewater
                                                                    Treatment Plant.
                                                                    Prepare and provide
                                                                    oversight of Explosives
                                                                    Safety Submission for
                                                                    Finegayan, AAFB and
                              P-60 - Explosives Safety Submission                                    February 4, 2010 $       313,997    $       72,073 $        72,073 $       241,924
                                                                    Apra Harbor construction
                                                                    areas where construction
                                                                    is scheduled in FYs 2010-
                                                                    2011.
                                                                                                                                                          Cost Incurred
                                                                                                                                         Cost Incurred                       Estimated
                                                                                                                       Total Estimated                     January 1 -
                                               Project                    Description/Scope             Start Date                       to Date (US or                       Costs to
                                                                                                                             Cost                         December 31,
                                                                                                                                          GOJ Funds)                         Complete
                                                                                                                                                              2010
                                                                     This study will determine
                                                                     what is needed to best
                                                                     provide wastewater service
                                                                     (collection, treatment, and
                                                                     disposal) to the DoD in
                                                                     Northern Guam. Identify
                                                                     and develop alternatives
                                                                     to support the existing and
                                                                     planned DoD development.
                                                                                                       February 23,
                               E-92 - Water Utility Study Update     Provide a comparative                             $       39,734    $       39,734 $        39,734 $                0
                                                                                                          2010
                                                                     analysis and provide
                                                                     recommendations for
                                                                     collection, treatment, and
                                                                     disposal of wastewater.
                                                                     Provide environmental
                                                                     impact analysis (for use in
                                                                     the EIS) on the most feasible
                                                                     treatment and disposal
                                                                     alternatives.
                                                                     Analyze the environmental
      31




                                                                     impacts of supporting the
                                                                     establishment of special use
                                                                     airspace overlying proposed
                               E-53 - Airspace Feasibility Study                                       March 4, 2010   $       65,088    $        1,897 $          1,897 $        63,191
                                                                     Marine Corps aviation
                                                                     activities and live fire ranges
                                                                     on the islands of Guam,
                                                                     Tinian, and Pagan.
                                                                     Funds NAVFAC Pacific
                               S-06 NAVFAC Marianas In-house




                                                                                                                                                                                             Section 3: Project and Program Costs
                                                                     In-house management and           June 16, 2010   $     1,645,000   $            0 $             0 $       1,645,000
                               Support Costs
                                                                     coordination costs.
                                                                     Funds update to FHWA
                                                                     traffic study including traffic
                                                                     demand modeling and
                               D-13 Update FHWA Traffic Study
Guam Realignment Report




                                                                                                       June 16, 2010   $       56,586    $        2,324 $          2,324 $        54,262
                                                                     engineering, pavement,




                                                                                                                                                                                                           (Section 2835(e)(1)(B))
                                                                     bridge and cost estimate
                                                                     analysis.
                                                                     Funds preparation of request
                               D-14 Building 207/228/155 Furniture                                     June 16, 2010   $      755,302    $            0 $             0 $        755,302
        February 1, 2011




                                                                     for proposal and furniture.
                                                                     Funds comprehensive base
                               D-16 Study AAFB                       development study for             June 18, 2010   $     1,073,440   $        2,989   $        2,989 $      1,070,451
                                                                     AAFB, Guam.
                                                                     Funds comprehensive
                               DPRI Program Support Services                                           June 17, 2010   $      875,000    $            0 $             0 $        875,000
                                                                     support for DPRI efforts.


                           	         Section 2835(e)(1)(B)
                          	         Section 2835(e)(1)(B)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                             (Section 2835(e)(1)(B))
                                                                                                                                                                                             Section 3: Project and Program Costs
                                                                                                                                                          Cost Incurred
                                                                                                                                         Cost Incurred                       Estimated
                                                                                                                       Total Estimated                     January 1 -
                                               Project                    Description/Scope             Start Date                       to Date (US or                       Costs to
                                                                                                                             Cost                         December 31,
                                                                                                                                          GOJ Funds)                         Complete
                                                                                                                                                              2010
                                                                      Funds draft oversight work
                              E-04 Draft EIS                          in support of work performed    May 13, 2010     $      179,270    $      179,270 $       179,270 $                0
                                                                      for EIS.
                                                                      Funds oversight work in
                              E-05 Final EIS Support                  support of work performed        May 7, 2010     $     1,856,460   $    1,024,008 $      1,024,008 $       832,452
                                                                      for EIS.
                                                                      Funds NAVFAC Pacific
                              E-05 Final EIS Support In-house
                                                                      In-house management and         March 15, 2010   $       76,800    $       10,956 $        10,956 $         65,844
                              Support
                                                                      coordination costs.
                                                                      Funds NAVFAC Pacific
                              E-09 Water Study In-house Support       In-house management and         March 15, 2010   $       28,000    $        5,831 $          5,831 $        22,169
                                                                      coordination costs.
                                                                      Funds NAVFAC Pacific
                                                                      In-house management and
                              E-12 Solid Waste Management Plan
                                                                      coordination costs in support   March 17, 2010   $       20,000    $       20,000 $        20,000 $                0
                              In-house Support
                                                                      of environmental study
                                                                      (Solid Waste Management).
                                                                      Funds management and
                              E-16 Bio Natural Resources (In-house
     32




                                                                      coordination costs for Bio      March 17, 2010   $       80,000    $       80,000 $        80,000 $                0
                              Management)
                                                                      Natural Resources.
                                                                      Funds NAVFAC Pacific
                              E-31 Admin Records Review               In-house management and         May 13, 2010     $       16,799    $       16,799 $        16,799 $                0
                                                                      coordination costs.
                                                                      Funds NAVFAC Pacific
                                                                      In-house management
                              E-37 Cultural Resources Study           coordination costs that         May 13, 2010     $         4,959   $        4,959 $          4,959 $               0
                                                                      supports environmental
                                                                      studies.
                                                                      Funds NAVFAC Pacific
                                                                      In-house management and
                              E-39 Cultural Landscape Report Tinian                                    May 7, 2010     $       19,965    $       19,965 $        19,965 $                0
                                                                      coordination costs in support
                                                                      of the environmental study.
                                                                      Funds NAVFAC Pacific
                                                                      In-house management
                              E-40 Socioeconomic Study                coordination costs that         May 13, 2010     $       22,874    $       22,874 $        22,874 $                0
                                                                      supports environmental
                                                                      studies.
                                                                      Funds NAVFAC Pacific
                              E-41 Finegayan                          In-house management and         May 13, 2010     $       10,375    $       10,375 $        10,375 $                0
                                                                      coordination costs.
                                                                                                                                                              Cost Incurred
                                                                                                                                             Cost Incurred                       Estimated
                                                                                                                           Total Estimated                     January 1 -
                                               Project                       Description/Scope              Start Date                       to Date (US or                       Costs to
                                                                                                                                 Cost                         December 31,
                                                                                                                                              GOJ Funds)                         Complete
                                                                                                                                                                  2010
                                                                        Funds NAVFAC Pacific
                               E-44 Utility Study (Water/Lost River)    In-house management and           May 13, 2010     $       13,454    $       13,288 $        13,288 $            166
                                                                        coordination costs.
                                                                                                          September 22,
                               E-46 Well Pump Testing                   Well testing Guam.                                 $      540,290    $        7,358 $          7,358 $       532,932
                                                                                                              2010
                                                                        Funds In-house
                                                                        management and
                               E-48 Utility Study                                                         May 13, 2010     $         3,653   $        3,653 $          3,653 $               0
                                                                        coordination costs for Utility
                                                                        Study (Apra Landfill).
                                                                        Funds NAVFAC Pacific
                               E-63 Drainage Low Impact Dev             In-house management and           May 13, 2010     $       19,188    $       19,162 $        19,162 $                26
                                                                        coordination costs.
                                                                        Funds NAVFAC Pacific
                               E-70 Environmental Study Emissions       In-house management and           May 13, 2010     $       25,745    $       25,745 $        25,745 $                 0
                                                                        coordination costs.
                                                                        Funds NAVFAC Pacific
                               E-71 Northern District Wastewater
                                                                        In-house management and           May 13, 2010     $         1,241   $        1,241 $          1,241 $                0
                               Treatment Plant Diffuser Study
                                                                        coordination costs.
                                                                        Funds NAVFAC Pacific
      33




                               E-83 EIS Tiger Team In-house Support     In-house management and            May 7, 2010     $         6,000   $            0 $             0 $          6,000
                                                                        coordination costs.
                                                                        Funds archeological testing
                                                                        and data recovery of known        November 15,
                               E-87 Archeological Mitigation                                                               $       41,000    $            0 $             0 $         41,000
                                                                        cultural/historical significant      2010
                                                                        sites.
                                                                        Funds NAVFAC Pacific




                                                                                                                                                                                                  Section 3: Project and Program Costs
                               E-87 Archeological Mitigation In-house
                                                                        In-house management and           April 15, 2010   $      799,977    $       60,085 $        60,085 $        739,892
                               Support
                                                                        coordination costs.
                                                                        Funds NAVFAC Pacific
                               E-89 Wastewater Treatment Plant          In-house management and
                                                                                                          May 13, 2010     $         6,141   $        2,441 $          2,441 $         3,700
                               Upgrade                                  coordination costs for the
Guam Realignment Report




                                                                        Wastewater Treatment Plant.




                                                                                                                                                                                                                (Section 2835(e)(1)(B))
                               E-90 Barrigada Water Utility Study       Funds update to Water Utility
                                                                                                          March 31, 2010   $       12,400    $       10,706 $        10,706 $          1,694
                               (In-house Costs)                         Study (In-house Costs).
                                                                        Funds update to Power              February 22,
                               E-91 Power Utility Study Update                                                             $       35,364    $            0 $             0 $         35,364
        February 1, 2011




                                                                        Utility Study to support EIS.         2010
                                                                        Funds NAVFAC Pacific
                               E-91 Power Utility Study Update                                             February 22,
                                                                        In-house management and                            $       10,000    $        9,204 $          9,204 $           796
                               In-house Support                                                               2010
                                                                        coordination costs.




                           	         Section 2835(e)(1)(B)
                          	         Section 2835(e)(1)(B)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                             (Section 2835(e)(1)(B))
                                                                                                                                                                                             Section 3: Project and Program Costs
                                                                                                                                                           Cost Incurred
                                                                                                                                          Cost Incurred                        Estimated
                                                                                                                        Total Estimated                     January 1 -
                                             Project                      Description/Scope             Start Date                        to Date (US or                        Costs to
                                                                                                                              Cost                         December 31,
                                                                                                                                           GOJ Funds)                          Complete
                                                                                                                                                               2010
                                                                      Funds NAVFAC Pacific
                              E-92 Water Utility Update In-house                                       February 23,
                                                                      In-house management and                           $       12,400    $        8,139 $          8,139 $          4,261
                              Support                                                                     2010
                                                                      coordination costs.
                                                                      Funds update for the Water
                              E-93 Waste Water Utility Study Update                                   March 30, 2010    $       33,410    $        9,795 $          9,795 $         23,615
                                                                      Utility Study to support EIS.
                                                                      Funds preparation of
                              E-95 Integrated Solid Waste
                                                                      integrated Solid Waste           July 16, 2010    $       75,060    $        6,095 $          6,095 $         68,965
                              Management
                                                                      Management Plan for JRM.
                                                                      Funds solid waste
                                                                      management study and            September 30,
                              E-95 Solid Waste Management                                                               $       63,774    $            0 $             0 $          63,774
                                                                      impact on environmental             2010
                                                                      services.
                                                                      Funds revision to Coastal
                                                                      Consistency Determination
                              E-96 Coastal Consistency                using phased approach to
                                                                                                       July 14, 2010    $       16,956    $            0 $             0 $          16,956
                              Determination                           reflect impact to Guam's
                                                                      coastal zone from current
                                                                      build-up in FYs 2010-2011.
     34




                                                                      Funds NAVFAC Pacific
                              E-96 Coastal Consistency
                                                                      In-house management and          July 14, 2010    $         3,000   $            0 $             0   $         3,000
                              Determination In-house Support
                                                                      coordination costs.
                                                                      Funds additional and
                                                                      updated hardcopies of
                              E-98 Revised Hardcopies Final EIS                                       August 19, 2010   $       22,188    $            0 $             0 $          22,188
                                                                      Final EIS and ROD and
                                                                      distribution.
                                                                      Funds best management
                                                                      practices to comply with
                                                                                                      September 15,
                              E-99 Guam Wellhead Protection Regs      Guam wellhead protection                          $       27,135    $            0 $             0 $          27,135
                                                                                                          2010
                                                                      regs proposed under Guam
                                                                      EPA.
                                                                      Funds development of scope
                                                                      and costs for development of
                              J-023 Bachelor Officer Quarters 1391s                                    April 6, 2010    $      279,137    $      246,587 $       246,587 $          32,550
                                                                      GOJ DD 1391 for Bachelor
                                                                      Officer Quarters design.
                                                                      Funds costs for 1391
                              J-025 Finegayan Medical/Dental Clinic
                                                                      development for medical/         April 7, 2010    $      299,174    $      197,598 $       197,598 $         101,576
                              1391s
                                                                      dental clinics on Finegayan.
                                                                      Funds NAVFAC Pacific
                              J-025 Finegayan Medical/Dental Clinic
                                                                      In-house management and          April 6, 2010    $       62,000    $        2,324 $          2,324 $         59,676
                              1391 In-house Support
                                                                      coordination costs.
                                                                                                                                                          Cost Incurred
                                                                                                                                         Cost Incurred                       Estimated
                                                                                                                       Total Estimated                     January 1 -
                                               Project                   Description/Scope             Start Date                        to Date (US or                       Costs to
                                                                                                                             Cost                         December 31,
                                                                                                                                          GOJ Funds)                         Complete
                                                                                                                                                              2010
                                                                     Funds development of scope
                                                                     and costs for development
                               J-02X Admin Facilities 1391s                                           April 2, 2010    $       661,116 $        600,232 $       600,232 $         60,884
                                                                     of GOJ DD 1391 for Admin
                                                                     Facilities design.
                                                                     Funds NAVFAC Pacific
                               P-01 Master Plan Phase II In-house
                                                                     In-house management and         March 17, 2010    $      410,000    $      404,647 $       404,647 $          5,353
                               Support
                                                                     coordination costs.
                                                                     Funds update to Guam
                                                                     Build-up Development Plan
                               P-01B Guam Master Plan Phase III                                       July 30, 2010    $     1,250,601   $          661 $           661 $       1,249,940
                                                                     to incorporate changes to
                                                                     earlier version of the plan.
                                                                     Funds NAVFAC Pacific
                               P-04 Project Documentation In-house
                                                                     In-house management and         March 17, 2010    $       10,000    $        3,000 $          3,000 $         7,000
                               Support Costs
                                                                     coordination costs.
                                                                     Funds activity level 1391s
                               P-04 Project Documentation            for GOJ Mamizu and Marine       August 13, 2010   $      490,000    $       10,000 $        10,000 $        480,000
                                                                     Corps MILCON projects.
                                                                     Funds NAVFAC Pacific
                                                                     In-house management and
      35




                               P-30 Military Master Training Plan    coordination costs in support    May 7, 2010      $      443,543    $            0 $             0 $        443,543
                                                                     of the Military Master
                                                                     Training Plan.
                                                                     Funds blast analysis with
                                                                     intent to reduce ATFP
                               P-62 ATFP Blast Analysis              standoff distances for new       April 2, 2010    $         9,200   $        9,106 $          9,106 $               94
                                                                     buildings at Marine Corps
                                                                     Base Guam.




                                                                                                                                                                                              Section 3: Project and Program Costs
                                                                     Funds creation of
                                                                     topographic contour data of
                               P-63 Tinian Pagan Topographic Data    CNMI to support U.S. Marine     March 5, 2010     $      288,668    $       39,586 $        39,586 $        249,082
                                                                     Forces Pacific training
                                                                     exercises.
Guam Realignment Report




                                                                                                                                                                                                            (Section 2835(e)(1)(B))
                                                                     Funds support for Marine
                                                                     Forces Pacific in developing
                                                                     outreach and engagement
                               P-64 Guam Integrated Master Plan                                      August 19, 2010   $       853,511 $              0 $             0 $        853,511
                                                                     strategies for potential
        February 1, 2011




                                                                     stakeholders in the Marine
                                                                     Corps relocation to Guam.
                                                                     Funds NAVFAC Pacific
                               R-05 Title Evidence                   In-house management and         March 18, 2010    $       14,300    $        5,857 $          5,857 $         8,443
                                                                     coordination costs.




                           	         Section 2835(e)(1)(B)
                          	         Section 2835(e)(1)(B)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                              (Section 2835(e)(1)(B))
                                                                                                                                                                                              Section 3: Project and Program Costs
                                                                                                                                                          Cost Incurred
                                                                                                                                         Cost Incurred                        Estimated
                                                                                                                    Total Estimated                        January 1 -
                                              Project                   Description/Scope            Start Date                          to Date (US or                        Costs to
                                                                                                                          Cost                            December 31,
                                                                                                                                          GOJ Funds)                          Complete
                                                                                                                                                              2010
                                                                    Funds In-house
                                                                    management and
                              R-08 Environmental Baseline Study
                                                                    coordination costs for          May 7, 2010     $            8,800   $            0 $             0 $           8,800
                              CNMI In-house Support
                                                                    Environmental Baseline
                                                                    Study, CNMI.
                                                                     Funds NAVFAC Pacific
                              R-11 HSPE Suitability In-house Support In-house management and       March 17, 2010   $          19,000    $            0 $             0 $          19,000
                                                                     coordination costs.
                                                                    Funds environmental site
                              R-13 Environmental Baseline Study                                    August 4, 2010   $         318,165    $            0   $           0   $       318,165
                                                                    assessment.
                                                                    Funds relocation assistance
                                                                    planning and implementation
                                                                    services for occupants          November 3,
                              R-09 Relocation Assistance                                                            $          116,448 $          5,893 $          5,893 $        110,555
                                                                    of lands in which Navy             2009
                                                                    may acquire fee or lease
                                                                    interests.
                                                                    Funds architect-engineering
                                                                    services for project
                              S-10 GOJ Design Document Support                                      April 2, 2010   $          44,328    $        5,883 $          5,883 $         38,445
     36




                                                                    management support for
                                                                    GOJ design documents.
                                                                    Funds work necessary for
                                                                    planning, coordination, and
                              S-12 PIB IPR Facilitation                                            June 14, 2010    $            6,000   $        6,000 $          6,000 $                0
                                                                    reporting Guam program
                                                                    integration.
                                                                    Funds support all efforts
                              S-15 NAVFAC Pacific Program Support   associated with NAVFAC         May 17, 2010         $   3,010,024    $            0 $             0 $        3,010,024
                                                                    Pacific activities for Guam.
                                                                    Funds architect-engineering
                                                                    services to provide a SOW
                                                                                                   September 16,
                              U-03 Tumon Maui Well Rehab            in preparation for design                           $    280,790     $            0 $             0 $         280,790
                                                                                                       2010
                                                                    build rehab for Tumon Maui
                                                                    well.
                                                                    Funds site plans,
                                                                                                    October 26,
                              D-0016 Facility Site Plans AAFB       development studies and                         $          20,650    $       20,650 $        20,650 $                 0
                                                                                                       2010
                                                                    infrastructure for AAFB.
                                                                    Funds In-house Support for      October 26,
                              E-0045 Micronesian Biosecurity Plan                                                   $          31,500    $       31,500 $        31,500 $                 0
                                                                    Micronesian Security Plan.         2010
                                                                    Funds In-house to manage
                                                                    groundwater assessment         November 18,
                              E-0048 Groundwater Plan Apra Harbor                                                   $            4,960   $        4,960 $          4,960 $                0
                                                                    and monitoring plan for Apra      2010
                                                                    Harbor.
                                                                                                                                                         Cost Incurred
                                                                                                                                        Cost Incurred                       Estimated
                                                                                                                      Total Estimated                     January 1 -
                                              Project                     Description/Scope             Start Date                      to Date (US or                       Costs to
                                                                                                                            Cost                         December 31,
                                                                                                                                         GOJ Funds)                         Complete
                                                                                                                                                             2010
                                                                      Funds In-house NAVFAC
                                                                      Pacific to develop recycling
                                                                                                        October 26,
                               E-0050 In-house Recycling Study        study to develop alternative                    $         4,960   $        4,960 $          4,960 $               0
                                                                                                           2010
                                                                      costs for diverting
                                                                      non-hazardous solid waste.
                                                                      Funds In-house labor,
                               S-0006 In-house Labor Support for
                                                                      support, and travel for           October 26,
                               Government Program Management                                                          $     4,952,976   $      355,120 $       355,120 $       4,597,856
                                                                      Government Program                   2010
                               Office DPRI
                                                                      Management Office DPRI.
                                                                      Funds Cultural Resources
                               E-0102 In-house Funds Cultural         consultation for research         October 26,
                                                                                                                      $      366,000    $       78,500 $        78,500 $        287,500
                               Resources                              projects and reachback               2010
                                                                      support for mitigation.
                                                                      Funds labor, associated
                               S-005 In-house Funds for Government    travel, and support for           October 26,
                                                                                                                      $      767,016    $       89,667 $        89,667 $        677,349
                               Program Management Office              Government Program                   2010
                                                                      Management Office.
                                                                      In-house funds for biological
                               E-0101 Funds Reachback Support for                                      December 23,
                                                                      opinion for U.S. Fish Wildlife                  $       65,500    $       65,500 $        65,500 $                0
                               U.S. Fish Wildlife Service                                                 2010
      37




                                                                      Service.
                                                                      Funds architect-engineering
                               U-0003 In-house Funds Architect-       services in preparation for       October 21,
                                                                                                                      $       72,400    $       36,200 $        36,200 $         36,200
                               Engineering Services Tumon Maui Well   design build to rehabilitate         2010
                                                                      Tumon Maui well.
                                                                      Support to NAVFAC Pacific
                                                                      Government Program
                               S-0016 Program Support 2nd Option                                        October 25,
                                                                      Management Office                               $       10,000    $        2,500 $          2,500 $         7,500




                                                                                                                                                                                            Section 3: Project and Program Costs
                               Year                                                                        2010
                                                                      managing DPRI and other
                                                                      projects.
                                                                      Support to NAVFAC Pacific
                                                                      Government Program
                               S-0015 Program Support 2nd Option                                        October 25,
                                                                      Management Office                               $       115,000 $         28,750 $        28,750 $         86,250
Guam Realignment Report




                               Year                                                                        2010
                                                                      managing DPRI and other




                                                                                                                                                                                                          (Section 2835(e)(1)(B))
                                                                      projects.
                                                                      Funds NAVFAC Pacific
                                                                      in support of contract
                               R-0007 Environmental Site                                                October 22,
        February 1, 2011




                                                                      oversight for Phase 2 and                       $       36,000    $       36,000 $        36,000 $                0
                               Assessment-Federal Aviation Agency                                          2010
                                                                      Phase 1 environmental site
                                                                      assessment.




                           	         Section 2835(e)(1)(B)
                          	         Section 2835(e)(1)(B)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                           (Section 2835(e)(1)(B))
                                                                                                                                                                                           Section 3: Project and Program Costs
                                                                                                                                                         Cost Incurred
                                                                                                                                        Cost Incurred                      Estimated
                                                                                                                      Total Estimated                     January 1 -
                                             Project                        Description/Scope           Start Date                      to Date (US or                      Costs to
                                                                                                                            Cost                         December 31,
                                                                                                                                         GOJ Funds)                        Complete
                                                                                                                                                             2010
                                                                        Funds NAVFAC Pacific
                                                                        in support of contract
                              R-0008 Environmental Site                                                 October 22,
                                                                        oversight for Phase 2 and                     $       36,000    $       36,000 $        36,000 $               0
                              Assessment-Route 15                                                          2010
                                                                        Phase 1 environmental site
                                                                        assessment.
                                                                        Funds contract oversight to
                                                                        perform site assessment to
                              R-0011 Environmental Condition                                            October 22,
                                                                        document environmental                        $       36,000    $       36,000 $        36,000 $               0
                              Property Study                                                               2010
                                                                        condition for use of family
                                                                        housing.
                                                                        Funds oversight of post         October 25,
                              P-0001B Guam Master Plan Phase III                                                      $      531,000    $      132,750 $       132,750 $       398,250
                                                                        ROD development plans.             2010
                                                                        Funds support for
                              P-0064 Guam Community Integrated          preparation of a Guam           October 25,
                                                                                                                      $       41,000    $       10,250 $        10,250 $        30,750
                              Master Plan                               Community Integrated               2010
                                                                        Master Plan.
                                                                        Funds management
                                                                        of acoustic monitoring          October 25,
                              N-0038 Acoustic Monitoring                                                              $       33,620 $          11,206 $        11,206 $        22,414
     38




                                                                        equipment for wharf                2010
                                                                        improvements.
                                                                        Funds follow on National
                              E-0104 Follow on National                 Environmental Policy Act        October 25,
                                                                                                                      $      264,000    $       66,000 $        66,000 $       198,000
                              Environmental Policy Act                  requirements for Guam and          2010
                                                                        CNMI relocation EIS.
                                                                        Funds NAVFAC Pacific to
                              E-0100 Site Investigation Finegayan                                       October 26,
                                                                        determine lateral boundary                    $       25,200    $       25,200 $        25,200 $               0
                              Landfill                                                                     2010
                                                                        of landfill.
                                                                        Funds support and
                                                                        presentation of best
                              E-0099 Best Management Practices                                          October 26,
                                                                        management practices                          $       10,490    $       10,490 $        10,490 $               0
                              Guam Wellhead                                                                2010
                                                                        document to Guam EPA;
                                                                        finalize under TDL021.
                                                                        Funds additional analysis
                                                                        of airspace requirements,
                              E-0053 Special Use Airspace Feasibility                                   October 26,
                                                                        impacts for range layouts,                    $       35,300    $       35,300 $        35,300 $               0
                              Study                                                                        2010
                                                                        and associated proposed
                                                                        mitigation efforts.
                                                                        Funds technical support for
                                                                        cultural resources project to
                              E-0051 Guam/CNMI Curation                                                 October 26,
                                                                        assess curation capacity of                   $       16,000    $       16,000 $        16,000 $               0
                              Assessment                                                                   2010
                                                                        DoD, Guam, and Northern
                                                                        Marianas.
                                                                                                                                                                                  Cost Incurred
                                                                                                                                                            Cost Incurred                                Estimated
                                                                                                                                     Total Estimated                               January 1 -
                                              Project                            Description/Scope                 Start Date                               to Date (US or                                Costs to
                                                                                                                                           Cost                                   December 31,
                                                                                                                                                             GOJ Funds)                                  Complete
                                                                                                                                                                                      2010
                                                                            Renovate buildings
                                                                            207/228/155 into habitable
                                                                            office space at Finegayan,          September 16,
                               Design Build Multiple Award Contract                                                                  $       3,621,600     $                 0 $                  0 $         3,621,600
                                                                            Naval Computer and                      2010
                                                                            Telecommunications Station
                                                                            (NCTS), Guam.
                                                                            Reliability review and
                               P-59 Combustion Study                        analysis of combustion             January 6, 2010       $           11,000 $              11,000 $             11,000 $                    0
                                                                            turbines.
                                                                            Funds Joint Venture
                                                                            Management support
                                                                            TOI NAVFAC Pacific in
                               S-16 Guam Program Support                    managing Guam Program              January 6, 2010       $       1,557,743     $                 0 $                  0 $         1,557,743
                                                                            Office (i.e., cost engineering,
                                                                            proposal estimate, and
                                                                            scheduling).
                                                                            Survey all potential Army
                                                                            Air and Missile Defense               January 26,
                               Archeological Survey                                                                                  $         165,000     $         160,893 $            160,893 $                     0
                                                                            Command unit sites                       2010
      39




                                                                            proposed in EIS.
                                                                                                                  January 27,
                               EIS                                          EIS processing fee.                                      $          27,000     $          27,000 $              27,000 $                    0
                                                                                                                     2010
                                 Total                                                                                               $    207,681,642      $     58,124,245 $          44,529,292 $        149,718,086

                           Sources: ASA(FM&C) response to DoD OIG data call, 1/14/2011; NAVFAC Headquarters response to DoD OIG data call, 1/18/2011; and Headquarters USMC response to DoD OIG data call, 1/26/2011.




                                                                                                                                                                                                                            Section 3: Project and Program Costs
Guam Realignment Report




                                                                                                                                                                                                                                          (Section 2835(e)(1)(B))
        February 1, 2011




                           	         Section 2835(e)(1)(B)
                         Section 3: Project and Program Costs
                         (Section 2835(e)(1)(B))

                         Other Federal Agency Project and Program List
                         In calendar year 2009, the DOT reported four projects that were directly associated with the realignment. The
                         scope of the projects included the Port of Guam Improvement Enterprise Program, National Environmental
                         Policy Act document preparation and coordination, design build requests for access road projects, and
                         administrative costs for travel and personnel costs. These projects incurred costs of approximately $7.7 million
                         with an estimated completion cost of approximately $201.2 million.6

                         For calendar year 2010, the DOC and DOT identified funds directly associated with the realignment of military
                         installations and military personnel to Guam. Specifically, these agencies reported a total of five projects that
                         were directly associated with the realignment. These projects incurred costs of approximately $3.0 million with
                         an estimated completion cost of approximately $50.1 million. Table 6 identifies other Federal agency projects
                         and associated costs for calendar year 2010.

                                                       Table 6. Costs for Other Federal Agency Projects and Programs

                                                                                                                                      Cost
                                                                                                                                                 Cost Incurred
                                                                                                                 Total             Incurred to                   Estimated
                                                                                                                                                  January 1 -
                          Agency           Project            Description/Scope              Start Date        Estimated              Date                        Costs to
                                                                                                                                                 December 31,
                                                                                                                 Cost              (US or GOJ                    Complete
                                                                                                                                                     2010
                                                                                                                                     Funds)
                                                                                             October 1,
                          DOC                 *           Work trips to Guam.                                 $      13,670        $   13,670    $          0 $          0
                                                                                               2009
                                                          Technical review of
                                                                                            November 1,
                          DOC                 *           National Environmental                              $      42,435        $   42,435    $          0 $          0
                                                                                               2009
                                                          Policy Act documents.
                                      PAG
                                                          Program Management
                                      Modernization
                          DOT                             and Phase 1A                    August 4, 2010 $ 1,100,000               $1,016,057    $   1,016,057 $    83,943
                                      Expansion
                                                          Implementation Plan.
                                      Program
                                      PAG
                                                          Supports Environmental,
                                      Modernization                                        September 21,
                          DOT                             Architectural, and                                  $ 2,000,000          $1,940,000    $   1,940,000 $    60,000
                                      Expansion                                                2009
                                                          Engineering design.
                                      Program
                                      PAG                 Provide organic growth to
                                      Modernization       the port to support capital       October 22,
                          DOT                                                                                 $50,000,000          $        0    $          0 $50,000,000
                                      Expansion           improvement and military             2010
                                      Program             realignment.
                             Total                                                                            $53,156,105          $3,012,162    $   2,956,057 $50,143,943

                         * Information not provided by DOC.
Section 2835(e)(1)(B)




                         Sources: DOC response to DoD OIG data call, 1/10/2011 and DOT response to DoD OIG data call, 1/19/2011.
	




                        Guam Realignment Report
                                                                                                   40
                        February 1, 2011
                                      4
Operating Expenses




                                      	 Section 2835(e)(1)(D)




                     Guam Realignment Report
              41
                             February 1, 2011
                         Section 4: Operating Expenses
                         (Section 2835(e)(1)(D))

                         Public Law 111-84 requires the ICG annual report to contain a detailed statement on the operating expenses of
                         agencies or entities receiving amounts appropriated or otherwise made available for military construction on
                         Guam. The DoD Financial Management Regulation states that operating expenses include costs for personnel,
                         travel, communications, contractual services, and other program expenses.

                         Department of the Navy Operating Expenses
                         In calendar year 2009, the DON (which included the USMC) reported approximately $19.8 million in operating
                         expenses related to the Guam realignment.6 For calendar year 2010, NAVFAC operational expenses were
                         reported by the USMC because NAVFAC receives these funds on a reimbursable basis. The DON reported
                         operating expenses of approximately $26.7 million during calendar year 2010, including salaries, travel, and
                         other program expenses. Table 7 lists the operating expenses for DON support organizations associated with
                         the military realignment on Guam.

                                 Table 7. Department of the Navy Operating Expenses Related to the Guam Realignment
                                                         (January 1, 2010 – December 31, 2010)

                                                                                                                                            Operating
                                                   Organization                       Description of Expenses Incurred                      Expenses
                                       JGPO                                       Salaries                                              $ 2,579,029
                                       JGPO                                       Travel                                                $     408,914
                                       JGPO                                       Supplies                                              $      75,670
                                       JGPO                                       In-House / Contract Support                           $ 1,817,888
                                       JGPO                                       Technical Assistance from EPA                         $ 1,400,000
                                       JGPO                                       Technical Assistance from Fish and Wildlife           $     373,404
                                       USMC Pacific Division                      Salaries                                              $ 1,026,003
                                       USMC Pacific Division                      Travel                                                $     197,605
                                       USMC Pacific Division                      Supplies                                              $      14,800
                                       USMC Installations and Logistics           Travel                                                $     142,490
                                       USMC Installations and Logistics           Labor and Requirements                                $ 7,351,298
                                       USMC Marine Forces Pacific                 Salaries                                              $     585,447
                                       USMC Marine Forces Pacific                 Travel                                                $     272,521
                                       USMC Marine Forces Pacific                 Supplies and Equipment                                $      34,814
                                       USMC Marine Forces Pacific                 Communications                                        $     281,390
                                       USMC Marine Forces Pacific
Section 2835(e)(1)(D)




                                                                                  Contract and Other Services                           $ 10,109,132
                                          Total                                                                                         $ 26,670,405
                                      Sources: JGPO response to DoD OIG data call, 1/4/2011 and Headquarters USMC response to DoD OIG data call, 1/19/2011.
	




                        Guam Realignment Report
                                                                                              42
                        February 1, 2011
                                                                                                     Section 4: Operating Expenses
                                                                                                            (Section 2835(e)(1)(D))




                             A U.S. Air Force F-16D Fighting Falcon aircraft
                    conducts a mission during Exercise Cope North at Andersen AFB,
                                         Guam, February 2010.


Other Federal Agency Operating Expenses
In calendar year 2009, the EPA reported approximately $667,000 in operating expenses related to the Guam
realignment.6 For calendar year 2010, the DOC, DOT, and EPA reported approximately $1.1 million in
operating expenses associated with the realignment of military installations and military personnel to Guam.
Specifically, these agencies identified salary, travel, and administrative costs. Table 8 lists the operating
expenses for other Federal agencies associated with the military realignment on Guam.

          Table 8. Other Federal Agency Operating Expenses Related to the Guam Realignment
                                 (January 1, 2010 – December 31, 2010)



                                                                                                                                       Section 2835(e)(1)(D)
                               Agency           Description of Expenses                Operating
                                                       Incurred                        Expenses
                            DOC              Salaries and Travel                       $ 123,841
                            DOT              Administrative Cost / Travel              $     1,440
                            EPA              Salaries                                  $1,004,471
                            EPA              Travel                                    $    16,947
                               Total                                                   $1,146,699

                           Sources: DOC response to DoD OIG data call, 1/10/2011; DOT response to DoD OIG
                           data call, 1/19/2011; and EPA response to DoD OIG data call, 1/7/2011.
                                                                                                                                       	




                                                                                                            Guam Realignment Report
                                                                 43
                                                                                                                    February 1, 2011
                                  U.S. Air Force personnel perform
                               construction at the Northwest Field site
                                 on Andersen Air Force Base, Guam,
                                            January 2009.




Guam Realignment Report
                          44
February 1, 2011
                                              5
Contracts, Grants, Agreements, or Other
Funding Mechanisms Data




                                              	 Section 2835(e)(1)(E)




                             Guam Realignment Report
                  45
                                     February 1, 2011
                         Section 5: Contracts, Grants, Agreements, or Other Funding
                         Mechanisms Data (Section 2835(e)(1)(E))

                         Public Law 111-84 requires the ICG annual report to contain a detailed statement on the awarded contracts,
                         grants, agreements, or other funding mechanisms that use amounts appropriated or otherwise made available for
                         military construction on Guam.

                         Contracting Process
                         NAVFAC is the contracting office responsible for executing all construction contracts related to the Guam
                         realignment. In FY 2009, NAVFAC began awarding architect and engineering contracts to plan for future
                         Guam construction. Because construction will exceed local capacity and the availability of the labor force, it
                         is essential that NAVFAC solicit all potential entities able to perform the work. Due to the estimated increase
                         in construction capacity, it is anticipated that the labor force on Guam will expand from approximately 6,000 in
                         FY 2010 to approximately 35,000 in future years.2 According to a NAVFAC official, this projection is subject
                         to change due to the continued changes in the program and timeline.

                         DoD Contracts / Grants / Agreements / Other Funding Mechanisms
                         In calendar year 2009, NAVFAC Headquarters and the DoD Office of Economic Adjustment (OEA) reported
                         14 contracts and 6 grants, totaling approximately $52.7 million, that were used to support the military
                         realignment to Guam.6 For calendar year 2010, the OASN(FM&C) reported 133 contracts and the DoD OEA
                         reported 10 grants. For these contracts and grants, these agencies obligated approximately $157.5 million.
                         Table 9 identifies the DON and DoD OEA contracts, grants, agreements, or other funding mechanisms. A
                         contract may be listed multiple times due to a task order, delivery order, or modification increasing the value of
                         the contract.




                              U.S. Air Force personnel place
                               a clamp on the steel arc of a
                             K-Span facility at Northwest Field,
                             Andersen Air Force Base, Guam,
                                        May 2009.
Section 2835(e)(1)(E)
	




                        Guam Realignment Report
                                                                                46
                        February 1, 2011
                                                                                                                                                                                        Table 9. DoD Contracts, Grants, Agreements, or Other Funding Mechanisms Supporting the Guam
                                                                                         Amount
                                            Contract, Grant,                            Obligated
                                                                                                                                   Method Used to                             Offers
                               Agency     Agreement, or Other     Ceiling Amount       January 1 -      Scope / Description                              Offers Solicited
                                                                                                                                    Solicit Offers                           Received
                                        Funding Mechanism Title                       December 31,
                                                                                          2010
                                                                                                      Architect-engineering                               Full and Open
                                                                                                      services to repackage        Architect-Engineer    Competition After
                           DON          FA524005D0003-JQ12-01      $   10,000,000     $     79,071                                                                             27
                                                                                                      communication work for          FAR 6.102            Exclusion of
                                                                                                      small business set-aside.                              Sources
                                                                                                                                                          Full and Open
                                                                                                      Architect-engineering        Architect-Engineer    Competition After
                           DON          FA524005D0003-JQ14         $   10,000,000     $    249,413                                                                             27
                                                                                                      services                        FAR 6.102            Exclusion of
                                                                                                                                                             Sources
                                                                                                                                                          Full and Open
                                                                                                      Sink Hole Study P-100        Architect-Engineer    Competition After
                           DON          FA524005D0003-JQ15         $   10,000,000     $    281,768                                                                             27
                                                                                                      and P-101                       FAR 6.102            Exclusion of
                                                                                                                                                             Sources




                                                                                                                                                                                                                             Military Realignment
                                                                                                                                                          Full and Open
                                                                                                      Termination for              Architect-Engineer    Competition After
                           DON          FA524005D0004-JQ05-01      $   10,000,000     $   (128,896)                                                                            27
                                                                                                      Convenience                     FAR 6.102            Exclusion of
                                                                                                                                                             Sources




                                                                                                                                                                                                                                                                                      Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                      Architect-engineering                               Full and Open
      47




                                                                                                      services - Topographic       Architect-Engineer    Competition After
                           DON          FA524005D0004-JQ05         $   10,000,000     $    145,644                                                                             27
                                                                                                      Survey of clear areas,          FAR 6.102            Exclusion of
                                                                                                      Finegayan Guam.                                        Sources
                                                                                                                                                          Full and Open
                                                                                                      FY 2011 P-109 Aviation       Architect-Engineer    Competition After
                           DON          FA524009D0005-JQ02         $   10,000,000     $    861,030                                                                             13
                                                                                                      Facilities                      FAR 6.102            Exclusion of




                                                                                                                                                                                                                                                                                                        Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                                             Sources
                                                                                                                                  Negotiated Proposal/    Full and Open
                           DON          N4019210C3000-P00011      No Ceiling Amount   $    203,241    (Performance) 1st AOY                                                     7
                                                                                                                                         Quote             Competition
                                                                                                                                  Negotiated Proposal/    Full and Open
                           DON          N4019210C3000-P00011      No Ceiling Amount   $      1,622    (Performance) 1st AOY                                                     7
                                                                                                                                         Quote             Competition
                                                                                                                                  Negotiated Proposal/    Full and Open
                           DON          N4019210C3000-P00020      No Ceiling Amount   $        984    (Performance) 1st AOY                                                     7
Guam Realignment Report




                                                                                                                                         Quote             Competition
        February 1, 2011




                           	        Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                      Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                                                                      Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                     Amount
                                           Contract, Grant,                         Obligated
                                                                                                                                 Method Used to                             Offers
                              Agency     Agreement, or Other     Ceiling Amount    January 1 -      Scope / Description                                Offers Solicited
                                                                                                                                  Solicit Offers                           Received
                                       Funding Mechanism Title                    December 31,
                                                                                      2010
                                                                                                  Military working dog
                                                                                                  relocation project. The
                                                                                                  work to be performed
                                                                                                  provides for a new military
                                                                                                                                                        Full and Open
                                                                                                  working dog facility that      Subject to Multiple
                                                                                                                                                       Competition After
                              DON      N4019210D2810-0002        $ 500,000,000    $   7,223,135   will provide 10 kennels           Award Fair                                6
                                                                                                                                                         Exclusion of
                                                                                                  to accommodate military          Opportunity
                                                                                                                                                           Sources
                                                                                                  working dogs, their
                                                                                                  handlers, and associated
                                                                                                  support facilities including
                                                                                                  an outdoor OBE.
                                                                                                  Credit adjustment to
                                                                                                                                 Architect-Engineer     Full and Open
                              DON      N6274208D0009-0002-01     $ 100,000,000    $     (1,772)   correct Guam vs. Hawaii                                                     6
                                                                                                                                    FAR 6.102            Competition
                                                                                                  excise tax.
                                                                                                  Amendment No. 20,
                                                                                                  architect-engineering
                                                                                                  services for GOJ FY 2009
                                                                                                  P-J001 Guam utilities and
     48




                                                                                                  site improvements -
                                                                                                  Phase 1 to prepare
                                                                                                                                 Architect-Engineer     Full and Open
                              DON      N6274208D0009-0004-02     $ 100,000,000    $    273,667    revisions to the design                                                     6
                                                                                                                                    FAR 6.102            Competition
                                                                                                  build request for proposal
                                                                                                  contract documents
                                                                                                  for NCTS Finegayan
                                                                                                  Bachelor Enlisted
                                                                                                  Quarters area, Guam,
                                                                                                  including redesign.
                                                                                                  Amendment No. 21,
                                                                                                  architect-engineering
                                                                                                  services for Japanese
                                                                                                  FY 2009 P-J001
                                                                                                  Guam utilities and site
                                                                                                                                 Architect-Engineer     Full and Open
                              DON      N6274208D0009-0004-03     $ 100,000,000    $      35,846   improvements - Phase 1                                                      6
                                                                                                                                    FAR 6.102            Competition
                                                                                                  to perform a hazardous
                                                                                                  material survey for NCTS
                                                                                                  Finegayan Bachelor
                                                                                                  Enlisted Quarters area,
                                                                                                  Guam.
                                                                                                  Re-design of request for       Architect-Engineer     Full and Open
                              DON      N6274208D0009-0004-04     $ 100,000,000    $     464,391                                                                               6
                                                                                                  proposal documents.               FAR 6.102            Competition
                                                                                      Amount
                                            Contract, Grant,                         Obligated
                                                                                                                                    Method Used to                           Offers
                               Agency     Agreement, or Other     Ceiling Amount    January 1 -          Scope / Description                             Offers Solicited
                                                                                                                                     Solicit Offers                         Received
                                        Funding Mechanism Title                    December 31,
                                                                                       2010
                                                                                                       Revised Amendment
                                                                                                       No.18, Finegayan
                                                                                                       schematic cabling
                                                                                                       diagrams to plan and
                                                                                                       design communications        Architect-Engineer    Full and Open
                               DON      N6274208D0009-0010-01     $ 100,000,000    $        200,808                                                                            6
                                                                                                       into the comprehensive          FAR 6.102           Competition
                                                                                                       base development study,
                                                                                                       Finegayan, NCTS Guam.
                                                                                                       1st Option Year - Fixed
                                                                                                       Price.
                                                                                                       1st Option Year - Fixed      Architect-Engineer    Full and Open
                               DON      N6274208D0009-0010-02     $ 100,000,000    $        (78,975)                                                                           6
                                                                                                       Price.                          FAR 6.102           Competition
                                                                                                       DPRI - Amendment
                                                                                                       No. 28, to eliminate
                                                                                                       the final submittal of
                                                                                                       the site design for the      Architect-Engineer    Full and Open
                               DON      N6274208D0009-0010-07     $ 100,000,000    $       (310,580)                                                                           6
                                                                                                       comprehensive base              FAR 6.102           Competition




                                                                                                                                                                                       Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                       development study
                                                                                                       (Reference to No. 0010,
      49




                                                                                                       Amendment No. 12).
                                                                                                                                    Architect-Engineer    Full and Open
                               DON      N6274208D0009-0011        $ 100,000,000    $         92,654    Amendment No.16                                                         6
                                                                                                                                       FAR 6.102           Competition
                                                                                                       1st Option Year - Fixed
                                                                                                                                    Architect-Engineer    Full and Open
                               DON      N6274208D0009-0012        $ 100,000,000    $         84,062    Price, Amendment                                                        6
                                                                                                                                       FAR 6.102           Competition
                                                                                                       No. 17.




                                                                                                                                                                                                         Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                       Amendment No. 27,
                                                                                                       provide additional request
                                                                                                       for proposal submittal
                                                                                                       requirements for GOJ
                                                                                                                                    Architect-Engineer    Full and Open
                               DON      N6274208D0009-0013-01     $ 100,000,000    $        18,303     Japanese FY 2010,                                                       6
                                                                                                                                       FAR 6.102           Competition
                                                                                                       J-017, Finegayan utilities
Guam Realignment Report




                                                                                                       and site improvements -
                                                                                                       Phase 2, Marine Corps
                                                                                                       Base, Finegayan, Guam.
                                                                                                       1st Option Year - Fixed      Architect-Engineer    Full and Open
                               DON      N6274208D0009-0013-02     $ 100,000,000        $   328,941                                                                             6
                                                                                                       Price.                          FAR 6.102           Competition
        February 1, 2011




                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                   Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                                                                   Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                     Amount
                                           Contract, Grant,                         Obligated
                                                                                                                                Method Used to                           Offers
                              Agency     Agreement, or Other     Ceiling Amount    January 1 -      Scope / Description                              Offers Solicited
                                                                                                                                 Solicit Offers                         Received
                                       Funding Mechanism Title                    December 31,
                                                                                      2010
                                                                                                  Deductive modification
                                                                                                  to deduct travel costs
                                                                                                  for the pre-final review
                                                                                                  conference not required
                                                                                                  under revised Amendment
                                                                                                  No. 14 dated                  Architect-Engineer    Full and Open
                              DON      N6274208D0009-0013-03     $ 100,000,000    $    (20,220)                                                                            6
                                                                                                  March 11, 2010 for GOJ           FAR 6.102           Competition
                                                                                                  Japanese FY 2010,
                                                                                                  J-017, Finegayan utilities
                                                                                                  and site improvements
                                                                                                  Phase 2, Marine Corps
                                                                                                  Base, Finegayan, Guam.
                                                                                                  Deductive modification
                                                                                                  to deduct travel costs
                                                                                                  for the pre-final review
                                                                                                  conference not required
                                                                                                  under revised Amendment
                                                                                                  No. 14 dated                  Architect-Engineer    Full and Open
                              DON      N6274208D0009-0013-03     $ 100,000,000    $    (19,897)                                                                            6
     50




                                                                                                  March 11, 2010 for GOJ           FAR 6.102           Competition
                                                                                                  Japanese FY 2010,
                                                                                                  J-017, Finegayan utilities
                                                                                                  and site improvements
                                                                                                  Phase 2, Marine Corps
                                                                                                  Base, Finegayan, Guam.
                                                                                                  Amendment No. 14,
                                                                                                  J-017 utilities and site
                                                                                                                                Architect-Engineer    Full and Open
                              DON      N6274208D0009-0013        $ 100,000,000    $   3,834,145   improvements Phase 2,                                                    6
                                                                                                                                   FAR 6.102           Competition
                                                                                                  Finegayan Guam. 1st
                                                                                                  Option Year - Fixed Price.
                                                                                                  DPRI - Revised
                                                                                                  Amendment No. 26 dated
                                                                                                  July 1, 2010 for additional
                                                                                                  architectural, fire
                                                                                                  protection, structural, and
                                                                                                  mechanical engineering        Architect-Engineer    Full and Open
                              DON      N6274208D0009-0014-01     $ 100,000,000    $    201,783                                                                             6
                                                                                                  services for the                 FAR 6.102           Competition
                                                                                                  preparation of contract
                                                                                                  documents; to locate the
                                                                                                  pre-faced conference in
                                                                                                  Los Angeles, CA; and to
                                                                                                  relocate the FAC.
                                                                                      Amount
                                            Contract, Grant,                         Obligated
                                                                                                                                Method Used to                           Offers
                               Agency     Agreement, or Other     Ceiling Amount    January 1 -     Scope / Description                              Offers Solicited
                                                                                                                                 Solicit Offers                         Received
                                        Funding Mechanism Title                    December 31,
                                                                                       2010
                                                                                                  Architect-engineering
                                                                                                  services for preparation of
                                                                                                  the design build request
                                                                                                  for proposal contract
                                                                                                                                Architect-Engineer    Full and Open
                               DON      N6274208D0009-0014        $ 100,000,000    $ 2,454,667    documents for (U.S.-                                                     6
                                                                                                                                   FAR 6.102           Competition
                                                                                                  funded) FY 2011 P-110
                                                                                                  Finegayan site prep and
                                                                                                  utilities, Phase 1, NCTS
                                                                                                  Finegayan, Guam.
                                                                                                  DPRI, Amendment
                                                                                                  No. 35, ATFP blast            Architect-Engineer    Full and Open
                               DON      N6274208D0009-0015-01     $ 100,000,000    $    98,358                                                                             6
                                                                                                  analysis, 1st Option Year -      FAR 6.102           Competition
                                                                                                  Fixed Price.
                                                                                                  DPRI, revised
                                                                                                  Amendment No. 37,
                                                                                                                                Architect-Engineer    Full and Open
                               DON      N6274208D0009-0017-01     $ 100,000,000    $   359,967    Finegayan Landfill No. 1,                                                6
                                                                                                                                   FAR 6.102           Competition
                                                                                                  1st Option Year - Fixed




                                                                                                                                                                                   Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                  Price.
      51




                                                                                                  DPRI, revised
                                                                                                  Amendment No. 25,
                                                                                                                                Architect-Engineer    Full and Open
                               DON      N6274208D0009-0017        $ 100,000,000    $   166,749    J-017 utilities and site                                                 6
                                                                                                                                   FAR 6.102           Competition
                                                                                                  improvements 1st Option
                                                                                                  Year - Fixed Price.
                                                                                                  1st Option Year - Fixed       Architect-Engineer    Full and Open
                               DON      N6274208D0009-0018        $ 100,000,000    $   153,989                                                                             6
                                                                                                  Price.                           FAR 6.102           Competition




                                                                                                                                                                                                     Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                  Architect-engineering         Architect-Engineer    Full and Open
                               DON      N6274208D0009-JQ01        $ 100,000,000    $   364,518                                                                             6
                                                                                                  services                         FAR 6.102           Competition
                                                                                                  Architect-engineering         Architect-Engineer    Full and Open
                               DON      N6274208D0009-JQ02        $ 100,000,000    $   406,161                                                                             6
                                                                                                  services                         FAR 6.102           Competition
                                                                                                  Architect-engineering         Architect-Engineer    Full and Open
                               DON      N6274208D0009-JQ03        $ 100,000,000    $   363,785                                                                             6
                                                                                                  services                         FAR 6.102           Competition
Guam Realignment Report




                                                                                                  Architect-engineering         Architect-Engineer    Full and Open
                               DON      N6274208D0009-JQ04        $ 100,000,000    $   489,787                                                                             6
                                                                                                  services                         FAR 6.102           Competition
                                                                                                  Architect-engineering
                                                                                                  services shall be provided
        February 1, 2011




                                                                                                  to prepare the region/
                                                                                                  FEC team 1391 project         Architect-Engineer    Full and Open
                               DON      N6274208D0009-JQ05        $ 100,000,000    $     43,630                                                                            6
                                                                                                  documentation for                FAR 6.102           Competition
                                                                                                  FY 2013 MILCONs
                                                                                                  P-700, P-705, and P-710,
                                                                                                  Finegayan, Guam.


                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                   Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                                                                   Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                     Amount
                                           Contract, Grant,                         Obligated
                                                                                                                               Method Used to                            Offers
                              Agency     Agreement, or Other     Ceiling Amount    January 1 -     Scope / Description                              Offers Solicited
                                                                                                                                Solicit Offers                          Received
                                       Funding Mechanism Title                    December 31,
                                                                                      2010
                                                                                                 Architect-engineering
                                                                                                 services shall be provided
                                                                                                 to prepare the region/
                                                                                                 FEC team 1391 project         Architect-Engineer    Full and Open
                              DON      N6274208D0009-JQ05        $ 100,000,000    $     21,815                                                                             6
                                                                                                 documentation for                FAR 6.102           Competition
                                                                                                 FY 2013 MILCONs
                                                                                                 P-700, P-705, and P-710,
                                                                                                 Finegayan, Guam.
                                                                                                 Architect-engineering
                                                                                                 services shall be provided
                                                                                                 to prepare the region/
                                                                                                 FEC team 1391 project
                                                                                                 documentation for
                                                                                                 FY 2013 MILCONs               Architect-Engineer    Full and Open
                              DON      N6274208D0009-JQ05        $ 100,000,000    $     21,815                                                                             6
                                                                                                 P-700, P-705, and P-710,         FAR 6.102           Competition
                                                                                                 Finegayan, Guam.
                                                                                                 (According to a NAVFAC
                                                                                                 representative, this is not
     52




                                                                                                 a duplicate of the contract
                                                                                                 above.)
                                                                                                                               Architect-Engineer    Full and Open
                              DON      N6274208D0014-0003        $   5,000,000    $   186,912    First Option Year                                                         11
                                                                                                                                  FAR 6.102           Competition
                                                                                                 Second Option Year -
                                                                                                 DPRI Amendment
                                                                                                 No. 7, FY 2013 P-2014         Architect-Engineer    Full and Open
                              DON      N6274208D0014-0004        $   5,000,000    $   216,294                                                                              11
                                                                                                 base communications              FAR 6.102           Competition
                                                                                                 center DD 1391s,
                                                                                                 Finegayan, Guam.
                                                                                                                                                     Full and Open
                                                                                                 Geological investigation      Architect-Engineer   Competition After
                              DON      N6274208D0018-0002        $   5,000,000    $   305,368                                                                              3
                                                                                                 Finegayan, Guam                  FAR 6.102           Exclusion of
                                                                                                                                                        Sources
                                                                                                                               Architect-Engineer    Full and Open
                              DON      N6274209D0002-0002-02     $ 100,000,000    $   242,953    Base Year                                                                 4
                                                                                                                                  FAR 6.102           Competition
                                                                                                 DPRI, Amendment
                                                                                                 No. 10, additional Tango
                                                                                                 Wharf Improvements
                                                                                                                               Architect-Engineer    Full and Open
                              DON      N6274209D0002-0002-03     $ 100,000,000    $   268,618    (Option 3 and Option 4),                                                  4
                                                                                                                                  FAR 6.102           Competition
                                                                                                 FY 2010 MILCON P-204,
                                                                                                 Wharf Improvements Apra
                                                                                                 Harbor, Guam (Phase 1).
                                                                                      Amount
                                            Contract, Grant,                         Obligated
                                                                                                                                Method Used to                           Offers
                               Agency     Agreement, or Other     Ceiling Amount    January 1 -      Scope / Description                             Offers Solicited
                                                                                                                                 Solicit Offers                         Received
                                        Funding Mechanism Title                    December 31,
                                                                                       2010
                                                                                                   Base Year, Amendment
                                                                                                   No. 5, Develop/Complete
                                                                                                   Region/FEC 1391,
                                                                                                                                Architect-Engineer    Full and Open
                               DON      N6274209D0002-0005        $ 100,000,000    $    475,238    FY 2013 MILCON P-600,                                                   4
                                                                                                                                   FAR 6.102           Competition
                                                                                                   Apra Harbor Embark
                                                                                                   Operations, Apra Harbor,
                                                                                                   Naval Base, Guam.
                                                                                                   DPRI, Amendment
                                                                                                   No. 11, AE PCAS for
                                                                                                   FY 2010 P-204 Wharf          Architect-Engineer    Full and Open
                               DON      N6274209D0002-0006        $ 100,000,000    $    701,649                                                                            4
                                                                                                   Improvements, Apra              FAR 6.102           Competition
                                                                                                   Phase 1, Guam. First
                                                                                                   Option Year.
                                                                                                                                Architect-Engineer    Full and Open
                               DON      N6274210C0002             $ 100,000,000    $   2,448,039   Fund ACRN AA                                                           18
                                                                                                                                   FAR 6.102           Competition
                                                                                                   Amendment No. 9 is for
                                                                                                   architect-engineering




                                                                                                                                                                                   Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                   services to provide
      53




                                                                                                   additional topographic
                                                                                                   services inadvertently       Architect-Engineer    Full and Open
                               DON      N6274210D0003-0001-02     $ 50,000,000     $    142,439                                                                           17
                                                                                                   omitted from the original       FAR 6.102           Competition
                                                                                                   architect-engineer
                                                                                                   scope of work (revised
                                                                                                   Amendment No. 1 dated
                                                                                                   January 21, 2010).




                                                                                                                                                                                                     Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                   Base Year, Amendment
                                                                                                   No. 1, Mamizu Waterfront
                                                                                                                                Architect-Engineer    Full and Open
                               DON      N6274210D0003-0001        $ 50,000,000     $   1,678,800   Headquarters Building,                                                 17
                                                                                                                                   FAR 6.102           Competition
                                                                                                   Apra Harbor, Naval Base
                                                                                                   Guam.
                                                                                                   Base Year, Amendment
Guam Realignment Report




                                                                                                   No. 2, GOJ Fire Station,     Architect-Engineer    Full and Open
                               DON      N6274210D0003-0002        $ 50,000,000     $   1,606,362                                                                          17
                                                                                                   Finegayan, Naval Base           FAR 6.102           Competition
                                                                                                   Guam.
                                                                                                   DPRI, Amendment
                                                                                                   No. 13 full design for GOJ   Architect-Engineer    Full and Open
        February 1, 2011




                               DON      N6274210D0003-0003-01     $ 50,000,000     $    655,822                                                                           17
                                                                                                   J-010 prototype Bachelor        FAR 6.102           Competition
                                                                                                   Enlisted Quarters.




                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                     Amount
                                           Contract, Grant,                         Obligated
                                                                                                                             Method Used to                           Offers
                              Agency     Agreement, or Other     Ceiling Amount    January 1 -      Scope / Description                           Offers Solicited
                                                                                                                              Solicit Offers                         Received
                                       Funding Mechanism Title                    December 31,
                                                                                      2010
                                                                                                  Base Year Performance
                                                                                                  Period, Amendment
                                                                                                                             Architect-Engineer    Full and Open
                              DON      N6274210D0003-0003        $ 50,000,000     $   2,117,619   No. 3 Bachelor Enlisted                                              17
                                                                                                                                FAR 6.102           Competition
                                                                                                  Quarters prototype,
                                                                                                  Finegayan, Guam.
                                                                                                  Amendment No. 10
                                                                                                  for continued design
                                                                                                  development of a 10%
                                                                                                                             Architect-Engineer    Full and Open
                              DON      N6274210D0003-0004-01     $ 50,000,000     $    164,427    design for the base                                                  17
                                                                                                                                FAR 6.102           Competition
                                                                                                  administration building,
                                                                                                  Finegayan, Marine Corps
                                                                                                  Base, Guam.
                                                                                                  Base Year, Amendment
                                                                                                  No. 5, GOJ Japanese
                                                                                                  FY 2011, J-011 base        Architect-Engineer    Full and Open
                              DON      N6274210D0003-0004        $ 50,000,000     $    584,715                                                                         17
                                                                                                  administration building,      FAR 6.102           Competition
                                                                                                  Finegayan, Marine Corps
                                                                                                  Base, Guam.
     54




                                                                                                  Bachelor Enlisted          Architect-Engineer    Full and Open
                              DON      N6274210D0003-0005        $ 50,000,000     $    680,147                                                                         17
                                                                                                  Quarters Design               FAR 6.102           Competition
                                                                                                  20% design work for
                                                                                                  Marine Logistics Group
                                                                                                                             Architect-Engineer    Full and Open
                              DON      N6274210D0003-0006-01     $ 50,000,000     $    117,736    administrative building,                                             17
                                                                                                                                FAR 6.102           Competition
                                                                                                  Finegayan, Marine Corps
                                                                                                  Base, Guam.
                                                                                                  Base Year Performance      Architect-Engineer    Full and Open
                              DON      N6274210D0003-0006        $ 50,000,000     $    677,784                                                                         17
                                                                                                  Period                        FAR 6.102           Competition
                                                                                                  Base Year Performance      Architect-Engineer    Full and Open
                              DON      N6274210D0003-0006        $ 50,000,000     $     18,334                                                                         17
                                                                                                  Period                        FAR 6.102           Competition
                                                                                                                             Architect-Engineer    Full and Open
                              DON      N6274210D0003-0007-01     $ 50,000,000     $    122,419    10% Design                                                           17
                                                                                                                                FAR 6.102           Competition
                                                                                                                             Architect-Engineer    Full and Open
                              DON      N6274210D0003-0007        $ 50,000,000     $    180,000    Enlisted dining facility                                             17
                                                                                                                                FAR 6.102           Competition
                                                                                                                             Architect-Engineer    Full and Open
                              DON      N6274210D0003-0007        $ 50,000,000     $    439,253    Enlisted dining facility                                             17
                                                                                                                                FAR 6.102           Competition
                                                                                         Amount
                                            Contract, Grant,                            Obligated
                                                                                                                                  Method Used to                             Offers
                               Agency     Agreement, or Other     Ceiling Amount       January 1 -      Scope / Description                             Offers Solicited
                                                                                                                                   Solicit Offers                           Received
                                        Funding Mechanism Title                       December 31,
                                                                                          2010
                                                                                                      Work Order No. 806244,
                                                                                                      FY 2010 MILCON project
                                                                                                                                  Subject to Multiple
                                                                                                      P-204, Apra Harbor Wharf                           Full and Open
                               DON      N6274210D1309-0002         $4,000,000,000     $ 85,999,000                                   Award Fair                                7
                                                                                                      Improvements, Phase I                               Competition
                                                                                                                                    Opportunity
                                                                                                      (Parts A & B), Naval
                                                                                                      Base, Guam.
                                                                                                      Architect-engineering
                                                                                                      services to prepare a
                                                                                                      request for proposal                               Full and Open
                                                                                                      package for the design      Architect-Engineer    Competition After
                               DON      FA524009D0008-JQ07         $   10,000,000     $    280,790                                                                            13
                                                                                                      and construction of            FAR 6.102            Exclusion of
                                                                                                      U0003 Tumon Maui Well                                 Sources
                                                                                                      Rehabilitation, AAFB,
                                                                                                      Guam.
                                                                                                                                                         Full and Open
                                                                                                                                  Subject to Multiple
                                                                                                                                                        Competition After
                               DON      N4019209D2706-0005         $ 400,000,000      $   1,228,387   Base Period IDIQ               Award Fair                               10
                                                                                                                                                          Exclusion of
                                                                                                                                    Opportunity




                                                                                                                                                                                       Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                            Sources
      55




                                                                                                                                                         Full and Open
                                                                                                                                  Subject to Multiple
                                                                                                                                                        Competition After
                               DON      N4019209D2707-0020         $ 400,000,000      $    724,671    First Option Period IDIQ       Award Fair                                4
                                                                                                                                                          Exclusion of
                                                                                                                                    Opportunity
                                                                                                                                                            Sources
                                                                                                                                                         Full and Open
                                                                                                                                  Subject to Multiple
                                                                                                                                                        Competition After
                               DON      N4019209D2707-0020         $ 400,000,000      $   3,621,600   First Option Period IDIQ       Award Fair                                4
                                                                                                                                                          Exclusion of




                                                                                                                                                                                                         Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                    Opportunity
                                                                                                                                                            Sources
                                                                                                                                 Negotiated Proposal/    Full and Open
                               DON      N4019210C3000-P00018      No Ceiling Amount   $     30,631    (Performance) 1st AOY                                                    7
                                                                                                                                        Quote             Competition
                                                                                                                                                         Full and Open
                                                                                                      Prof. Services-public      Negotiated Proposal/   Competition After
                               DON      N6247008D2006-0014-01      $   40,000,000     $    134,492                                                                             2
                                                                                                      private venture                   Quote             Exclusion of
Guam Realignment Report




                                                                                                                                                            Sources
                                                                                                                                                         Full and Open
                                                                                                      Prof. Services-public      Negotiated Proposal/   Competition After
                               DON      N6247008D2006-0014-02      $   40,000,000     $    265,268                                                                             2
                                                                                                      private venture                   Quote             Exclusion of
        February 1, 2011




                                                                                                                                                            Sources
                                                                                                                                                         Full and Open
                                                                                                      Prof. Services-public      Negotiated Proposal/   Competition After
                               DON      N6247008D2006-0014         $   40,000,000     $   1,154,740                                                                            2
                                                                                                      private venture                   Quote             Exclusion of
                                                                                                                                                            Sources




                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                        Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                                                                        Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                        Amount
                                           Contract, Grant,                            Obligated
                                                                                                                                   Method Used to                             Offers
                              Agency     Agreement, or Other     Ceiling Amount       January 1 -      Scope / Description                               Offers Solicited
                                                                                                                                    Solicit Offers                           Received
                                       Funding Mechanism Title                       December 31,
                                                                                         2010
                                                                                                                                                          Full and Open
                                                                                                     Prof. Services-public        Negotiated Proposal/   Competition After
                              DON      N6247008D2006-0018         $   40,000,000     $   1,000,000                                                                              2
                                                                                                     private venture.                    Quote             Exclusion of
                                                                                                                                                             Sources
                                                                                                     Admin record for the          Architect-Engineer     Full and Open
                              DON      N6247009D2003-KB01-01      $   20,000,000     $        (55)                                                                              4
                                                                                                     Guam military build-up.          FAR 6.102            Competition
                                                                                                     Perform a special use
                                                                                                     airspace feasibility          Architect-Engineer     Full and Open
                              DON      N6247009D2003-KB02-01      $   20,000,000     $    197,066                                                                               4
                                                                                                     assessment Guam and              FAR 6.102            Competition
                                                                                                     CNMI.
                                                                                                     Architect-engineering
                                                                                                     services for the
                                                                                                     development of a              Architect-Engineer     Full and Open
                              DON      N6247010D3008-JQ01         $   40,000,000     $    851,472                                                                               5
                                                                                                     community integrated             FAR 6.102            Competition
                                                                                                     master plan for Marine
                                                                                                     Forces Pacific forward.
                                                                                                                                                          Full and Open
     56




                                                                                                                                  Negotiated Proposal/   Competition After
                              DON      N6247010D3011-KB03-01      $   50,000,000     $     34,876    Fund ACRN AA                                                               5
                                                                                                                                         Quote             Exclusion of
                                                                                                                                                             Sources
                                                                                                                                                          Full and Open
                                                                                                     CVN Wharf supplemental
                                                                                                                                  Negotiated Proposal/   Competition After
                              DON      N6247010D3011-KB03         $   50,000,000     $   1,569,094   surveys, Apra Harbor,                                                      5
                                                                                                                                         Quote             Exclusion of
                                                                                                     Guam.
                                                                                                                                                             Sources
                                                                                                                                                          Full and Open
                                                                                                     CVN Wharf supplemental
                                                                                                                                  Negotiated Proposal/   Competition After
                              DON      N6247010D3011-KB03         $   50,000,000     $    730,359    surveys, Apra Harbor,                                                      5
                                                                                                                                         Quote             Exclusion of
                                                                                                     Guam.
                                                                                                                                                             Sources
                                                                                                                                                          Full and Open
                                                                                                     Modification to deobligate
                                                                                                                                  Negotiated Proposal/   Competition After
                              DON      N6274205C3501-P00037      No Ceiling Amount   $        (26)   unearned award fee from                                                    7
                                                                                                                                         Quote             Exclusion of
                                                                                                     Option Years 1, 2, and 3.
                                                                                                                                                             Sources
                                                                                                                                                          Full and Open
                                                                                                     Deobligate unearned
                                                                                                                                  Negotiated Proposal/   Competition After
                              DON      N6274205C3501-P00044      No Ceiling Amount   $       (597)   award fee for Option                                                       7
                                                                                                                                         Quote             Exclusion of
                                                                                                     Year 4.
                                                                                                                                                             Sources
                                                                                                                                                          Full and Open
                                                                                                     Option Year 4 - CTO 0013     Negotiated Proposal/   Competition After
                              DON      N6274205D1868-0013-01      $   50,000,000     $    310,000                                                                               4
                                                                                                     ESS Guam and Tinian.                Quote             Exclusion of
                                                                                                                                                             Sources
                                                                                      Amount
                                            Contract, Grant,                         Obligated
                                                                                                                                 Method Used to                             Offers
                               Agency     Agreement, or Other     Ceiling Amount    January 1 -     Scope / Description                                Offers Solicited
                                                                                                                                  Solicit Offers                           Received
                                        Funding Mechanism Title                    December 31,
                                                                                       2010
                                                                                                                                                        Full and Open
                                                                                                  Option Year 4 - CTO 0013      Negotiated Proposal/   Competition After
                               DON      N6274205D1868-0013        $   50,000,000   $      3,997                                                                               4
                                                                                                  ESS Guam and Tinian.                 Quote             Exclusion of
                                                                                                                                                           Sources
                                                                                                  E-78 cultural studies for
                                                                                                                                 Architect-Engineer     Full and Open
                               DON      N6274206D1870-0007-21     $   65,000,000   $   144,893    Army Northwest Field                                                        4
                                                                                                                                    FAR 6.102            Competition
                                                                                                  AAFB.
                                                                                                  E-77, provide moderator
                                                                                                  for public hearing and         Architect-Engineer     Full and Open
                               DON      N6274206D1870-0007-22     $   65,000,000   $     24,220                                                                               4
                                                                                                  E-80, executive summary           FAR 6.102            Competition
                                                                                                  translation.
                                                                                                  E-77, provide moderator
                                                                                                  for public hearing and         Architect-Engineer     Full and Open
                               DON      N6274206D1870-0007-22     $   65,000,000   $    58,100                                                                                4
                                                                                                  E-80, executive summary           FAR 6.102            Competition
                                                                                                  translation.
                                                                                                  Amendment No. 8,




                                                                                                                                                                                      Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                  Revision 23 to the
                                                                                                  statement of architect-
      57




                                                                                                  engineering services for
                                                                                                  environmental planning to
                                                                                                                                 Architect-Engineer     Full and Open
                               DON      N6274206D1870-0007-23     $   65,000,000   $   473,359    support strategic forward                                                   4
                                                                                                                                    FAR 6.102            Competition
                                                                                                  basing initiatives and
                                                                                                  related technical services
                                                                                                  for projects and activities
                                                                                                  at various locations.




                                                                                                                                                                                                        Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                  Funds additional EIS T.
                                                                                                  Amendment No. 8,
                                                                                                  Revision 23 to the
                                                                                                  statement of architect-
                                                                                                  engineer services for
                                                                                                  environmental planning to
                                                                                                                                 Architect-Engineer     Full and Open
Guam Realignment Report




                               DON      N6274206D1870-0007-23     $   65,000,000   $    30,000    support strategic forward                                                   4
                                                                                                                                    FAR 6.102            Competition
                                                                                                  basing initiatives and
                                                                                                  related technical services
                                                                                                  for projects and activities
                                                                                                  at various locations.
        February 1, 2011




                                                                                                  Funds additional EIS T.
                                                                                                  E-92 - update Wastewater       Architect-Engineer     Full and Open
                               DON      N6274206D1870-0011-04     $   65,000,000   $     39,734                                                                               4
                                                                                                  Utility Study.                    FAR 6.102            Competition
                                                                                                  E-93, update Water Utility     Architect-Engineer     Full and Open
                               DON      N6274206D1870-0012-03     $   65,000,000   $     33,410                                                                               4
                                                                                                  Study.                            FAR 6.102            Competition



                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                  Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                                                                  Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                     Amount
                                           Contract, Grant,                         Obligated
                                                                                                                               Method Used to                           Offers
                              Agency     Agreement, or Other     Ceiling Amount    January 1 -     Scope / Description                              Offers Solicited
                                                                                                                                Solicit Offers                         Received
                                       Funding Mechanism Title                    December 31,
                                                                                      2010
                                                                                                 Delete work for the
                                                                                                                               Architect-Engineer    Full and Open
                              DON      N6274206D1870-0016-07     $   65,000,000   $    (1,686)   Maagas and Talofofo                                                      4
                                                                                                                                  FAR 6.102           Competition
                                                                                                 Rivers area.
                                                                                                 Delete work for the
                                                                                                                               Architect-Engineer    Full and Open
                              DON      N6274206D1870-0016-07     $   65,000,000   $    (7,554)   Maagas and Talofofo                                                      4
                                                                                                                                  FAR 6.102           Competition
                                                                                                 Rivers area.
                                                                                                 E-91, update Power            Architect-Engineer    Full and Open
                              DON      N6274206D1870-0018-06     $   65,000,000   $     35,364                                                                            4
                                                                                                 Generation Utility Study         FAR 6.102           Competition
                                                                                                 Delete all requirements
                                                                                                 for the project specific
                                                                                                 data for the combustion       Architect-Engineer    Full and Open
                              DON      N6274206D1870-0018-07     $   65,000,000   $   (69,526)                                                                            4
                                                                                                 turbines to support the          FAR 6.102           Competition
                                                                                                 3 interim alternatives for
                                                                                                 power in the EIS.
                                                                                                 No cost modification to
                                                                                                                               Architect-Engineer    Full and Open
                              DON      N6274206D1870-0018-08     $   65,000,000   $      5,638   correct the funding on                                                   4
                                                                                                                                  FAR 6.102           Competition
                                                                                                 Modification No. 001807.
     58




                                                                                                 No cost modification to
                                                                                                                               Architect-Engineer    Full and Open
                              DON      N6274206D1870-0018-08     $   65,000,000   $    (5,638)   correct the funding on                                                   4
                                                                                                                                  FAR 6.102           Competition
                                                                                                 Modification No. 001807.
                                                                                                 De-scope: revise/
                                                                                                 update of the breakpoint
                                                                                                 analyses, charts to reflect   Architect-Engineer    Full and Open
                              DON      N6274206D1870-0026-03     $   65,000,000   $   (36,897)                                                                            4
                                                                                                 the latest force flow            FAR 6.102           Competition
                                                                                                 information and loading
                                                                                                 changes.
                                                                                                 DPRI, revised
                                                                                                 Amendment No. 37, Rev         Architect-Engineer    Full and Open
                              DON      N6274206D1870-0032-02     $   65,000,000   $   421,106                                                                             4
                                                                                                 3, CNMI Military Training        FAR 6.102           Competition
                                                                                                 Master Plan, Phase III.
                                                                                                 E-90, update Barrigada        Architect-Engineer    Full and Open
                              DON      N6274206D1870-0035-02     $   65,000,000   $     16,927                                                                            4
                                                                                                 Utility Study                    FAR 6.102           Competition
                                                                                                 Task order 0036               Architect-Engineer    Full and Open
                              DON      N6274206D1870-0036-03     $   65,000,000   $    160,554                                                                            4
                                                                                                 Modification No. 03              FAR 6.102           Competition
                                                                                                 E-46, additional work for
                                                                                                                               Architect-Engineer    Full and Open
                              DON      N6274206D1870-0036-05     $   65,000,000   $    379,736   the Water Well Testing                                                   4
                                                                                                                                  FAR 6.102           Competition
                                                                                                 Study.
                                                                                      Amount
                                            Contract, Grant,                         Obligated
                                                                                                                                  Method Used to                           Offers
                               Agency     Agreement, or Other     Ceiling Amount    January 1 -      Scope / Description                               Offers Solicited
                                                                                                                                   Solicit Offers                         Received
                                        Funding Mechanism Title                    December 31,
                                                                                       2010
                                                                                                   DPRI, revised
                                                                                                   Amendment No. 34,
                                                                                                   Rev 1, updated Guam            Architect-Engineer    Full and Open
                               DON      N6274206D1870-0037-02     $   65,000,000   $     54,262                                                                              4
                                                                                                   traffic study, architect-         FAR 6.102           Competition
                                                                                                   engineering services for
                                                                                                   the Fourth Option Year.
                                                                                                   Amendment No. 50 -
                                                                                                   Route 3 Sewer Capacity         Architect-Engineer    Full and Open
                               DON      N6274206D1870-0044        $   65,000,000   $     90,018                                                                              4
                                                                                                   Study to support EIS              FAR 6.102           Competition
                                                                                                   Marine Corps relocation.
                                                                                                   N-20, potential coral          Architect-Engineer    Full and Open
                               DON      N6274206D1870-0045        $   65,000,000   $   425,256                                                                               4
                                                                                                   mitigation                        FAR 6.102           Competition
                                                                                                   Amendment No. 52 - E-67
                                                                                                   remote sensing wetland
                                                                                                   mapping for lease              Architect-Engineer    Full and Open
                               DON      N6274206D1870-0046        $   65,000,000   $    156,534                                                                              4
                                                                                                   environmental damaging            FAR 6.102           Competition
                                                                                                   practicable alternative in




                                                                                                                                                                                     Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                   support of the EIS.
      59




                                                                                                   Task order 0047 -
                                                                                                   Amendment No. 53, N-24         Architect-Engineer    Full and Open
                               DON      N6274206D1870-0047        $   65,000,000   $    298,807                                                                              4
                                                                                                   Terrestrial survey for coral      FAR 6.102           Competition
                                                                                                   mitigation.
                                                                                                   E-98, Additional Hard for      Architect-Engineer    Full and Open
                               DON      N6274206D1870-0048-01     $   65,000,000   $     22,188                                                                              4
                                                                                                   the Final EIS.                    FAR 6.102           Competition




                                                                                                                                                                                                       Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                   Architect-engineering
                                                                                                                                  Architect-Engineer    Full and Open
                               DON      N6274206D1870-0048        $   65,000,000   $   1,369,580   services for the Fourth                                                   4
                                                                                                                                     FAR 6.102           Competition
                                                                                                   Option Year.
                                                                                                   Architect-engineering
                                                                                                                                  Architect-Engineer    Full and Open
                               DON      N6274206D1870-0049        $   65,000,000   $    791,179    services for the Fourth                                                   4
                                                                                                                                      Far 6.102          Competition
                                                                                                   Option Year.
Guam Realignment Report




                                                                                                   Amendment
                                                                                                   No. 58, revised                Architect-Engineer    Full and Open
                               DON      N6274206D1870-0050        $   65,000,000   $     16,956                                                                              4
                                                                                                   coastal consistency               FAR 6.102           Competition
                                                                                                   determination, Guam.
                                                                                                   Amendment No. 54,
        February 1, 2011




                                                                                                                                  Architect-Engineer    Full and Open
                               DON      N6274206D1870-0051        $   65,000,000   $    318,165    R-13, Phase 1 for utilities                                               4
                                                                                                                                     FAR 6.102           Competition
                                                                                                   improvement, Guam.
                                                                                                   DPRI, Amendment
                                                                                                                                  Architect-Engineer    Full and Open
                               DON      N6274206D1870-0052        $   65,000,000   $   1,244,570   No. 59, Guam updates to                                                   4
                                                                                                                                     FAR 6.102           Competition
                                                                                                   development plan.



                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                   Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                                                                   Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                     Amount
                                           Contract, Grant,                         Obligated
                                                                                                                               Method Used to                            Offers
                              Agency     Agreement, or Other     Ceiling Amount    January 1 -      Scope / Description                             Offers Solicited
                                                                                                                                Solicit Offers                          Received
                                       Funding Mechanism Title                    December 31,
                                                                                      2010
                                                                                                                                                     Full and Open
                                                                                                  Architect-engineering        Architect-Engineer   Competition After
                              DON      N6274206D1881-JQ01        $    5,000,000   $     63,774                                                                             3
                                                                                                  services Fourth Option.         FAR 6.102           Exclusion of
                                                                                                                                                        Sources
                                                                                                                                                     Full and Open
                                                                                                  Architect-engineering        Architect-Engineer   Competition After
                              DON      N6274206D1881-JQ01        $    5,000,000   $     61,500                                                                             3
                                                                                                  services Fourth Option.         FAR 6.102           Exclusion of
                                                                                                                                                        Sources
                                                                                                                                                     Full and Open
                                                                                                  Architect-Engineering        Architect-Engineer   Competition After
                              DON      N6274206D1881-JQ01        $    5,000,000   $     88,500                                                                             3
                                                                                                  Services Fourth Option.         FAR 6.102           Exclusion of
                                                                                                                                                        Sources
                                                                                                                                                      Not Available
                                                                                                                                                    for Competition
                              DON      N6274207D1893-0008        $    3,000,000   $    244,268    Option Year 2                Only One Source                             1
                                                                                                                                                     (Authorized by
                                                                                                                                                        Statute)
                                                                                                  Amendment No. 23, P-62
                                                                                                                               Architect-Engineer    Full and Open
     60




                              DON      N6274208D0009-0015        $ 100,000,000    $     97,831    ATFP blast analysis. 1st                                                 6
                                                                                                                                  FAR 6.102           Competition
                                                                                                  Option Year - Fixed Price.
                                                                                                  Deductive modification
                                                                                                  to deduct the travel costs
                                                                                                  not used under revised
                                                                                                  Amendment No. 24 dated
                                                                                                  June 24, 2010 for the
                                                                                                                               Architect-Engineer    Full and Open
                              DON      N6274208D0009-0016-01     $ 100,000,000    $     (5,187)   architect-engineering                                                    6
                                                                                                                                  FAR 6.102           Competition
                                                                                                  services for project
                                                                                                  management support for
                                                                                                  GOJ design documents
                                                                                                  and related items
                                                                                                  awarded by task order.
                                                                                                  DPRI, Amendment
                                                                                                  No. 24, S-10 GOJ Liaison,    Architect-Engineer    Full and Open
                              DON      N6274208D0009-0016        $ 100,000,000    $     38,445                                                                             6
                                                                                                  1st Option Year - Fixed         FAR 6.102           Competition
                                                                                                  Price.
                                                                                                  DPRI, Amendment
                                                                                                  No. 30 Northern
                                                                                                  District Wastewater          Architect-Engineer    Full and Open
                              DON      N6274208D0009-0019-01     $ 100,000,000    $    240,786                                                                             6
                                                                                                  Treatment Plant interim         FAR 6.102           Competition
                                                                                                  improvements preliminary
                                                                                                  design report.
                                                                                      Amount
                                            Contract, Grant,                         Obligated
                                                                                                                                Method Used to                           Offers
                               Agency     Agreement, or Other     Ceiling Amount    January 1 -      Scope / Description                             Offers Solicited
                                                                                                                                 Solicit Offers                         Received
                                        Funding Mechanism Title                    December 31,
                                                                                       2010
                                                                                                   Administrative
                                                                                                   modification to adjust
                                                                                                                                Architect-Engineer    Full and Open
                               DON      N6274208D0009-0019-01     $ 100,000,000    $   (240,786)   pre-final report due date.                                              6
                                                                                                                                   FAR 6.102           Competition
                                                                                                   Also, correct line of
                                                                                                   accounting.
                                                                                                   DPRI, Amendment
                                                                                                   No. 30 Northern
                                                                                                   District Wastewater          Architect-Engineer    Full and Open
                               DON      N6274208D0009-0019        $ 100,000,000    $    240,786                                                                            6
                                                                                                   Treatment Plant interim         FAR 6.102           Competition
                                                                                                   improvements preliminary
                                                                                                   design report.
                                                                                                   DPRI, Amendment
                                                                                                   No. 36 Best Management       Architect-Engineer    Full and Open
                               DON      N6274208D0009-0020        $ 100,000,000    $     27,101                                                                            6
                                                                                                   Practices Presentation to       FAR 6.102           Competition
                                                                                                   GEPA and Final Report.
                                                                                                   DPRI, Revised
                                                                                                   Amendment No. 38,




                                                                                                                                                                                   Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                Architect-Engineer    Full and Open
                               DON      N6274208D0009-0021        $ 100,000,000    $    254,234    Finegayan Landfill No. 2,                                               6
                                                                                                                                   FAR 6.102           Competition
      61




                                                                                                   1st Option Year - Fixed
                                                                                                   Price.
                                                                                                   2nd Option Year - Cost       Architect-Engineer    Full and Open
                               DON      N6274208D0009-0022        $ 100,000,000    $   3,010,024                                                                           6
                                                                                                   Reimbursement.                  FAR 6.102           Competition
                                                                                                   2nd Option Year - Fixed      Architect-Engineer    Full and Open
                               DON      N6274208D0009-0023        $ 100,000,000    $   1,557,743                                                                           6
                                                                                                   Price.                          FAR 6.102           Competition




                                                                                                                                                                                                     Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                   Preparation of DD Form       Architect-Engineer    Full and Open
                               DON      N6274208D0014-0002        $    5,000,000   $    612,482                                                                            11
                                                                                                   1391s.                          FAR 6.102           Competition
                                                                                                                                                       Not Available
                                                                                                                                                     for Competition
                               DON      N6274209D1957-0004-01     $    3,500,000   $   (387,282)   Base Year                    Only One Source                            1
                                                                                                                                                      (Authorized by
                                                                                                                                                         Statute)
Guam Realignment Report




                                                                                                   Deobligate unused funds.                            Not Available
                                                                                                   Project 100% complete                             for Competition
                               DON      N6274209D1957-0005-01     $    3,500,000   $   (109,230)                                Only One Source                            1
                                                                                                   and invoiced. Ready for                            (Authorized by
                                                                                                   close-out.                                            Statute)
                                                                                                   Amendment No. 4 - GOJ
        February 1, 2011




                                                                                                   Japanese FY 2013
                                                                                                   J-023 Bachelors Officer's    Architect-Engineer    Full and Open
                               DON      N6274210D0003-0008        $   50,000,000   $    259,565                                                                           17
                                                                                                   Quarters, Complex I,            FAR 6.102           Competition
                                                                                                   Finegayan, Marine Corps
                                                                                                   Base, Guam.




                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                        Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                                                                        Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                        Amount
                                           Contract, Grant,                            Obligated
                                                                                                                                   Method Used to                             Offers
                              Agency     Agreement, or Other     Ceiling Amount       January 1 -     Scope / Description                                 Offers Solicited
                                                                                                                                    Solicit Offers                           Received
                                       Funding Mechanism Title                       December 31,
                                                                                         2010
                                                                                                    Conceptual study of           Architect-Engineer       Full and Open
                              DON      N6274210D0005-0003         $   50,000,000     $    197,598                                                                              19
                                                                                                    1391s.                           FAR 6.102              Competition
                                                                                                    DPRI; Amendment
                                                                                                    No. 1, USMC Air
                                                                                                                                  Architect-Engineer       Full and Open
                              DON      N6274210D0007-0001         $ 100,000,000      $    997,586   Combat Element area                                                        12
                                                                                                                                     FAR 6.102              Competition
                                                                                                    development plan, AAFB,
                                                                                                    Guam.
                                                                                                                                                           Not Competed
                                                                                                    PIB Facilitation Support                                 under SAP
                              DON      N6274210P0500             No Ceiling Amount   $     67,340                                Simplified Acquisition                         1
                                                                                                    Services.                                              (Authorized by
                                                                                                                                                              Statute)
                                                                                                                                                           Not Competed
                                                                                                    DPRI IPR Leadership                                      under SAP
                              DON      N6274210P0501             No Ceiling Amount   $     65,530                                Simplified Acquisition                         1
                                                                                                    Service Support.                                       (Authorized by
                                                                                                                                                              Statute)
                                                                                                                                                            Not Available
                                                                                                                                                          For Competition
                              DON      N6274210P1802             No Ceiling Amount   $     48,000   Facilitation Services          Only One source                              1
     62




                                                                                                                                                           (Authorized by
                                                                                                                                                              Statute)
                                                                                                    Equipment and Services-
                                                                                                                                                          Competed Under
                              DON      N6274210P1825              $       15,338     $     15,338   Acoustic Monitoring          Simplified Acquisition                         1
                                                                                                                                                              SAP
                                                                                                    Equipment.
                                                                                                    Relocation assistance
                                                                                                    services for occupants
                                                                                                    (residential and business)
                                                                                                                                 Request for Proposal/     Full and Open
                              DON      N6274210RP006              $      116,448     $    116,448   on lands located in                                                         5
                                                                                                                                       Quote                Competition
                                                                                                    the villages of Yigo,
                                                                                                    Mangilano, and Dededo,
                                                                                                    Guam.
                                                                                                    Key Objectives:
                              DoD                                                                   Initial assessment of
                                       GR0706-07-01-07-01         $      589,591     $    589,591                                         N/A                   N/A            N/A
                              OEA                                                                   challenges; organization;
                                                                                                    and community outreach.
                                                                                      Amount
                                            Contract, Grant,                         Obligated
                                                                                                                                Method Used to                        Offers
                               Agency     Agreement, or Other     Ceiling Amount    January 1 -      Scope / Description                          Offers Solicited
                                                                                                                                 Solicit Offers                      Received
                                        Funding Mechanism Title                    December 31,
                                                                                       2010
                                                                                                   Key Objectives: Capacity
                                                                                                   building within the
                                                                                                   Office of the Governor;
                                                                                                   Logistical Support to the
                                                                                                   Office of the Governor;
                               DoD                                                                 Port of Guam Financial
                                        GR0706-08-02-08-01        $    1,546,299   $   1,546,299                                     N/A                N/A            N/A
                               OEA                                                                 Feasibility Study; Port
                                                                                                   of Guam Community
                                                                                                   Outreach and Consensus
                                                                                                   Building; and Port of
                                                                                                   Guam Implementation
                                                                                                   Plan.
                                                                                                   Key Objectives: Capacity
                                                                                                   building within the
                                                                                                   Office of the Governor
                                                                                                   (Environmental Advisory
                               DoD                                                                 Services, Planning
                                        GR0706-08-03              $    2,531,610   $   2,531,610                                     N/A                N/A            N/A




                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding
                               OEA                                                                 Advisory Services);
                                                                                                   Financial-Fiscal Advisory
      63




                                                                                                   Services; and Integrated
                                                                                                   Waste Management
                                                                                                   Study.
                                                                                                   Key Objectives: Port
                               DoD
                                        GR0706-09-04              $    2,000,000   $   2,000,000   modernization fact finding        N/A                N/A            N/A
                               OEA
                                                                                                   and planning.




                                                                                                                                                                                                  Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                   Key Objectives: Fiscal
                                                                                                   analysis of direct
                               DoD
                                        GR0706-09-05              $     996,873    $    996,873    and indirect impacts              N/A                N/A            N/A
                               OEA
                                                                                                   associated with proposed
                                                                                                   DoD build-up on Guam.
                                                                                                   Key Objectives:
                               DoD
                                        GR0706-09-06              $     536,955    $    536,955    Organizational/Logistical         N/A                N/A            N/A
Guam Realignment Report




                               OEA
                                                                                                   Support.
                                                                                                   Key Objectives: Capacity
                               DoD                                                                 enhancing; Health and
                                        GR0706-09-07              $    2,000,000   $   2,000,000                                     N/A                N/A            N/A
                               OEA                                                                 Human Services Care
        February 1, 2011




                                                                                                   strategic planning.
                                                                                                   Key Objectives: Port
                               DoD                                                                 Terminal Preliminary
                                        GR0706-09-08              $     975,000    $    975,000                                      N/A                N/A            N/A
                               OEA                                                                 Design; Port Master
                                                                                                   Planning.




                           	         Section 2835(e)(1)(E)
                          	           Section 2835(e)(1)(E)
February 1, 2011
Guam Realignment Report




                                                                                                                                                                                                            Mechanisms Data (Section 2835(e)(1)(E))
                                                                                                                                                                                                            Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                          Amount
                                               Contract, Grant,                                          Obligated
                                                                                                                                                            Method Used to                        Offers
                               Agency        Agreement, or Other              Ceiling Amount            January 1 -           Scope / Description                             Offers Solicited
                                                                                                                                                             Solicit Offers                      Received
                                           Funding Mechanism Title                                     December 31,
                                                                                                           2010
                                                                                                                           Key Objectives: Define
                                                                                                                           specific socio-economic
                               DoD
                                           GR0706-10-09-10-01                  $       380,000        $       380,000      areas of interest projects            N/A                N/A            N/A
                               OEA
                                                                                                                           and/or requirements,
                                                                                                                           associated with the DPRI.
                                                                                                                           Key Objectives: Port
                               DoD                                                                                         Modernization Program
                                           GR0706-10-10                        $       750,000        $       750,000                                            N/A                N/A            N/A
                               OEA                                                                                         Project Controls and
                                                                                                                           Accounting Services.
                                  Total                                                                $157,490,079

                              Sources: NAVFAC Headquarters response to DoD OIG data call, 1/18/2011 and DoD OEA response to DoD OIG data call, 12/6/2010.
     64
                                                 Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                   Mechanisms Data (Section 2835(e)(1)(E))


O




                                         Amount
         Contract, Grant,                                                            Method
                                        Obligated
          Agreement, or     Ceiling                                                  Used to     Offers         Offers
Agency                                 January 1 -       Scope / Description
          Other Funding     Amount                                                   Solicit    Solicited      Received
                                      December 31,
         Mechanism Title                                                              Offers
                                          2010
                                                   Technical review of
                                                   environmental compliance
                                                   for the impacts associated
                                                   with the relocation of military
                                                                                               Specialized
                                                   troops from Okinawa to
                                                                                                   skill
                                                   Guam and all related training
                                                                                                 required
                                                   components. A working
                                                                                                   and
                                                   knowledge of the Guam
DOC      A09OAR4320075         *      $     12,958                                    N/A       availability     N/A
                                                   Coastal Zone Management
                                                                                               to complete
                                                   Program, other local and
                                                                                               work within
                                                   federal environmental
                                                                                               a short time
                                                   compliance requirements,
                                                                                                  frame
                                                   marine natural resources,
                                                   and social considerations
                                                   for project impacts to Guam
                                                   were required.
                                                   Technical review of the
                                                   National Oceanic and
                                                   Atmospheric Administration
                                                   trust resources
                                                   environmental compliance
                                                   for the impacts associated
                                                   with the relocation of military             Specialized
                                                   troops from Okinawa to                          skill
                                                   Guam. The work required                       required
                                                   a working knowledge of the                      and
DOC      NA09OAR4320075        *      $     16,476 federal coastal compliance         N/A       availability     N/A


                                                                                                                          Section 2835(e)(1)(E)
                                                   requirements. In addition, it               to complete
                                                   required the ability to provide             work within
                                                   technical review of the                     a short time
                                                   proposed activities in Guam                    frame
                                                   and the CNMI to ensure
                                                   appropriate characterization
                                                   of defined actions to first
                                                   avoid unnecessary impacts
                                                   and then mitigate for lost
                                                   resource functions.
                                                                                                                          	




                                                                                         Guam Realignment Report
                                                      65
                                                                                                 February 1, 2011
                         Section 5: Contracts, Grants, Agreements, or Other Funding
                         Mechanisms Data (Section 2835(e)(1)(E))


                                                                                    Amount
                                     Contract, Grant,                                                                                      Method
                                                                                   Obligated
                                      Agreement, or              Ceiling                                                                   Used to          Offers          Offers
                         Agency                                                   January 1 -            Scope / Description
                                      Other Funding              Amount                                                                    Solicit         Solicited       Received
                                                                                 December 31,
                                     Mechanism Title                                                                                        Offers
                                                                                     2010
                                                                                                 Technical review of
                                                                                                 environmental compliance
                                                                                                 for impacts associated with
                                                                                                 the relocation of military
                                                                                                 troops from Okinawa to                                   Specialized
                                                                                                 Guam and all related training                                skill
                                                                                                 components. A working                                      required
                                                                                                 knowledge of the Guam                                        and
                         DOC        NA09OAR4320075                   *           $        10,000 Coastal Zone Management                      N/A          availability          N/A
                                                                                                 Program, other local and                                 to complete
                                                                                                 federal environmental                                    work within
                                                                                                 laws and compliance                                      a short time
                                                                                                 requirements, marine natural                                frame
                                                                                                 resources, and social and
                                                                                                 cultural considerations for
                                                                                                 project impacts to Guam
                                                                                                 were required.
                                                                                                  Technical review of the
                                                                                                  ecological impacts on                                   Specialized
                                                                                                  marine ecosystems from the                                  skill
                                                                                                  relocation of military troops                             required
                                                                                                  from Okinawa to Guam.                                       and
                         DOC        NA09OAR4320075                   *           $          3,000 Focused review was on the                   N/A          availability          N/A
                                                                                                  proposed construction of                                to complete
                                                                                                  a nuclear powered aircraft                              work within
                                                                                                  carrier transient pier and                              a short time
                                                                                                  turning basin in Apra Harbor,                              frame
                                                                                                  Guam.
                                                                                                                                          Full and
                                    Contract
                         DOT                                 $ 400,000,000 $          1,000,000 Program Management                         Open            Unlimited             5
                                    DTMA1D10002
                                                                                                                                         Competition
                                                                                                 Impacts on water and waste
                                    EP-R9-08-
                                                                                                 water resources from the                Request for
                         EPA        01 TO#16                 $       533,752 $           159,337                                                                1                1
                                                                                                 military expansion in the trust          Quotation
                                    (R908010016)
                                                                                                 territory of Guam
                                                                                                 Technical and Financial
                                    EP-R9-08-                                                    Support for Military
                                                                                                                                         Request for
                         EPA        01 TO#18                 $       751,368 $           751,368 Relocation to Guam/CNMI                                        1                1
                                                                                                                                          Quotation
                                    (R908010018)                                                 Clean Water and Safe
                                                                                                 Drinking Water Programs
                          Total                                                  $    1,953,139
Section 2835(e)(1)(E)




                         * Information not provided.

                         Sources: DOC response to DoD OIG data call, 1/10/2011; DOT response to DoD OIG data call, 1/19/2011; and EPA response to DoD OIG data call, 1/7/2011.
	




                        Guam Realignment Report
                                                                                                    66
                        February 1, 2011
Appendices and Endnotes




                  Guam Realignment Report
           67
                          February 1, 2011
                            Appendix A. Legislative Mandates for Guam Realignment in
                            the National Defense Authorization Act for FY 2010


                                 Appendix A. Legislative Mandates for
                                 Guam Realignment in the National
                                 Defense Authorization Act for FY 2010
                            SEC. 2831. ROLE OF DEPARTMENT OF DEFENSE IN MANAGEMENT
                            		          AND COORDINATION OF DEFENSE ACTIVITIES RELATING TO
                            		          GUAM REALIGNMENT.
                            	        (a) DEPUTY SECRETARY OF DEFENSE.—Section 132 of title 10, U.S. Code, is amended by adding
                            at the end the following new subsection:
                            	        ‘‘(d) Until September 30, 2015, the Deputy Secretary of Defense shall lead the Guam Executive Council
                            and shall be the Department of Defense’s principal representative for coordinating the interagency efforts in
                            matters relating to Guam, including the following executive orders:
                            		               ‘‘(1) Executive Order No. 13299 of May 12, 2003 (68 Fed. Reg. 25477; 48 U.S. Code note prec.
                            	        1451; relating to the Interagency Group on Insular Affairs).
                                   		        ‘‘(2) Executive Order No. 12788 of January 15, 1992, as amended (57 Fed. Reg. 2213; relating to
                                   	 the Defense Economic Adjustment Program).’’
                            	
                            	        (b) REPORT.—Not later than 90 days after the date of the enactment of this Act, the Secretary of
                            Defense shall submit to the congressional defense committees a report including the charter that establishes the
                            Guam Executive Council.

                            SEC. 2832. CLARIFICATIONS REGARDING USE OF SPECIAL PURPOSE ENTITIES
                            		          TO ASSIST WITH GUAM REALIGNMENT.
                            	       (a) SPECIAL PURPOSE ENTITY DEFINED.—In this section, the term ‘‘special purpose entity’’
                            means any private person, corporation, firm, partnership, company, State or local government, or authority or
                            instrumentality of a State or local government that the Secretary of Defense determines is capable of producing
                            military family housing or providing utilities to support the realignment of military installations and the
                            relocation of military personnel on Guam.
                            	
	APPENDICES AND ENDNOTES




                            	       (b) REPORT ON INTENDED USE SPECIAL PURPOSE ENTITIES.—
                            		              (1) REPORT REQUIRED.—Not later than 180 days after the date of the enactment of this Act,
                            	       the Secretary of Defense shall submit to the congressional defense committees a report describing the
                            	       intended use of special purpose entities to provide military family housing or utilities to support the
                            	       realignment of military installations and the relocation of military personnel on Guam.
                            		              (2) NOTICE AND WAIT.—The Secretary of Defense may not authorize the use of special use
                            	       entities as described in paragraph (1) until the end of the 30-day period (15-day period if the report is
                            	       submitted elec­tronically) beginning on the date on which the report required by such paragraph is
                            	       submitted.
                            	
                            	       (c) APPLICABILITY OF UNIFIED FACILITIES CRITERIA.—
                            		              (1) APPLICABILITY TO SECTION 2350K CONTRIBUTIONS.—Section 2824(c)(4) of the
                            	       Military Construction Authorization Act for Fiscal Year 2009 (division B of Public Law 110–417; 10
                            	       U.S. Code 2687 note) is amended by adding at the end the following new subparagraph:
                            			                     ‘‘(D) APPLICABILITY OF UNIFIED FACILITIES CRITERIA.—
                                          The unified facilities criteria promulgated by the Under Secretary of Defense for Acquisition,
                                          Technology, and Logistics and dated May 29, 2002, and any successor to such criteria shall be the

                           Guam Realignment Report
                                                                                  68
                           February 1, 2011
                                                     Appendix A. Legislative Mandates for Guam Realignment in
                                                            the National Defense Authorization Act for FY 2010

            minimum standard applicable to projects funded using contributions referred to in subsection (b)(1)
            for a transaction authorized by paragraph (1).’’.

		              (2) APPLICABILITY TO SPECIAL PURPOSE ENTITY CONTRIBUTIONS.—The unified
	      facilities criteria promulgated by the Under Secretary of Defense for Acquisition, Technology, and
	      Logistics and dated May 29, 2002, and any successor to such criteria shall be the minimum standard
	      applicable to projects funded using contributions provided by a special purpose entity.
		              (3) REPORT.—Not later than 180 days after the date of the enactment of this Act, the Secretary
	      of Defense shall submit to the congressional defense committees a report containing an evaluation
	      of various options, including a preferred option, that the Secretary could utilize to comply with
	      the unified facilities criteria referred to in paragraph (2) in the acquisition of military housing on Guam
	      in connection with the realignment of military installations and the relocation of military personnel on
	      Guam. In preparing the report, the Secretary shall consider the impact of—
			                      (A) increasing the overseas housing allowance for members of the Armed Forces serving
		              on Guam; and
			                      (B) providing a direct Federal subsidy to public-private ventures.
	
	      (d) SENSE OF CONGRESS ON SCOPE OF UTILITY INFRASTRUCTURE IMPROVEMENTS.—
Section 2821 of the Military Construction Authorization Act for Fiscal Year 2009 (division B of Public Law
110–417; 122 Stat. 4729) is amended—
		              (1) by redesignating subsection (c) as subsection (b); and
		              (2) in such subsection, by striking ‘‘should incorporate the civilian and military infra­structure
	      into a single grid to realize and maximize the effectiveness of the overall util­ity system’’ and inserting
	      ‘‘should support proposed utility infrastructure improvements on Guam that incorporate the civilian and
	      military infrastructure into a single grid to realize and maximize the effectiveness of the overall utility
	      system, rather than simply supporting one or more military installations’’.

SEC. 2833. WORKFORCE ISSUES RELATED TO MILITARY CONSTRUCTION AND
		          CERTAIN OTHER TRANSACTIONS ON GUAM.
	       (a) PREVAILING WAGE REQUIREMENTS.—Subsection (c) of section 2824 of the Military
Construction Authorization Act for Fiscal Year 2009 (division B of Public Law 110–417; 10 U.S. Code 2687
note) is amended by adding at the end the following new paragraph:
		             ‘‘(5) APPLICATION OF PREVAILING WAGE REQUIREMENTS.—




                                                                                                                     	APPENDICES AND ENDNOTES
			                    ‘‘(A) IN GENERAL.—The requirements of subchapter IV of chapter 31 of title 40, U.S.
		             Code, shall apply to any military construction project or other transaction authorized by
		             paragraph (1) that is carried out on Guam using contributions referred to in subsection (b)(1) or
		             appropriated funds.
			                    ‘‘(B) SECRETARY OF LABOR AUTHORITIES.—In order to carry out the requirements
		             of subparagraph (A) and paragraph (6) (relating to composition of workforce for construction
		             projects), the Secretary of Labor shall have the authority and functions set forth in
		             Reorganization Plan Num­ber 14 of 1950 and section 3145 of title 40, U.S. Code.
			                    ‘‘(C) WAGE RATE DETERMINATION.—In making wage rate determinations pursuant
		             to sub­paragraph (A), the Secretary of Labor shall not include in the wage survey any persons
		             who hold a visa described in section 101(a)(15)(H)(ii)(b) of the Immigration and Nationality Act
		             (8 U.S. Code 1101(a)(15)(H)(ii)(b)).
			                    ‘‘(D) ADDITION TO WEEKLY STATEMENT ON THE WAGES PAID.—In the case of
		             projects and other transactions covered by subparagraph (A), the weekly statement required by
		             section 3145 of title 40, U.S. Code, shall also identify each employee working on the project or
		             transaction who holds a visa described in section 101(a)(15)(H)(ii)(b) of the Immigration and

                                                                                        Guam Realignment Report
                                                        69
                                                                                                February 1, 2011
                            Appendix A. Legislative Mandates for Guam Realignment in
                            the National Defense Authorization Act for FY 2010

                            		          Nationality Act (8 U.S. Code 1101(a)(15)(H)(ii)(b)).
                            			                 ‘‘(E) DURATION OF REQUIREMENTS.—The Secretary of Labor shall make and issue
                            		          a wage rate determination for Guam annually until 90 percent of the funds in the Account and
                            		          other funds made available for the realignment of military installations and the relocation of
                            		          military personnel on 	Guam have been expended.’’.
                            	
                            	   (b) REPORTING REQUIREMENTS REGARDING SUPPORT OF CONSTRUCTION
                            WORKFORCE.—Sub­section (e) of such section is amended—
                            		          (1) by striking ‘‘Not later than’’ and inserting the following:
                            		          ‘‘(1) MILITARY CONSTRUCTION	INFORMATION.—Not later than’’; and
                            		          (2) by adding at the end the following new paragraph:
                            		          ‘‘(2) CONSTRUCTION WORKFORCE INFORMATION.—The annual report shall also include
                            	   an as­sessment of the living standards of the construction workforce employed to carry out military
                            	   construction projects covered by the report, including, at a minimum, the adequacy of contract standards
                            	   and infra­structure that support temporary housing the construction workforce and their medical needs.’’.

                            SEC. 2834. COMPOSITION OF WORKFORCE FOR CONSTRUCTION PROJECTS
                            	          FUNDED THROUGH THE SUPPORT FOR U.S. RELOCATION TO
                            		         GUAM ACCOUNT.
                            	       (a) COMPOSITION OF WORKFORCE.—Section 2824(c) of the Military Construction Authorization
                            Act for Fiscal Year 2009 (division B of Public Law 110–417; 10 U.S. Code 2687 note) is amended by inserting
                            after paragraph (5), as added by section 2833, the following new paragraph:
                            		             ‘‘(6) COMPOSITION OF WORKFORCE FOR CONSTRUCTION PROJECTS.—
                                   			              ‘‘(A) LIMITATION.—With respect to each construction project that is carried out using
                                   		      amounts described in subparagraph (B), no work may be performed by a person holding a visa
                                   		      described in section 101(a)(15)(H)(ii)(b) of the Immigration and Nationality Act (8 U.S. Code
                                   		      1101(a)(15)(H)(ii)(b)) unless—
                                   				                      ‘‘(i) the application for that visa has been approved pursuant to the issuance of a
                                   			              temporary labor certification by the Governor of Guam as provided under section 214.2
                                   			              of title 8, Code of Federal Regulations; and
                                               		            ‘‘(ii) the Governor of Guam, in consultation with the Secretary of Labor, makes
                                               	 the certifica­tion described in subparagraph (C) to the Secretary of Defense.
	APPENDICES AND ENDNOTES




                            			                     ‘‘(B) SOURCE OF FUNDS.—Subparagraph (A) applies to—
                                               		            ‘‘(i) amounts in the Account used for projects associated with the realignment of
                                               	 military installations and the relocation of military personnel on Guam;
                                               		            ‘‘(ii) funds associated with activities under section 2821 of this Act; and
                                               		            ‘‘(iii) funds for authorized military construction projects.
                                         		         ‘‘(C) CERTIFICATION.—The certification referred to in subparagraph (A) is a
                                         	 certification, in ad­dition to the certifications required by section 214.2 of title 8, Code of Federal
                                         	 Regulations, that—
                            				                             ‘‘(i) there are not sufficient U.S. workers who are able, willing, qualified, and
                            			                     avail­able at the time of application for a visa and admission to the U.S. and at the place
                            			                     where the persons holding visas described in section 101(a)(15)(H)(ii)(b) of the
                            			                     Immigration and Nationality Act (8 U.S. Code 1101(a)(15)(H)(ii)(b)) are to perform such
                            			                     skilled or unskilled labor; and
                            				                             ‘‘(ii) the employment of such persons holding visas described in section 101(a)
                            			                     (15)(H)(ii)(b) of the Immigration and Nationality Act (8 U.S. Code 1101(a)(15)(H)(ii)(b))
                            			                     will not adversely affect the wages and working conditions of workers in Guam similarly
                            			                     employed.

                           Guam Realignment Report
                                                                                    70
                           February 1, 2011
                                                  Appendix A. Legislative Mandates for Guam Realignment in
                                                         the National Defense Authorization Act for FY 2010

			                ‘‘(D) SOLICITATION OF WORKERS.—In order to ensure compliance with
		         subparagraph (A), as a condition of a contract covered by such subparagraph, the contractor shall
		         be required to adver­tise and solicit for construction workers in the U.S., including Guam, the
		         Commonwealth of the Northern Mariana Islands, American Samoa, the Virgin Islands, and the
		         Commonwealth of Puerto Rico, in accordance with a recruitment plan approved by the Secretary 	
		         of Labor. The contractor shall submit a copy of the employment offer, including a description
		         of wages and other terms and conditions of employment, to the Secretary of Labor at least 60
		         days before the start date of the workers under a contract. The contractor shall authorize the
		         Secretary of Labor to post a no­tice of the employment offer on a website, with State, territorial,
		         and local job banks, with State and territorial workforce agencies, and with any other referral and
		         recruitment sources the Secretary of Labor determines may be pertinent to the employment
		         opportunity.
			                ‘‘(E) RECRUITMENT PERIOD.—The Secretary of Labor shall ensure that a
		         contractor’s recruitment of construction workers complies with the recruitment plan required
		         by subparagraph (D) for a period beginning 60 days before the start date of workers under a
		         contract and continuing for the next 28 days. During the recruitment period, the contractor
		         shall interview all qualified and avail­able U.S. construction workers who have applied for the
		         employment opportunity, and, at the close of the recruitment period, the contractor shall provide
		         the Secretary of Labor with a recruitment report providing any reasons for which the contractor
		         did not hire an applicant who is a qualified U.S. construction worker. Not later than 21 days
		         before the start date of the workers under a contract, the Secretary of Labor shall certify to the
		         Governor of Guam whether the contractor has satisfied the recruitment plan created under
		         subparagraph (D).
			                ‘‘(F) LIMITATION.—An employer, its attorney or agent, the Secretary of Labor, the
		         Governor of Guam, and any designee thereof, may not seek or receive payment of any kind from
		         any worker for any activity related to obtaining an H–2B labor certification with respect to any
		         construction project that is carried out using amounts described in subparagraph (B).’’.
	
	 (b) REPORTING REQUIREMENTS.—
		         (1) SECRETARY OF DEFENSE.—Not later than June 30, 2010, the Secretary of Defense shall
	 submit to the congressional committees specified in paragraph (3) a report containing an assessment of
	 efforts to es­tablish a Project Labor Agreement for construction projects associated with the Guam




                                                                                                                 	APPENDICES AND ENDNOTES
	 realignment as en­couraged by Executive Order 13502, entitled ‘‘Use of Project Labor Agreements
	 for Federal Construction Projects’’ (74 Fed. Reg. 6985), as a means of complying with the requirements
	 of paragraph (6) of section 2824(c) of the Military Construction Authorization Act for Fiscal Year 2009,
	 as added by subsection (a).
		         (2) SECRETARY OF LABOR.—Not later than June 30, 2010, the Secretary of Labor shall
	 submit to the congressional committees specified in paragraph (3) a report containing an assessment
	 of—
			                (A) the opportunities to expand the recruitment of construction workers in the U.S., 		
		         including Guam, the Commonwealth of the Northern Mariana Islands, American Samoa, 			
		         the Virgin Islands, and the Commonwealth of Puerto Rico, to support the realignment of military
		         installations and the reloca­tion of military personnel on Guam, consistent with the requirements
		         of paragraph (6) of section 2824(c) of the Military Construction Authorization Act for Fiscal Year
		         2009, as added by subsec­tion (a);
			                (B) the ability of labor markets to support the Guam realignment;
	 		               (C) the sufficiency of efforts to recruit U.S. construction workers; and
       		          (D) the costs to the U.S. for recruitment plans required by such paragraph (6) and a
       	 proposed method to cover such costs.

                                                                                   Guam Realignment Report
                                                      71
                                                                                           February 1, 2011
                            Appendix A. Legislative Mandates for Guam Realignment in
                            the National Defense Authorization Act for FY 2010

                                  		        (3) COVERED CONGRESSIONAL COMMITTEES.—The reports required by this subsection
                                  shall be submitted to the congressional defense committees, the Committee on Education and Labor of the
                                  House of Representatives, and the Committee on Health, Education, Labor, and Pensions of the Senate.

                            SEC. 2835. INTERAGENCY COORDINATION GROUP OF INSPECTORS GENERAL
                            		          FOR GUAM REALIGNMENT.
                            	       (a) INTERAGENCY COORDINATION GROUP.—There is hereby established the Interagency
                            Coordination Group of Inspectors General for Guam Realignment (in this section referred to as the
                            ‘‘Interagency Coordination Group’’)—
                            		              (1) to provide for the objective conduct and supervision of audits and investigations relating to
                            	       the programs and operations funded with amounts appropriated or otherwise made available for military
                            	       con­struction on Guam in connection with the realignment of military installations and the relocation of
                            	       military personnel on Guam; and
                                   		       (2) to provide for coordination of, and recommendations on, policies designed—
                                   			              (A) to promote economic efficiency and effectiveness in the administration of the
                                   		       programs and operations described in paragraph (1); and
                                   			              (B) to prevent and detect waste, fraud, and abuse in such programs and operations.

                            	   (b) MEMBERSHIP.—
                            		          (1) CHAIRPERSON.—The Inspector General of the Department of Defense shall serve as
                            	   chairperson of the Interagency Coordination Group.
                              		        (2) ADDITIONAL MEMBERS.—Additional members of the Interagency Coordination Group
                              	 shall include the Inspector General of the Department of Interior and the Inspector General of such
                              	 other Federal agencies as the chairperson considers appropriate to carry out the duties of the Interagency
                              	 Coordination Group.

                            	   (c) DUTIES.—
                              		        (1) OVERSIGHT OF GUAM CONSTRUCTION.—It shall be the duty of the Interagency
                              	 Coordination Group to conduct, supervise, and coordinate audits and investigations of the treatment,
                              	 handling, and expenditure of amounts appropriated or otherwise made available for military construction
                              	 on Guam and of the programs, operations, and contracts carried out utilizing such funds, including—
                            			                  (A) the oversight and accounting of the obligation and expenditure of such funds;
	APPENDICES AND ENDNOTES




                            			                  (B) the monitoring and review of construction activities funded by such funds;
                            			                  (C) the monitoring and review of contracts funded by such funds;
                            			                  (D) the monitoring and review of the transfer of such funds and associated information
                            		          between and among departments, agencies, and entities of the U.S. and private and
                            		          nongovernmental entities;
                            			                  (E) the maintenance of records on the use of such funds to facilitate future audits and
                            		          investigations of the use of such fund; and
                            			                  (F) the monitoring and review of the implementation of the Defense Posture Review
                            		          Initiative relat­ing to the realignment of military installations and the relocation of military
                            		          personnel on Guam.
                            		          (2) OTHER DUTIES RELATED TO OVERSIGHT.—The Interagency Coordination Group shall
                            	   establish, maintain, and oversee such systems, procedures, and controls as the Interagency Coordination
                            	   Group considers appropriate to discharge the duties under paragraph (1).
                              		        (3) OVERSIGHT PLAN.—The chairperson of the Interagency Coordination Group shall prepare
                              	 an annual oversight plan detailing planned audits and reviews related to the Guam realignment.

                            	


                           Guam Realignment Report
                                                                                  72
                           February 1, 2011
                                                  Appendix A. Legislative Mandates for Guam Realignment in
                                                         the National Defense Authorization Act for FY 2010

	 (d) ASSISTANCE FROM FEDERAL AGENCIES.—
		       (1) PROVISION OF ASSISTANCE.—Upon request of the Interagency Coordination Group for
	 information or assistance from any department, agency, or other entity of the Federal Government, the
	 head of such entity shall, insofar as is practicable and not in contravention of any existing law, furnish
	 such infor­mation or assistance to the Interagency Coordination Group.
		       (2) REPORTING OF REFUSED ASSISTANCE.—Whenever information or assistance
	 requested by the Interagency Coordination Group is, in the judgment of the chairperson of the
	 Interagency Coordination Group, unreasonably refused or not provided, the chairperson shall report the
	 circumstances to the Secretary of Defense and to the congressional defense committees without delay.

	      (e) REPORTS.—
		        (1) ANNUAL REPORTS.—Not later than February 1 of each year, the chairperson of the
	 Interagency Coordination Group shall submit to the congressional defense committees, the Secretary of
	 Defense, and the Secretary of the Interior a report summarizing, for the preceding calendar year,
	 the activities of the In­teragency Coordination Group during such year and the activities under programs
	 and operations funded with amounts appropriated or otherwise made available for military construction
	 on Guam. Each report shall include, for the year covered by the report, a detailed statement of all
	 obligations, expenditures, and revenues associated with such construction, including the following:
			                (A) Obligations and expenditures of appropriated funds.
			                (B) A project-by-project and program-by-program accounting of the costs incurred to date
		        for military construction in connection with the realignment of military installations and the
		        relocation of military personnel on Guam, together with the estimate of the Department of
		        Defense and the Department of the Interior, as applicable, of the costs to complete each project
		        and each program.
			                (C) Revenues attributable to or consisting of funds contributed by the Government of
		        Japan in con­nection with the realignment of military installations and the relocation of military
		        personnel on Guam and any obligations or expenditures of such revenues.
			                (D) Operating expenses of agencies or entities receiving amounts appropriated or
		        otherwise made available for military construction on Guam.
			                (E) In the case of any contract, grant, agreement, or other funding mechanism described
		        in paragraph (2)—
				                        (i) the amount of the contract, grant, agreement, or other funding mechanism;




                                                                                                               	APPENDICES AND ENDNOTES
				                        (ii) a brief discussion of the scope of the contract, grant, agreement, or other
			                funding mecha­nism;
				                        (iii) a discussion of how the department or agency of the U.S. Government
			                involved in the contract, grant, agreement, or other funding mechanism identified, and
			                solicited offers from, potential individuals or entities to perform the contract, grant,
			                agreement, or other funding mechanism, together with a list of the potential individuals
			                or entities that were issued solicitations for the offers; and
				                        (iv) the justification and approval documents on which was based the
			                determination to use procedures other than procedures that provide for full and open
			                competition.
		        (2) COVERED CONTRACTS, GRANTS, AGREEMENTS, AND FUNDING
	 MECHANISMS.—A con­tract, grant, agreement, or other funding mechanism described in this
	 paragraph is any major contract, grant, agreement, or other funding mechanism that—
			                (A) is entered into by any department or agency of the U.S. Government with any public
		        or private sector entity; and
			                (B) involves the use of amounts appropriated or otherwise made available for military


                                                                                   Guam Realignment Report
                                                      73
                                                                                           February 1, 2011
                            Appendix A. Legislative Mandates for Guam Realignment in
                            the National Defense Authorization Act for FY 2010

                            		       construction on Guam.
                            		       (3) FORM.—Each report required under this subsection shall be submitted in unclassified form,
                            	 but may include a classified annex if the Interagency Coordination Group considers it necessary.
                            	 	      (4) RULE OF CONSTRUCTION.—Nothing in this subsection shall be construed to authorize
                            	 the public disclosure of information that is—
                            			               (A) specifically prohibited from disclosure by any other provision of law;
                            			               (B) specifically required by Executive order to be protected from disclosure in the interest
                            		       of national defense or national security or in the conduct of foreign affairs; or
                            			               (C) a part of an ongoing criminal investigation.
                            		       (5) SUBMISSION OF COMMENTS.—Not later than 30 days after receipt of a report under
                            	 paragraph (1), the Secretary of Defense or the Secretary of the Interior may submit to the congressional
                            	 defense committees any comments on the matters covered by the report as the Secretary concerned
                            	 considers appropriate. Any comments on the matters covered by the report shall be submitted in
                            	 unclassified form, but may include a classified annex if the Secretary concerned considers it necessary.

                            	 (f) PUBLIC AVAILABILITY; WAIVER.—
                            		        (1) PUBLIC AVAILABILITY.—The Interagency Coordination Group shall publish on a
                            	 publically-avail­able Internet website each report prepared under subsection (e). Any comments on the
                            	 report submitted under paragraph (5) of such subsection shall also be published on such website.
                            		        (2) WAIVER AUTHORITY.—The President may waive the requirement under paragraph (1)
                            	 with respect to availability to the public of any element in a report under subsection (e), or any comment
                            	 with respect to a report, if the President determines that the waiver is justified for national security
                            	 reasons.
                            		        (3) NOTICE OF WAIVER.—The President shall publish a notice of each waiver made under this
                            	 subsec­tion in the Federal Register no later than the date on which a report required under subsection (e),
                            	 or any comment under paragraph (5) of such subsection, is submitted to the congressional defense
                            	 committees. The report and comments shall specify whether waivers under this subsection were made
                            	 and with respect to which elements in the report or which comments, as appropriate.

                            	 (g) DEFINITIONS.—In this section:
                            		      (1) AMOUNTS APPROPRIATED OR OTHERWISE MADE AVAILABLE.— The term
                            	 ‘‘amounts appropriated or otherwise made available for military construction on Guam’’ includes
	APPENDICES AND ENDNOTES




                            	 amounts derived from the Support for U.S. Relocation to Guam Account.
                            		      (2) GUAM.—The term ‘‘Guam’’ includes any island in the Northern Mariana Islands.

                            	 (h) TERMINATION.—
                            		        (1) IN GENERAL.—The Interagency Coordination Group shall terminate upon the expenditure
                            	 of 90 percent of all funds appropriated or otherwise made available for Guam realignment.
                            		        (2) FINAL REPORT.—Before the termination of the Interagency Coordination Group pursuant
                            	 to paragraph (1), the chairperson of the Interagency Coordination Group shall prepare and submit to the
                            	 congres­sional defense committees a final report containing—
                            			               (A) notice that the termination condition in paragraph (1) has occurred; and
                            			               (B) a final forensic audit on programs and operations funded with amounts appropriated
                            		        or otherwise made available for military construction on Guam.




                           Guam Realignment Report
                                                                                74
                           February 1, 2011
                                                     Appendix A. Legislative Mandates for Guam Realignment in
                                                            the National Defense Authorization Act for FY 2010

SEC. 2836. COMPLIANCE WITH NAVAL AVIATION SAFETY REQUIREMENTS
		          AS CONDITION ON ACCEPTANCE OF REPLACEMENT FACILITY
		          FOR MARINE CORPS AIR STATION, FUTEN­MA, OKINAWA.
	       (a) IN GENERAL.—The Secretary of Defense may not accept, or authorize any other official of the
Department of Defense to accept, a replacement facility in Okinawa for air operations conducted at Marine
Corps Air Station, Futenma, Okinawa until the Secretary reports to the congressional defense committees
that the replace­ment facility and its planned operating procedures are consistent with naval aviation safety
requirements.
	       (b) EXERCISE OF WAIVER AUTHORITIES.—
	       	       (1) RULE OF CONSTRUCTION.—Nothing in this section shall be construed as preventing
	       the Secretary from exercising existing waiver authorities provided the Secretary first determines the
	       waiver is necessary in the interest of national defense.
		              (2) REQUIRED REPORTING OF EFFORTS.—The report specified under subsection (a)
	       shall clearly identify efforts made to mitigate deviations from criteria in the planning and construction of
	       the replacement facility described in such subsection.

SEC. 2837. REPORT AND SENSE OF CONGRESS ON MARINE CORPS
		          REQUIREMENTS IN ASIA-PACIFIC REGION.
	       (a) REPORT REQUIRED.—Not later than 180 days after the date of the enactment of this Act, the
Secretary of Defense shall submit to the congressional defense committees a report on the training and readiness
requirements necessary for Marine Forces Pacific, the field command of the Marine Corps within the U.S.
Pacific Command.

	       (b) CONTENTS OF REPORT.—The report required under subsection (a) shall contain each of the
following:
		             (1) A description of the units of the Marine Corps expected to be assigned or realigned on a
	       permanent or temporary basis to Marine Forces Pacific, including the type of unit, the organizational
	       element, the current location of the unit, and proposed location for the unit.
		             (2) A description of the training requirements necessary to sustain the current and planned
	       realignment of forces specified in paragraph (1).
      		       (3) A description of the strategic- and tactical-lift requirements associated with the training,
      	 operational readiness, and movement of Marine Forces Pacific, including programming information
      	 regarding the intent of the Department of Defense to eliminate deficiencies in the strategic-lift




                                                                                                                       	APPENDICES AND ENDNOTES
      	 capabilities.

	      (c) SENSE OF CONGRESS.—It is the sense of Congress that an evaluation of training and readiness
requirements for Marine Forces Pacific—
		             (1) should be conducted and completed as soon as possible;
		             (2) should include an analysis that, at a minimum, reviews the capabilities required to support the
	      training, operational readiness, and movement of Marine Air-Ground Task Force; and
		             (3) should not impact the implementation of the recently signed international agreement entitled
	      ‘‘Agreement between the Government of the U.S. of America and the Government of Japan concerning
	      the Implementation of the Relocation of the III Marine Expeditionary Force Personnel and their
	      Dependents from Okinawa to Guam’’.




                                                                                        Guam Realignment Report
                                                         75
                                                                                                February 1, 2011
                            Appendix B. Legislative Mandates for Guam Realignment in
                            the National Defense Authorization Act for FY 2011


                                 Appendix B. Legislative Mandates for
                                 Guam Realignment in the National
                                 Defense Authorization Act for FY 2011
                            SEC. 2821. EXTENSION OF TERM OF DEPUTY SECRETARY OF DEFENSE’S
                            		          LEADERSHIP OF GUAM OVERSIGHT COUNCIL.
                            	      Subsection (d) of section 132 of title 10, U.S. Code, as added by section 2831(a) of the Military
                            Construction Authorization Act for Fiscal Year 2010 (division B of Public Law 111–84; 123 Stat. 2669), is
                            amended by striking “September 30, 2015” and inserting “September 30, 2020”.

                            SEC. 2822. UTILITY CONVEYANCES TO SUPPORT INTEGRATED WATER
                            		          AND WASTEWATER TREATMENT SYSTEM ON GUAM.
                            	       (a) CONVEYANCE OF UTILITIES.—The Secretary of Defense may convey to the Guam Waterworks
                            Authority (in this section referred to as the “Authority”) all right, title, and interest of the United States in and
                            to the water and wastewater treatment utility systems on Guam, including the Fena Reservoir, for the purpose of
                            establishing an integrated water and wastewater treatment system on Guam.

                            	 (b) CONSIDERATION.—
                            		        (1) CONSIDERATION REQUIRED.—As consideration for the conveyance of the water
                            	 and wastewater treatment utility systems on Guam, the Authority shall pay to the Secretary of Defense
                            	 an amount equal to the fair market value of the utility infrastructure to be conveyed, as determined
                            	 pursuant to an agreement between the Secretary and the Authority.
                            		        (2) DEFERRED PAYMENTS.—At the discretion of the Authority, the Authority may elect to
                            	 pay the consideration determined under paragraph (1) in equal annual payments over a period of not
                            	 more than 25 years, starting with the first year beginning after the date of the conveyance of the water
                            	 and wastewater treatment utility systems to the Authority.
                            		        (3) ACCEPTANCE OF IN-KIND SERVICES.—The consideration required by paragraph
                            	 (1) may be paid in cash or in-kind, as acceptable to the Secretary of Defense. The Secretary of Defense,
                            	 in consultation with the Secretary of the Interior, shall consider the value of in-kind services provided by
	APPENDICES AND ENDNOTES




                            	 the Government of Guam pursuant to section 311 of the Compact of Free Association between the
                            	 Government of the United States and the Government of the Federated States of Micronesia, approved
                            	 by Congress in the Compact of Free Association Amendments Act of 2003 (Public Law 108–188; 117
                            	 Stat. 2781), section 311 of the Compact of Free Association between the Government of the United
                            	 States and the Government of the Republic of the Marshall Islands, approved by Congress in such Act,
                            	 and the Compact of Free Association between the Government of the United States and the Government
                            	 of the Republic of Palau, approved by Congress in the Palau Compact of Free Association Act (Public
                            	 Law 99–658; 100 Stat. 3672).

                            	      (c) CONDITION OF CONVEYANCE.—As a condition of the conveyance under subsection (a),
                            the Secretary of Defense must obtain at least a 33 percent voting representation on the Guam Consolidated
                            Commission on Utilities, including a proportional representation as chairperson of the Commission.

                            	 (d) IMPLEMENTATION REPORT.—
                            		       (1) REPORT REQUIRED.—If the Secretary of Defense determines to use the authority provided
                            	 by subsection (a) to convey the water and wastewater treatment utility systems to the Authority, the
                            	 Secretary shall submit to the congressional defense committees a report containing—

                           Guam Realignment Report
                                                                                    76
                           February 1, 2011
                                                      Appendix B. Legislative Mandates for Guam Realignment in
                                                             the National Defense Authorization Act for FY 2011

			             (A) a description of the actions needed to efficiently convey the water and wastewater
		       treatment utility systems to the Authority; and
			             (B) an estimate of the cost of the conveyance.
		       (2) SUBMISSION.—The Secretary shall submit the report not later than 30 days after the date
	 on which the Secretary makes the determination triggering the report requirement.

	       (e) NEW WATER SYSTEMS.—If the Secretary of Defense determines to use the authority provided by
subsection (a) to convey the water and wastewater treatment utility systems to the Authority, the Secretary shall
also enter into an agreement with the Authority, under which the Authority will manage and operate any water
well or wastewater treatment plant that is constructed by the Secretary of a military department on Guam on or
after the date of the enactment of this Act.

	      (f) ADDITIONAL TERM AND CONDITIONS.—The Secretary of Defense may require such
additional terms and conditions in connection with the conveyance under this section as the Secretary considers
appropriate to protect the interests of the United States.

	 (g) TECHNICAL ASSISTANCE.—
		        (1) ASSISTANCE AUTHORIZED; REIMBURSEMENT.—The Secretary of the Interior, acting
	 through the Commissioner of the Bureau of Reclamation, may provide technical assistance to the
	 Secretary of Defense and the Authority regarding the development of plans for the design, construction,
	 operation, and maintenance of integrated water and wastewater treatment utility systems on Guam.
		        (2) CONTRACTING AUTHORITY; CONDITION.—The Secretary of the Interior, acting
	 through the Commissioner of the Bureau of Reclamation, may enter into memoranda of understanding,
	 cooperative agreements, and other agreements with the Secretary of Defense to provide technical
	 assistance as described in paragraph (1) under such terms and conditions as the Secretary of the Interior
	 and the Secretary of Defense consider appropriate, except that costs incurred by the Secretary of the
	 Interior to provide technical assistance under paragraph (1) shall be covered by the Secretary of Defense.
		        (3) REPORT AND OTHER ASSISTANCE.—Not later than one year after date of the enactment
	 of this Act, the Secretary of the Interior and the Secretary of Defense shall submit to the congressional
	 defense committees, the Committee on Natural Resources of the House of Representatives, and the
	 Committee on Energy and Natural Resources of the Senate a report detailing the following:
			               (A) Any technical assistance provided under paragraph (1) and information pertaining




                                                                                                                       	APPENDICES AND ENDNOTES
		        to any memoranda of understanding, cooperative agreements, and other agreements entered into
		        pursuant to paragraph (2).
			               (B) An assessment of water and wastewater systems on Guam, including cost estimates
		        and budget authority, including authorities available under the Acts of June 17, 1902, and
		        June 12, 1906 (popularly known as the Reclamation Act; 43 U.S. Code 391) and other authority
		        available to the Secretary of the Interior, for financing the design, construction, operation, and
		        maintenance of such systems.
			               (C) The needs related to water and wastewater infrastructure on Guam and the protection
		        of water resources on Guam identified by the Authority.

SEC. 2823. REPORT ON TYPES OF FACILITIES REQUIRED TO SUPPORT
		          GUAM REALIGNMENT.
	        (a) REPORT REQUIRED.—Not later than 180 days after the date of the enactment of the Act, the
Secretary of Defense shall submit to the congressional defense committees a report on the structural integrity of
facilities required to support the realignment of military installations and the relocation of military personnel on
Guam.


                                                                                         Guam Realignment Report
                                                         77
                                                                                                 February 1, 2011
                            Appendix B. Legislative Mandates for Guam Realignment in
                            the National Defense Authorization Act for FY 2011

                            	     (b) CONTENTS OF REPORT.—The report required by subsection (a) shall contain the following
                            elements:
                            		            (1) A threat assessment to the realigned forces, including natural and manmade threats.
                            		            (2) An evaluation of the types of facilities and the enhanced structural requirements required to
                            	     deter the threat assessment specified in paragraph (1).
                            		            (3) An assessment of the costs associated with the enhanced structural requirements specified in
                            	     paragraph (2).

                            SEC. 2824. REPORT ON CIVILIAN INFRASTRUCTURE NEEDS FOR GUAM.
                            	 (a) REPORT REQUIRED.—The Secretary of the Interior shall prepare a report—
                            		        (1) detailing the civilian infrastructure improvements needed on Guam to directly and indirectly
                            	 support and sustain the realignment of military installations and the relocation of military personnel on
                            	 Guam; and
                            		        (2) identifying, to the maximum extent practical, the potential funding sources for such
                            	 improvements from other Federal departments and agencies and from existing authorities and funds
                            	 within the Department of Defense.

                            	       (b) CONSULTATION.—The Secretary of the Interior shall prepare the report required by subsection
                            (a) in consultation with the Secretary of Defense, the Government of Guam, and the Interagency Group on the
                            Insular Areas established by Executive Order No. 13537.

                            	        (c) SUBMISSION.—The Secretary of the Interior shall submit the report required by subsection
                            (a) to the congressional defense committees and the Committee on Natural Resources of the House of
                            Representatives, and the Committee on Energy and Natural Resources of the Senate not later than 180 days
                            after the date of the enactment of this Act.
	APPENDICES AND ENDNOTES




                           Guam Realignment Report
                                                                                  78
                           February 1, 2011
                                                          Appendix C. Preferred Alternatives Selected from the
                                                                       Final Environmental Impact Statement


     Appendix C. Preferred Alternatives
     Selected from the Final Environmental
     Impact Statement
In the Final EIS, “Guam and CNMI Military Relocation: Relocating Marines from Okinawa, Visiting Aircraft
Carrier Berthing, and Army Air and Missile Defense Task Force,” July 2010, the DON identified preferred
alternatives for each major project component. In the ROD, the DON decided to select most of the preferred
alternatives. Below is a summary of the preferred alternatives for each of the major project components.

                                  Marine Corps Guam (Alternative 2)
•	   Use of the NCTS and South Finegayan with acquisition of the former Federal Aviation
     Administration parcel.
                                  Marine Corps Tinian (Alternative 1)
•	   Development of four live-fire training ranges within the leaseback area, three oriented north and
     the Platoon Battle Course oriented northeast.
                                Aircraft Carrier Berthing (Alternative 1)
•	   Construction of a deep-draft wharf at Polaris Point.
                    U.S. Army Air and Missile Defense Task Force (Alternative 1)
•	   Administration, Headquarters, unaccompanied housing, and maintenance would be located at
     NCTS Finegayan with the USMC.
•	   Family housing would be located at South Finegayan.
•	   Munitions storage in three non-contiguous areas near the Habitat Management Unit.
•	   Two weapons emplacement sites at the northern tip of AAFB Northwest Field; one site south of
     Northwest Field.
•	   Restricted airspace over the coastal area of Guam.
                                          Power (Alternative 1)




                                                                                                                 	APPENDICES AND ENDNOTES
•	   Recondition up to five existing Guam Power Authority permitted facilities to provide peaking
     power/reserve capacity.
•	   Upgrade appropriate transmission and distribution systems to support increased loads.
                                      Potable Water (Alternative 1)
•	   Provide additional water capacity of 11.3 million gallons per day, which is anticipated to be met
     by 22 new wells at AAFB, interconnection with GWA water system, rehabilitation of existing
     wells, and distribution upgrades.
                                       Wastewater (Alternative 1a)
•	   Combine upgrade to the existing primary treatment and expansion to secondary treatment at
     Northern District Wastewater Treatment Plant. In addition, improve the Northern and Central
     wastewater collection systems and the Hagatna Wastewater Treatment Plant to achieve
     secondary treatment standards.
                                       Solid Waste (Alternative 1)
•	   Continue utilizing the Navy sanitary landfill at Apra Harbor until the new Layon Landfill is opened.
•	   Continue to use the Navy sanitary landfill for waste streams not accepted by the Layon Landfill.

                                                                                    Guam Realignment Report
                                                     79
                                                                                            February 1, 2011
                            Appendix D. Implemented Mitigation Measures from
                            the Record of Decision


                                 Appendix D. Implemented Mitigation
                                 Measures from the Record of Decision
                            The ROD contained two lists of mitigation measures. Mitigation measures are additional, project specific
                            measures proposed as a result of the Final EIS for the military relocation that are designed to avoid, minimize,
                            rectify, reduce, or compensate for environmental impacts. Table 1 lists the mitigation measures that will be
                            implemented and funded by DoD. The list of mitigation measures is sorted by resource areas and corresponds
                            with resource impacts as discussed in the Final EIS and ROD. Table 2 lists the mitigation measures that could
                            be implemented by non-DoD agencies. Some direct, indirect, and induced civilian population growth effects
                            associated with the military relocation will impart significant impacts upon Guam’s infrastructure and
                            social/public services. Non-DoD mitigation measures are either outside the statutory and fiscal authority of
                            DoD or involve mitigation measures for off-base roadway projects that will be implemented by the FHWA
                            through the DoD-funded Defense Access Roads (DAR) program.

                                                                  Table 1. DoD Mitigation Measures
                                                                Geological and Soil Resources
                             •   Avoid known sinkholes and place a buffer zone of vegetation around them to prevent further
                                 erosion or expansion. Erect educational signs and/or fencing where appropriate. Any sinkholes
                                 discovered will be evaluated to determine significant impacts and projects will be designed in
                                 consideration of these sinkholes as appropriate.
                                                                              Air Quality
                             •   Install temporary air quality monitoring station for sulfur dioxide and particulate matter near
                                 Northern Guam construction site.
                                                             Noise – Based on Human Receptors
                             •   Operations (Firing Ranges): Install noise barriers where feasible and practicable.
                             •   During construction, install noise barriers where feasible and practicable such as constructing
                                 concrete block walls as sound barriers to reduce noise levels.
                             •   Maintaining the current dense foliage and constructing berms to contain the sound from training
	APPENDICES AND ENDNOTES




                                 range operations, when practicable.
                                                                Land and Submerged Land Use
                             •   Provide access to land and submerged land to extent practicable for cultural stewardship and
                                 access that balance operational needs, public safety concerns, and the continuing public use
                                 and enjoyment of these sites.
                             •   In the event a non-federally controlled property is acquired under the proposed action, DoD will
                                 assist the landowner in obtaining a new legal access.
                                                                     Recreational Resources
                             •   DoD will offer resources consistent with DoD policy in the form of time and donation or use of
                                 equipment to assist the volunteer conservation officer at AAFB (an existing program).
                             •   Collaborate with the Guam Division of Aquatic and Wildlife Resources to establish outreach
                                 programs and docent (person who leads guided tours) programs for the five marine preserves
                                 and other environmentally sensitive areas on Guam.



                           Guam Realignment Report
                                                                                  80
                           February 1, 2011
                                                        Appendix D. Implemented Mitigation Measures from
                                                                                   the Record of Decision


                              Recreational Resources (continued)
•	 As practicable, provide for improvements and maintenance of federally owned portions of
   Tanguisson Beach, along with the management of the coastline to the north of Hilaan that
   contains significant natural, cultural, scenic, and recreational resources.
•	 If DoD selects the Final EIS preferred alternative for the transient nuclear aircraft carrier berth,
   to alleviate impacts to the limited recreational resources at Polaris Point during construction
   and carrier visits, additional on-base shuttle bus services to Dadi Beach, Gabgab Beach, and
   other DoD recreational facilities would be provided to ensure sailors and airmen have the
   ability to access comparable and/or alternate recreational resources. For off-base recreational
   resources, sailors and airmen would be able to take commercial shuttles and taxis.
•	 As practicable, to compensate for potentially significant impacts to beach and ocean recreational
   resources from the proposed actions on Guam, DoD will improve the Seaman Service Club
   Beach in Piti. The existing beach pilings, shelter, and bathroom will be improved. Available
   recreational activities include: kayaking, snorkeling, and beach combing.
                                Terrestrial Biological Resources
•	 Approximately one week prior to clearing vegetation a qualified biologist will survey the project
   site for the occurrence of Endangered Species Act-listed species (e.g. Mariana fruit bats,
   Mariana crows, and Mariana moorhens), and if present, the work will be postponed.
•	 Ensure periodic updates of the Joint Region Marianas Training Handbook with procedures to
   protect special-status species during project-specific training.
•	 Appropriate native and non-invasive species will be planted in all new landscapes upon
   completion of proposed construction activities. Plants to be used will be selected from a list of
   recommended plants identified in the consolidated landscape plan. Construction specifications
   will address salvaging valuable tree species from areas to be cleared during construction.
•	 Lighting will be designed to meet minimum safety, anti-terrorism, and force protection
   requirements. To the maximum extent practicable, hooded lights will be used at all new roads
   and facilities proposed for construction and use near sea turtle land based habitat and within
   Mariana fruit bat habitat.




                                                                                                            	APPENDICES AND ENDNOTES
•	 To prevent disturbance of sensitive species in recreational areas, restrictions on the use of
   Haputo Beach and Ecological Reserve Area (ERA) will be included within the Joint Region
   Integrated Natural Resources Management Plan.
•	 Pyrotechnics will only be used during low-fire risk conditions in accordance with Range Training
   Area Management Plan Standard Operating Procedures.
•	 DoD will fund research on the Mariana fruit bat. The long-term goal is to develop guidelines to be
   used in recovery and sustainable management of fruit bats on different islands.
•	 An ungulate management plan will be finalized by the DoD for DoD lands on Guam to include
   specific management and control of ungulates.
•	 The U.S. Forest Service has developed a fire management plan that DoD will use to develop
   instruction to implement fire management actions for DoD (U.S. Forest Service 2008). The
   instruction will also include best management practices such as for cleaning gear and equipment
   to prevent the spread of non-native invasive species resulting from wildfire suppression.



                                                                                Guam Realignment Report
                                                   81
                                                                                        February 1, 2011
                            Appendix D. Implemented Mitigation Measures from
                            the Record of Decision


                                                     Terrestrial Biological Resources (continued)
                             •	 To compensate for the removal of a portion of the existing Federal Aviation Administration
                                Mitigation Area on Tinian, the replacement area, which will be expanded and reconfigured, will
                                be at a minimum 2:1 ratio.
                             •	 The 5-Step Hazard Analysis Critical Control Points planning method for reducing or eliminating
                                the spread of unwanted species will be used for high-risk activities. Hazard Analysis Critical
                                Control Points methodology will be incorporated into contracting documents associated with
                                high-risk projects.
                             •	 DoD will develop a biosecurity program to be employed throughout the construction phase of the
                                military build-up. The program will have terrestrial and aquatic resource response capabilities.
                                DoD’s biosecurity program will address non-native, invasive species issues on DoD property
                                within Guam and the CNMI.
                             •	 To prevent the spread of coconut rhinoceros beetle, DoD will include specifications in contracts
                                for inspections, proper re-use or disposal of vegetation within coconut rhinoceros beetle
                                quarantine area. Biosecurity measures will ensure that yard waste and vegetation debris is
                                not harboring coconut rhinoceros beetle or the waste is treated prior to re-use or movement off
                                construction site.
                             •	 DoD will provide funding during the construction phase of the Proposed Action to develop
                                methods to eradicate or significantly suppress brown tree snakes on DoD lands.
                             •	 DoD will expand the existing environmental education program for new personnel arrivals
                                (personnel undergoing Permanent Change of Station).
                             •	 DoD will submit proposals:
                                  a) Orote ERA – Expand the existing Orote ERA to include Orote Island (seabird nesting
                                     habitat), Adotgan Point, and the Spanish Steps area that supports sea turtle nesting. The
                                     expansion will add approximately 32 acres (13 hectare) of terrestrial habitat to the Orote
                                     ERA.
                                  b) For a Naval Munitions Site ERA. The proposed ERA will encompass approximately 553
                                     acres (234 hectare) of habitat for listed species.
	APPENDICES AND ENDNOTES




                                  c) For a Ritidian Point ERA. The entire proposed Ritidian Point ERA will be approximately
                                     781 acres (316 hectare) of habitat for listed species.
                                  d) For a Pati Point ERA. The proposed ERA will include approximately 713 acres (289
                                     hectare) of habitat for listed species. DoD will coordinate with GovGuam.
                                  e) To develop a continuous band of protected area from AAFB at the proposed Pati Point
                                     ERA through GovGuam’s Anao Conservation Area south to the proposed Route 15
                                     Range Complex.
                             •	 DoD will develop a restoration plan for the Camp Covington wetlands in an effort to increase
                                suitable habitat for the Mariana common moorhen. If Camp Covington is deemed unsuitable
                                for wetland enhancement or restoration, the Atantano wetlands will be evaluated for restoration
                                potential.




                           Guam Realignment Report
                                                                               82
                           February 1, 2011
                                                      Appendix D. Implemented Mitigation Measures from
                                                                                 the Record of Decision


                          Terrestrial Biological Resources (continued)
•	 DoD will enter into a Memorandum of Understanding with U.S. Fish and Wildlife Service and
   National Marine Fisheries Service (NMFS) outlining the details of a joint investigation on sea
   turtle population abundance estimates, demographic information, near shore habitat use,
   baseline populations, and long-term population parameters. This will be a 3 to 5 year joint
   DoD-U.S. Fish and Wildlife Service-NMFS capture-mark-recapture laparoscopy program for
   green sea turtles occurring in near shore waters surrounding Guam, Saipan, Tinian, and Rota.
•	 Additional surveys for the moth skink and Pacific slender-toed gecko on DoD lands will be
   addressed in the Joint Region Integrated Natural Resources Management Plan.
•	 DoD will establish an outdoor recreation area at the proposed Main Cantonment area at NCTS
   Finegayan to help direct recreation away from sensitive habitats near and within the Haputo ERA
   (beaches, cliff line forests).
•	 Develop and implement a Guam and Tinian Native Forest Enhancement Plan to improve and
   restore the ecosystem and control erosion.
•	 Upon termination of any agricultural leases in the leaseback area on Tinian, DoD will work with
   CNMI land use and natural resource officials to ensure that native forest habitat concerns for
   Endangered Species Act-listed species are taken into account.
•	 If nesting Mariana common moorhens are present within the limits of construction, clearing and
   construction will be postponed until the chicks have fledged. If work stops for more than 1 week,
   pre-construction surveys will be repeated to ensure that no moorhens have begun to nest. (Only
   on Tinian for USMC).
•	 On Tinian, if Micronesian megapodes are present within 492 ft (150 m) of the project site, the
   work will be postponed until the megapode has left the area. If megapodes are nesting within
   984 ft (300 m) of the project site, the work will be postponed and the U.S. Fish and Wildlife
   Service contacted immediately as no nesting is known to occur there.
•	 Construction personnel will receive natural resource awareness briefings which address
   special-status species, avoidance measures and reporting requirements.




                                                                                                          	APPENDICES AND ENDNOTES
•	 DoD will hire two full-time Biological Monitors during the construction phase on Guam and
   Tinian. The Biological Monitors will be responsible for oversight of avoidance, minimization,
   mitigation measures, and conservation measure implementation by the construction contractors
   for projects associated with the proposed action.
•	 DoD will re-evaluate and re-structure the current vegetation monitoring and anchor points that
   have been established on Guam and Tinian to provide information necessary for long-term
   habitat monitoring associated with DoD natural resources management efforts.
•	 The Micronesia Biosecurity Plan is being developed to address potential invasive species
   impacts associated with the actions proposed in this EIS as well as to provide a plan for
   a comprehensive regional approach. The Micronesia Biosecurity Plan will include risk
   assessments for invasive species throughout Micronesia and procedures to avoid, minimize,
   and mitigate these risks. The Micronesia Biosecurity Plan is intended to be a comprehensive
   evaluation of risks in the region, including all Marine Corps and Navy actions on Guam and
   Tinian. For actions selected in the ROD, specific biosecurity measures will be implemented to
   supplement existing practices to address invasive species.


                                                                              Guam Realignment Report
                                                 83
                                                                                      February 1, 2011
                            Appendix D. Implemented Mitigation Measures from
                            the Record of Decision


                                                                 Marine Biological Resources
                             •	 No in-water blasting will be allowed.
                             •	 Water quality will be monitored for in-water construction projects during the construction phase.
                             •	 Preliminary shutdown safety zones corresponding to where sea turtles could be injured or
                                harassed will be established based upon empirical field measurements of pile driving sound
                                levels at the construction site. The sound pressure levels will be monitored on the first day
                                of pile driving to ensure accuracy of contours. Until validation of the harm threshold, no pile
                                driving may occur within 50 meters of sea turtles and no dredging operations shall occur
                                within 50 meters of sea turtles. Safety zones will be re-established to accommodate validated
                                harm threshold and reported to NMFS with acoustic monitoring data. Monitoring of sea turtle
                                harassment safety zones will be conducted by qualified observers, including two observers
                                for safety zones around each pile driving and dredging site. Monitoring shall commence 60
                                minutes prior to the start of pile driving. If a sea turtle is found within the safety zone, pile driving
                                or dredging of the segment shall be postponed or halted until the animal(s) has been visually
                                observed beyond the impact zone or 30 minutes have passed without re-detection. Pile driving
                                or dredging may continue into the night, but where there has been an interruption of the activity,
                                it will not be initiated or re-initiated during nighttime hours when visual clearance cannot be
                                conducted.
                             •	 Pile driving and dredging would commence using soft-start or ramp-up techniques, at the start
                                of each work day or following a break of more than 30 minutes. Pile driving would employ a
                                slow increase in hammering, whereas dredging would commence with slow and deliberate
                                deployment of the bucket or chisel to the bottom for the first several cycles to alert protected
                                species and allow them an opportunity to vacate the area prior to full-intensity operations.
                             •	 No pile driving or dredging will be conducted after dark unless that work has proceeded
                                uninterrupted since at least one hour prior to sunset, and no protected species have been
                                observed near the respective safety range for that work.
                             •	 If a sea turtle or other listed species is found injured within the vicinity of the action area, all
                                in-water pile driving or dredging activities shall cease immediately, regardless of their effect on
                                the noted turtle and the Navy will contact the regional NMFS stranding coordinator.
	APPENDICES AND ENDNOTES




                             •	 Construction related vessels within Apra Harbor shall remain at least 50 yards from sea turtles,
                                reduce speed to 10 knots or less in the proximity of sea turtles (if practicable, 5 knots or less
                                in areas of suspected turtle activity), and, when consistent with safety practices, put engine in
                                neutral and allow the turtle to pass if approached by a turtle. Additionally, sea turtles shall not be
                                encircled or trapped between multiple construction-related vessels or between
                                construction-related vessels and the shore.
                             •	 All construction-related equipment will be operated and anchored to avoid contacting coral
                                reef resources during construction activities or extreme weather conditions. Anchor lines from
                                construction vessels will be deployed with appropriate tension to avoid entanglement with sea
                                turtles. Construction-related materials that may pose an entanglement hazard will be removed
                                from the project site if not actively being used.
                             •	 Anchors, anchor chain, wire rope and associated anchor rigging from construction related
                                vessels will be restricted to designated anchoring areas within the construction footprint (i.e., soft
                                bottom) or within the area that will be permanently impacted.


                           Guam Realignment Report
                                                                                 84
                           February 1, 2011
                                                         Appendix D. Implemented Mitigation Measures from
                                                                                    the Record of Decision


                             Marine Biological Resources (continued)
•	 During pile driving or dredging activities, if a visible plume is observed outside the silt curtains,
   the construction activity will be suspended, evaluated, and corrective measures taken.
•	 Incorporate seasonal dredging prohibitions, which may include:
      • Cessation of dredging operations during the period of peak coral spawning (7-10 days after
        the full moon in July) in consultation with the University of Guam (UoG) Marine Lab.
      • Dredging or filling of tidal waters will not occur during hard coral spawning periods, usually
        around the full moons of June, July, and August.
•	 Construction related vessels will be restricted from Sasa Bay so as to reduce potential impacts
   to sea turtles and other protected marine and/or wildlife species.
•	 Provide marine biological resources education and training on Endangered Species Act, Marine
   Mammal Protection Act and Essential Fish Habitat to military personnel. This may include Base
   Orders, natural resource educational training (i.e., watching of short
   ERA/MPA video) and documentation (i.e., preparation of Military Environmental/Natural
   Resource Handbook, distribution of natural resource educational materials to dive boat
   operators), or a combination of all.
•	 Aboard dredge-related tug, barge or scow vessels at sea, use the minimum lighting necessary
   to comply with navigation rules and best safety practices to help reduce potential impacts on
   protected species such as sea turtles.
•	 No barge overflow during dredging operations.
•	 Where practicable, installation of silt curtains during channel and/or harbor dredging operations
   to maintain water quality and provide coral protection.
•	 The following are being considered as potential coral mitigation measures in the development of
   the compensatory mitigation plan:
      a) Coral reef restoration via water quality improvements through watershed restoration;
      b) Coral reef restoration via water quality improvements through Wastewater Treatment
          Plant upgrades/improvements;
      c) Coral reef restoration via site-specific water quality improvements through retrofitting road




                                                                                                             	APPENDICES AND ENDNOTES
          stormwater controls at a range of sites on Guam;
      d) Coral reef restoration within non-DoD federal property;
      e) Aquaculture of native herbivorous fish;
       f) Coral transplantation;
      g) Establishment of marine protected area(s);
      h) Artificial reefs;
       i) Support for enhanced enforcement of fishing and recreational diving regulations;
       j) Marine debris removal;
      k) Remove nuisance algae;
       l) Installation of recreational mooring buoys; and/or
      m) Coral reef restoration inside Apra Harbor through water quality and habitat improvements.




                                                                                  Guam Realignment Report
                                                    85
                                                                                          February 1, 2011
                            Appendix D. Implemented Mitigation Measures from
                            the Record of Decision


                                                                     Cultural Resources
                             •	 Data recovery of historic properties will be conducted and the data recovered from such
                                excavations will be used to develop an information package for use on the Internet that includes
                                photos, a summary of the excavations, materials recovered, and significance of the site to the
                                regional culture.
                             •	 CNMI Curation Assessment. Artifacts from non-DoD properties will follow local regulations
                                regarding the handling and repatriation of cultural materials or human remains.
                             •	 Historic property awareness training of DoD employees to promote protection of sensitive sites.
                             •	 Guam Curation Assessment. Curation of cultural materials and/or artifacts from DoD properties
                                will be in a facility that meets 36 Code of Federal Regulations 79. Curation Assessment will
                                help in making determination of where DoD collections are curated. Artifacts from non-DoD
                                properties follow local regulations regarding the handling and repatriation of cultural materials or
                                human remains.
                             •	 Incorporate recommendations of Cultural Landscape Report for Tinian National Historic
                                Landmark in the next version of the Cultural Resource Management Plan when not in conflict
                                with natural resources.
                             •	 Thematic Synthesis Publications for the areas affected by the ranges on Tinian. Themes include:
                                   •	 Camp Churo “Old Village”
                                   •	 Japanese Farmsteads on Tinian
                                   •	 West Field
                                This mitigation measure will be implemented unless a future agreement with the CNMI State
                                Historic Preservation Office on a similar measure supersedes this one.
                             •	 Update North Tinian Historic Properties Driving Tour Pamphlet.
                             •	 In recognition of culturally important natural resources, highly forested areas were avoided
                                during the early planning process for the preferred alternatives. However, in places where
                                impacts could not be avoided to such resources, DoD will coordinate with traditional artisans and
                                provide the artisans an opportunity to safely collect these resources consistent with current DoD
	APPENDICES AND ENDNOTES




                                and installation security instructions and other safety related guidelines.
                             •	 Allow suruhanus access for medicinal plant collection on DoD properties if the plants collected
                                are not threatened or endangered species and where security requirements are not prohibitive.
                             •	 Avoidance of Latte Stone Park (Site 08-0141 - South Finegayan). Interpretive signage to be
                                corrected and upgraded.
                             •	 Access to Mt. Jumullong Manglo will be maintained through existing trail.
                             •	 Eighth Avenue will remain open and drivable to allow access to the Tinian National Historic
                                Landmark.
                             •	 All surveys, testing, and planning relating to archaeological resources in the form of objects,
                                sites, structures, and districts will be carried out by, or under the oversight or supervision of, a
                                person or persons meeting the professional qualification for Archaeologist found in “The SOI’s
                                Historic Preservation Professional Qualification Standards” (SOI Qualification Standards),
                                62 Federal Register 33712.


                           Guam Realignment Report
                                                                                86
                           February 1, 2011
                                                         Appendix D. Implemented Mitigation Measures from
                                                                                    the Record of Decision


                                   Cultural Resources (continued)
•	 All historic property surveys and eligibility determinations for architectural resources in the form
   of historic buildings, structures, sites, objects, and districts will be carried out by, or under the
   oversight or supervision of, a person or persons meeting the professional qualifications for
   Architectural Historian under Standard a or b found in SOI Qualification Standards, or Historical
   Architect under Standard a or b found in SOI Qualification Standards, 62 Federal Register
   33719, or 62 Federal Register 33713-4.
                                        Visual Resources
•	 To maintain the existing visual appearance, land clearing and grading should be minimized to
   the extent possible on lands proposed for range uses.
•	 Minimize impact by using native flora to create a natural-appearing “screen” around the cleared
   range areas, outside of the firebreaks/perimeter roads.
•	 Prepare Installation Appearance Plan and implement design guidelines for all buildings.
•	 Develop and implement a landscape plan focused on retention of mature specimen trees during
   construction (where possible) and the establishment of a full suite of vegetation representing
   Guam’s native flora.
•	 Create a buffer area and screen development on NCTS between the Haputo Point Overlook and
   adjacent proposed development.
•	 Provide an open railing to the extent possible to provide views from bridges out to the adjacent
   areas.
•	 Hide utility crossings on bridges and in between bridge girders or use other methods of
   screening utilities on bridges to improve views from a bridge and to enhance the structures
   integration into the overall landscape.
•	 Preserve existing trees or stands of vegetation by shifting the roadway alignment to the extent
   feasible where roadways are widened.
                                    Utilities and Infrastructure
•	 Arrange for DoD to transfer available water production capacity to GWA as needed to mitigate




                                                                                                             	APPENDICES AND ENDNOTES
   Guam potable water supply impacts (if GWA has a water shortage). Set up additional physical
   interconnections in the transmission systems.
•	 Carefully monitor the chloride concentrations in the Northern Guam Lens Aquifer sub-basins and
   adjust well pumping rates to reduce localized impacts to the Northern Guam Lens Aquifer
   sub-basin if high chloride concentrations are detected in individual wells.
•	 Set up a joint GWA, Guam EPA, Consolidated Commission on Utilities, and DoD Northern
   Guam Lens Aquifer advisory panel, with technical assistance from the UoG, Water Engineering
   Resource Institute, U.S. Geological Service, and others as appropriate.
•	 Seek GOJ financing for the repairs and upgrades to the Hagatna Wastewater Treatment Plan.
•	 Seek GOJ financing for the repairs and upgrades to the GWA northern and central wastewater
   collection systems.
•	 DoD, in coordination with GovGuam, will continue to explore the use of transfer stations.



                                                                                 Guam Realignment Report
                                                    87
                                                                                         February 1, 2011
                            Appendix D. Implemented Mitigation Measures from
                            the Record of Decision


                                                          Utilities and Infrastructure (continued)
                             •	 DoD, in coordination with GovGuam, will continue to explore the need for recycling centers.
                             •	 DoD will implement programs for reduction of disposal of construction and demolition debris,
                                such as reuse of concrete without lead-based paint, asphalt concrete, and scrap metal.
                                                         Socio-economics and General Services
                             •	 Implement a collaborative effort with construction worker contractors to implement an orientation
                                course on Guam local culture, language and history, designed in conjunction with the Guam
                                Department of Chamorro Affairs and Chamorro cultural specialists, to be attended by all arriving
                                H2B workers.
                             •	 Implement a mayoral outreach task force aimed at developing military-civilian relationships, to
                                minimize local community perceptions of separations of military and civilian communities. The
                                task force will work with each mayor and their staff to integrate military participation in existing
                                cultural or recreational community events, expand on existing military outreach activities, and
                                develop new military-civilian collaborative projects as determined by the task force and mayors.
                             •	 Implement an orientation course on Guam local culture, language and history, designed in
                                conjunction with the Guam Department of Chamorro Affairs and Chamorro cultural specialists,
                                to be attended by all arriving active-duty DoD personnel, their dependents, and military civilian
                                workers. This mitigation measure is also applicable to the cultural resources category.
                             •	 Expand sister village programs to promote military-civilian community interaction.
                             •	 Implement an orientation course on Guam local laws and culture, language and history,
                                designed in conjunction with GovGuam public safety agencies, the Guam Department of
                                Chamorro Affairs and Chamorro cultural specialists, to be attended by all arriving service
                                members prior to shore leave on the island of Guam.
                             •	 Increase collaborative programs with GovGuam public safety agencies to develop a
                                comprehensive and regular shore patrol system, and maintain a regular visible preventative
                                presence.
                             •	 Continue to participate in the Civilian Military Task Force to address community crime and social
	APPENDICES AND ENDNOTES




                                order concerns such as effective crime prevention strategies and information sharing.
                             •	 Continue cross-training exercises with the GovGuam safety agencies.
                             •	 Conduct new screenings on a periodic basis to identify additional excess DoD lands that could
                                be returned to GovGuam.
                             •	 Expedite the return of lands subject to the Guam Excess Lands Act to the extent possible.




                           Guam Realignment Report
                                                                               88
                           February 1, 2011
                                                        Appendix D. Implemented Mitigation Measures from
                                                                                   the Record of Decision


                        Socio-economics and General Services (continued)
•	 For the acquisition of property and the increase in DoD controlled lands on Guam, mitigation
   may include:
      a) Explore possible swap of DoD lands for land of similar value and similar cultural and
          recreational opportunities;
      b) During the land acquisition process conduct socio-economic surveys and census of
          affected landowners, users, and ancestral claimants, early in the land acquisition process,
          in order to identify potential socio-cultural impacts;
      c) In collaboration with community, GovGuam, UoG, and Guam Community College
          representatives, implement a system of protected garden areas on public lands for the
          growth and collection of native plants, including medicinal plants;
      d) Continue collaboration between DoD, GovGuam, the UoG, and cultural resource
          specialists to develop public education on the cultural and social value of land on Guam
          including cultural practices, such as the gathering of medicinal plants and the use of wood
          for carving, cultural tours, and place-based historical information; and/or
      e) Collaborate with community, GovGuam, UoG, and Guam Community College
          representatives to implement guided cultural and historical tours and hikes of relevant
          locations on acquired land, for visitors and the civilian and military population of Guam.
•	 Mitigation for the restriction and/or loss of access to recreational and cultural sites may include:
       a) Implementation of a public access plan covering access hours, improved access to sites,
          locations that can be made safe for entry and use, and maintenance efforts and regular
          condition assessments of the impact areas;
       b) Collaborate with GovGuam to improve recreational and cultural activities for the
          community on GovGuam lands; and/or
       c) Identification of potential locations for the relocation of the Guam International Raceway.
•	 Implement force flow and adaptive program management.
•	 Continue to support existing DoD programs that contribute and/or donate excess equipment to
   local agencies.
•	 Retain as many grazing/agricultural use permits as possible on Tinian to minimize or avoid this
   significant impact.




                                                                                                            	APPENDICES AND ENDNOTES
•	 Coordinate with the Governor’s Office of Community Affairs to facilitate volunteer opportunities at
   Guam public service agencies for military personnel and their dependents.
•	 Assist, as appropriate and practicable, with small business outreach and training on Tinian.
•	 Participate, as appropriate and practicable, in Military Integration Management Committee and
   Civilian Military Task Force for the purposes of addressing individuals that are displaced if leases
   on the Leaseback Area do require termination.
•	 As appropriate and practicable, collaborate with CNMI officials to ensure that access to tourism,
   cultural and economic activities, be clearly communicated and made as easy as possible.




                                                                                Guam Realignment Report
                                                   89
                                                                                        February 1, 2011
                            Appendix D. Implemented Mitigation Measures from
                            the Record of Decision


                                                    Environmental Justice and Protection of Children
                             •	 If DoD selects to implement the Final EIS preferred alternative for the live fire training ranges on
                                Guam, implement applicable mitigation measures listed in the Land Acquisition category.
                             •	 Implement applicable mitigation measures listed in the Socio-economic category.
                             •	 Implement applicable mitigation measures listed in the Socio-economic category to reduce the
                                strain on Guam Department of Health and Social Services and Guam Department of Mental
                                Health and Substance Abuse health services for the poor and uninsured.
                                                                       Workforce Housing
                             •	 General Conditions: Workforce Housing and Logistics Evaluation Factor and Contract Provision.
                                During the acquisition process for construction projects, DoD will give preference to potential
                                contractor(s) (“Offerors”) who:
                                    a) Submit a comprehensive plan to address housing requirements;
                                    b) Explain methods to minimize impacts to local community;
                                    c) Provide maps and number of living quarters at each location;
                                    d) Provide discussion of how the housing facility meets GovGuam regulations/policies
                                        (including any necessary permits);
                                    e) Provide adequate housing to workers in accordance with 29 Code of Federal Regulations
                                        1910.142 (and other Federal and GovGuam statutes as applicable); and
                                     f) Obtain all permits, licenses, or other authority required by Federal and GovGuam statutes
                                        and regulations.
                             •	 Medical Care: Workforce Housing and Logistics Evaluation Factor and Contract Provision.
                                During acquisition process for construction projects, DoD will give preference to potential
                                contractor(s) (“Offerors”) who submit a comprehensive narrative plan to address medical
                                services requirements.
                             •	 Orientation Programs: Workforce Housing and Logistics Evaluation Factor and Contract
                                Provision. During acquisition process for construction projects, DoD will give preference to
                                potential contractor(s) (“Offerors”) who ensure personnel receive orientation training on safety,
                                security, anti-terrorism, cultural awareness, environmental protection, and invasive species.
                             •	 Lodging and Food: Workforce Housing and Logistics Evaluation Factor and Contract Provision.
	APPENDICES AND ENDNOTES




                                During acquisition process for construction projects, DoD will give preference to potential
                                contractor(s) (“Offerors”) who ensure they will comply with Guam lodging, food, and hygiene
                                regulations.
                             •	 Transportation: Workforce Housing and Logistics Evaluation Factor and Contract Provision.
                                During acquisition process for construction projects, DoD will give preference to potential
                                contractor(s) (“Offerors”) who submit a comprehensive plan to address transportation
                                requirements, including Guam regulations requiring employer provision of transportation to/from
                                the worksite.
                             •	 Water and Wastewater: Workforce Housing and Logistics Evaluation Factor and Contract
                                Provision. DoD will give preference to construction contract proposals that identify sufficient
                                available water allocation from GWA for workers for that specific construction contract.




                           Guam Realignment Report
                                                                               90
                           February 1, 2011
                                                       Appendix D. Implemented Mitigation Measures from
                                                                                  the Record of Decision


                                                 General
•	 Force flow reduction: Force flow is the rate at which the military population, including military
   personnel, their dependents, and civilian workers for the military, would arrive on Guam. Force
   flow would be managed to ensure that military populations would not be relocated to Guam
   until the requisite facilities were constructed. By managing force flow, DoD will reduce or avoid
   impacts associated with construction related peak population and overall population changes on
   Guam.
•	 Adaptive program management: Adaptive management is a management approach that
   involves monitoring outcomes of managed activities and improving the management of those
   activities based on the monitored results. The adaptive program management process would
   allow DoD to revise construction tempo and adjust sequencing of construction activities to
   directly influence workforce population levels and indirectly influence induced population growth
   before significant environmental impacts occurred or infrastructure capabilities were exceeded.




                                                                                                           	APPENDICES AND ENDNOTES




                                                                               Guam Realignment Report
                                                  91
                                                                                       February 1, 2011
                            Appendix D. Implemented Mitigation Measures from
                            the Record of Decision

                                                            Table 2. Non-DoD Mitigation Measures
                                           Water Resources (See also Marine Biological Resources category)
                             •	 Attempt to avoid impacts to wetlands; if avoidance is not possible then minimize potential
                                impacts. Section 404 of the Clean Water Act requires mitigation of unavoidable wetland
                                disturbances. Compensate by creating new wetlands or restoring, enhancing, or preserving
                                existing wetland areas to, at a minimum, replace the area. (FHWA – DAR Project)
                             •	 Channel widening, lining and/or re-contouring for off-base roadways. (FHWA – DAR Projects)
                             •	 Ensure adequate and appropriate pier placement and/or reconfiguration for bridge replacement.
                                (FHWA – DAR Projects)
                             •	 Relocate utility lines where utilities cause obstructions to stream flow. (FHWA – DAR Projects)
                             •	 Debris removal, incorporation of debris noses upstream of piers and wingwalls. (FHWA – DAR
                                Projects)
                             •	 Aquatic habitat enhancements at Camp Covington or other identified areas to mitigate for
                                bridge and culvert replacements in accordance with Section 404 of Clean Water Act permitting
                                requirements. (FHWA – DAR Projects)
                                                                              Noise
                             •	 Installation of sound walls were determined to be feasible (based on engineering considerations)
                                and reasonable in accordance with Guam’s Traffic Noise Abatement Policy following
                                identification of noise receptors within project corridors and preparation of noise studies. (FHWA
                                – DAR Projects)
                                                                Land and Submerged Land Use
                             •	 GovGuam could revise community land use plans to address proposed DoD land uses.
                                                                    Recreational Resources
                             •	 GovGuam could update Guam Comprehensive Outdoor Recreation Plan that addresses
                                recreational user use, demand, preference, conflicts, and conditions.
                                                               Terrestrial Biological Resources
                             •	 Approximately one week prior to clearing vegetation a qualified biologist will survey the project
                                site for the occurrence of Endangered Species Act-listed species (e.g., Mariana fruit bats,
	APPENDICES AND ENDNOTES




                                Mariana crows, and Mariana moorhens), and if present, the work will be postponed. Additionally,
                                conduct biological surveys for Mariana common moorhens prior to initiating pavement
                                strengthening or bridge replacement adjacent to wetlands. (FHWA – DAR Projects)
                             •	 If nesting Mariana common moorhens are present within the limits of construction, clearing
                                and construction will be postponed until the chicks have fledged. If work stops for more than 1
                                week, pre-construction surveys will be repeated to ensure that no moorhens have begun to nest.
                                (FHWA – DAR Projects)
                                                                    Transportations – Road
                             •	 Coordinate with the Guam State Historic Preservation Office to determine if Agana Bridge #1
                                may be eligible for inclusion in National Register of Historic Places. FHWA is working with State
                                Historic Preservation Office to determine appropriate considerations for the replacement bridge.




                           Guam Realignment Report
                                                                               92
                           February 1, 2011
                                                         Appendix D. Implemented Mitigation Measures from
                                                                                    the Record of Decision


                                  Transportations - Road (continued)
•	 Coordinate with utility improvements. Planning and continued coordination with utility providers
   during the preliminary engineering and final design and the construction stages of roadway
   projects will be necessary to minimize or eliminate interruption in utility service to customers.
   The Joint Region Marianas will coordinate with the affected service provider in each instance to
   ensure that work is conducted in accordance with the appropriate requirements and criteria. In
   addition, coordination efforts will lay out utility reroutes, identify potential conflicts, ensure that
   construction of the proposed project minimizes disruption to utility operations, and formulate
   strategies for overcoming problems that may arise. If interruptions of utility service are required,
   they will be restricted in duration and geographic extent. Careful scheduling of these disruptions
   and advance notification to occupants of the adjacent properties that will be affected by
   temporary service interruptions will help to avoid any critical service periods. Where feasible,
   utility relocations will be undertaken in advance of roadway construction activities.
•	 For the roadways, intersections and bridges identified under the Off-Base Roadways Preferred
   Alternative 2 that are not DAR-certified or determined to be DAR-eligible, work cooperatively
   with FHWA and Guam Department of Public Works to refine traffic models, determine DAR
   eligibility of remaining projects, and explore alternate funding options for projects not funded
   through DAR. Pursue implementation of remaining non-DAR funded off-base road projects.
•	 For off-base roadways: DoD will support FHWA in creating a detailed Traffic Management Plan
   which will identify and provide alternate traffic detour routes (where practicable), construction
   materials hauling routes, bus stops, transit routes and operation hours, pedestrian routes, and
   residential and commercial access routes to be used during the construction period. Specific
   aspects of the Plan could include:
       •	 Encourage travel demand management.
       •	 Encourage transportation demand measures to reduce single-occupant vehicle use.
       •	 Encourage staggered work hours, flextime, telecommuting, and compressed work weeks.
       •	 Encourage corporate shuttles for local circulation.
       •	 Encourage better delivery systems for purchases.
       •	 Promote trip reduction planning.
       •	 Traffic management will follow the Manual on Uniform Traffic Control Devices, as deemed




                                                                                                             	APPENDICES AND ENDNOTES
          necessary and applicable. The Manual on Uniform Traffic Control Devices provides
          examples on dealing with traffic through many different types of roadway construction
          activities.
       •	 Whenever possible, phase construction to allow two lanes of traffic to remain open.
       •	 If two lanes of traffic are not permissible, traffic would be reduced to one lane.
       •	 Should it be required for all lanes of traffic to be closed, a detour route would be clearly
          signed.
       •	 Appropriate measures would be taken to maintain access to businesses.
       •	 Should construction require a business access to be closed, the business owner would
          be given reasonable notice of the construction activities and the estimated duration of
          closure.
       •	 Pedestrian routes would remain open and clear of any debris.
       •	 Should a pedestrian route be closed, a detour route would be clearly signed and
          maintained throughout construction to ensure pedestrian safety.




                                                                                  Guam Realignment Report
                                                    93
                                                                                          February 1, 2011
                            Appendix D. Implemented Mitigation Measures from
                            the Record of Decision


                                                              Transportations - Road (continued)
                                   •	 All emergency services would be given sufficient notice of construction activities and
                                       relative detour routes as to not affect their response times.
                                   •	 GovGuam Department of Public Works would develop a public outreach program about
                                       the project construction schedule, relocation plans and assistance programs, traffic-
                                       impacted areas and the Traffic Management Plan.
                                                                  Utilities and Infrastructure
                             •	 GWA could implement improvements to reduce water losses associated with unaccounted for
                                water (i.e., leakage or theft). GWA current unaccounted for water reduction plan is 20%.
                             •	 GovGuam could implement control measures such as accepting private consortiums
                                infrastructure development, moratoriums, and measures through building permit approvals or
                                other mechanisms to steer new development to areas with adequate water.
                             •	 Through the workforce housing permit approval process, GovGuam could charge development
                                impact fees that would go toward financing improvements to GWA water system.
                             •	 If the GWA cannot meet the projected increase in demand resulting from induced civilian growth,
                                GovGuam could implement measures to control the rate of induced growth through the building
                                permit process and/or by restricting the number of water and sewer connection requests that are
                                approved.
                             •	 GWA could accelerate development of new GWA supply wells and treatment and distribution
                                systems.
                             •	 GWA could assess system development charges to contractors to generate funding for system
                                upgrades to help meet anticipated demands.
                             •	 GovGuam could incentivize water conservation on Guam.
                             •	 GovGuam could provide sewer services to current users of septic tanks and leach fields to
                                protect the quality of water in the Northern Guam Lens Aquifer.
                             •	 DoD is leading the Economic Adjustment Committee (EAC), a Federal inter-agency effort to
                                identify other federal programs and funding sources for GovGuam addressing the following:
	APPENDICES AND ENDNOTES




                                   a) Reduce water losses associated with unaccounted for water (i.e., leakage or theft).
                                        GWA current unaccounted for water reduction plan is 20%;
                                   b) Development of new GWA supply wells and treatment and distribution systems;
                                   c) Incentives for water conservation; and/or
                                   d) Providing sewer services to eliminate individual wastewater treatment systems.
                             •	 GWA could improve the southern wastewater treatment plants and the Hagatna wastewater
                                treatment plant and their associated collection systems or impose development moratoriums for
                                areas served by those plants until appropriate upgrades have been made. (This measure falls
                                within GovGuam authority to implement)




                           Guam Realignment Report
                                                                               94
                           February 1, 2011
                                                      Appendix D. Implemented Mitigation Measures from
                                                                                 the Record of Decision


                            Utilities and Infrastructure (continued)
•	 GovGuam could implement control measures such as accepting private consortiums
   infrastructure development, moratoriums, and measures through building permit approvals or
   other mechanisms to steer new development to areas with adequate wastewater service. This
   could reduce the demand at Northern District Wastewater Treatment Plant by 1.4 MGd (5.3 mld).
   This one mitigation measure would reduce the peak flow to the Northern District Wastewater
   Treatment Plant to 10.7 MGd (40.5 mld) at the peak year, within the design capacity of the
   Northern District Wastewater Treatment Plant.
•	 GWA could assess a system development charge to contractors and workforce housing
   developers that could be used to fund improvements to the wastewater systems.
•	 GovGuam could implement measures to control the rate of induced growth through the building
   permit process and/or by restricting the number of sewer connection requests that are approved.
•	 GovGuam could incentivize water conservation measures by offering rebates on upgrades to
   water saving devices in an effort to reduce wastewater flows. This is done periodically on the
   mainland. Upgrading current water devices to low-flow water saving models would reduce
   current demand.
•	 DoD is leading the EAC, a Federal inter-agency effort, to identify other federal programs and
   funding sources for GovGuam addressing the following:
      a) Providing municipal solid waste transfer stations;
      b) Constructing recycling center(s); and/or
      c) Constructing at least one materials resource recovery facility.
                             Socio-economics and General Services
•	 DoD is leading the EAC, a Federal inter-agency effort, to identify other federal programs and
   funding sources for GovGuam addressing the following:
      a) Supporting the development of Chamorro cultural sites and activities, such as a museum
         and/or cultural center, Chamorro language immersion school, adult Chamorro language
         education, and cultural performance and arts organizations;
      b) Job counseling assistance to be made available to low income families through the Guam
         DOL (with US funds), which would include training sessions on how to fill out job




                                                                                                          	APPENDICES AND ENDNOTES
         applications, identify skills, and prepare resumes for job opportunities;
      c) Before and/or after school programs for children on Guam including formal and informal
         education, while allowing their parent(s) the time to get a job; and/or
      d) Transportation to job sites made available for those without the means to travel to work.
•	 DoD is leading the EAC, a Federal inter-agency effort, to identify other federal programs and
   funding sources for collaborative efforts to enhance cultural awareness.




                                                                              Guam Realignment Report
                                                 95
                                                                                      February 1, 2011
                            Appendix D. Implemented Mitigation Measures from
                            the Record of Decision


                                                     Socio-economics and General Services (continued)
                             •	 DoD is leading the EAC, a Federal inter-agency effort, to identify other federal programs and
                                funding sources for GovGuam:
                                   a) Obtaining additional support for the UoG Tropical Agricultural Department, and other
                                      educational and community agricultural programs in the study of traditional plants,
                                      including medicinal plant use, and to develop native plant and seedling nurseries
                                      accessible to the public for study and use;
                                   b) Obtaining additional support for educational and community programs focused on
                                      traditional fishing and shellfishing, and related activities;
                                   c) Improving recreational and cultural activities for the community on GovGuam lands;
                                   d) Funding of conservation efforts on Guam; and/or
                                   e) Special projects to improve local agricultural production.
                             •	 DoD is leading the EAC, a Federal inter-agency effort, to identify other federal programs and
                                funding sources for GovGuam to address the following:
                                    a) Assistance for opening public garden spaces on GovGuam land;
                                    b) Assistance for Chamorro Land Trust Commission (CLTC) to develop a land use plan,
                                        written fees collection policies and procedures for commercial licenses;
                                    c) Assistance for Guam Ancestral Lands Commission to establish rules and regulations for
                                        Land Bank properties, written fees collection system and policies and rules and
                                        regulations for issuing licenses;
                                    d) Support for the Guam Ancestral Lands Commission agricultural program to address the
                                        issues identified in the Chamorro Land Trust Commission Multi-Agency Compliance and
                                        Needs Assessment Team First Inspection Report (July – September 2009);
                                    e) Support for CLTC to provide water lines, roads, sewer lines, power, and land
                                        management building on CLTC land;
                                     f) Support for CLTC and Guam Ancestral Lands Commission in establishing property
                                        boundaries in the subdivisions where the agencies have active leases;
                                    g) Support and implementation of automation systems to manage CLTC and Guam
                                        Ancestral Lands Commission land inventories, finances, and other data;
                                    h) Provision of or funding for equipment, training and long-term support for agricultural
                                        activities, possibly in a cooperative framework;
	APPENDICES AND ENDNOTES




                                     i) Support for the UoG Tropical Agricultural Department, and other educational and
                                        community agricultural programs in the study of traditional plants, including medicinal
                                        plant use, and to develop native plant and seedling nurseries accessible to the public for
                                        study and use;
                                     j) Support for educational and community programs focused on traditional fishing and
                                        shellfishing, and related activities;
                                    k) Improvement of recreational and cultural activities for the community on GovGuam lands;
                                     l) Conservation efforts on Guam; and/or
                                   m) Special projects to improve local agricultural production.




                           Guam Realignment Report
                                                                               96
                           February 1, 2011
                                                       Appendix D. Implemented Mitigation Measures from
                                                                                  the Record of Decision


                           Socio-economics and General Services (continued)
•	 DoD is leading the EAC, a Federal inter-agency effort, to identify other federal programs and
   funding sources for GovGuam addressing the following:
       a) Enhancement of GovGuam Tax Revenue Collection efficacy. For example, improved
            revenue could be used to enhance recruitment and retention of GovGuam work force and
            contractual support;
       b) Examination of currently existing caps on benefits such as Medicaid and Medicare,
            and the non-provision of benefits such as Supplemental Security Income benefits, and the
            appropriateness of these caps and limits for Guam;
       c) Increase the number of Guam-based offices for the distribution of federal social service
            support, and to support the work of GovGuam public service agencies;
       d) Review and implementation of programs to assist GovGuam’s public agencies in adapting
            to peaks in service population growth;
       e) Provision of technical assistance for the development and implementation of a system of
            interpreters and translators available for the interpreting and translating needs of
            GovGuam public service agencies, to facilitate timely and appropriate provision of
            services for the English as a Second Language service population;
        f) Development of AmeriCorps, Teach for America, National Health Service Corps
            programs, and other similar programs on Guam;
       g) Improving the grant-writing capabilities within GovGuam agencies to improve possibilities
            of attracting federal support programs;
       h) Support for the recruitment of professionals during the construction phases of the
            proposed action for GovGuam public agency positions;
        i) Support for the use of the Interagency Personnel Act to support identified GovGuam
            agency personnel requirements; and/or
        j) Provision to GovGuam of technical assistance for, and development and implementation
            of, comprehensive data collection systems focused on the following topics:
                1. GovGuam public services provided to Freely Associated States of Micronesia
                     citizens, in order to facilitate GovGuam access to Compact Impact and other
                     related funding.
                2. GovGuam agency services provided to military individuals, in order to facilitate
                     GovGuam access of TRICARE and other related funding.




                                                                                                           	APPENDICES AND ENDNOTES
                3. GovGuam public health agency patient information, records, and services
                     accessed, in order to facilitate appropriate care administered in a timely manner.
                4. GovGuam public agency billing systems, in order to facilitate GovGuam collection
                     of payment for services.
           Public Health and Safety / Environmental Justice and Protection of Children
•	 DoD is leading the EAC, a Federal inter-agency effort, to identify other federal programs and
   funding sources that could benefit the people of Guam and Tinian in regards to health care,
   social services, disease control and/or other assistance to help Guam and Tinian upgrade their
   capacity to care for and help prevent increased incidence of illnesses.
                                              Workforce Housing
•	 Avoid known sinkholes and place a buffer zone of vegetation around them to prevent further
   erosion or expansion. Erect educational signs and/or fencing where appropriate. Any sinkholes
   discovered will be evaluated to determine significant impacts and projects will be designed in
   consideration of these sinkholes as appropriate. (Developer of workforce housing
   facility/facilities).


                                                                               Guam Realignment Report
                                                  97
                                                                                       February 1, 2011
                            Appendix D. Implemented Mitigation Measures from
                            the Record of Decision


                                                             Workforce Housing (continued)
                             •   Using a minimum number of equipment at a given time near residences to reduce noise impacts.
                                 (Developer of workforce housing facility/facilities).
                             •   Guam Synthesis and Cultural Landscape Report. (Developer of workforce housing
                                 facility/facilities).
                             •   Bus workers to/from worksite(s). (Developer of workforce housing facility/facilities).
                             •   Identification and removal of any potential unexploded ordinance prior to ground disturbing
                                 activities. (Developer of workforce housing facility/facilities).
	APPENDICES AND ENDNOTES




                           Guam Realignment Report
                                                                               98
                           February 1, 2011
                                                                          Appendix E. Federal Funding Allocated to Guam Not
                                                                                          Directly Related to the Realignment


Appendix E. Federal Funding
Allocated to Guam Not Directly
Related to the Realignment*
 Agency, Subagency, or Bureau Providing Funds                             FY 2009             FY 2010                FY 2011
 (in millions)                                                            (Actual)            (Estimate)             (Estimate)

 Department of Commerce                                                   $   5               $    5                 $    5
 Department of Defense                                                    $   7               $    0                 $    0
 Department of Education                                                  $ 73                $ 71                   $ 70
 Department of Health and Human Services                                  $ 49                $ 54                   $ 50
 Department of Homeland Security                                          $ 34                $ 53                   $ 55
 Department of Housing and Urban Development                              $ 42                $ 46                   $ 48
 Department of the Interior                                               $ 68                $ 73                   $ 74
 Department of Justice                                                    $   5               $    5                 $    5
 Department of Labor                                                      $   6               $    6                 $    7
 Department of Transportation                                             $ 53                $ 46                   $ 47
 Department of Veteran Affairs                                            $ 23                $ 24                   $ 25
 Environmental Protection Agency                                          $   7               $ 20                   $ 19
 Federal Communications Commission                                        $ 18                $ 16                   $ 16
 National Endowment for the Arts                                          $   0               $    0                 $    1
 Social Security Administration                                           $112                $119                   $123
 Small Business Administration                                            $   7               $    0                 $    0




                                                                                                                                             	APPENDICES AND ENDNOTES
 U.S. Department of Agriculture                                           $111                $130                   $134
    Total                                                                 $620                $668                   $679


* This table does not include the American Recovery and Reinvestment Act funding provided to these
Federal agencies.
Source: Office of Management and Budget, February 2010 BDR 10-31, Tracking Federal Spending in the Territory of Guam: Summary of Responses
by Agency, provided 9/14/2010.




                                                                                                               Guam Realignment Report
                                                                     99
                                                                                                                       February 1, 2011
                            Appendix F. Guam-Related Completed Reports and Testimony


                                 Appendix F. Guam-Related Completed
                                 Reports and Testimony
                                                                                                                               Report
                              Agency or Office                         Project Title                      Report Number         Date
                                                 Defense Infrastructure: Guam Needs Timely Information
                                                 From DoD to Meet Challenges in Planning and                                November 13,
                                   GAO                                                                     GAO-10-90R
                                                 Financing Off-Base Projects and Programs to Support a                         2009
                                                 Larger Military Presence
                                                 Defense Infrastructure: DoD Needs to Provide Updated
                                                                                                                             October 14,
                                   GAO           Labor Requirements to Help Guam Adequately Develop         GAO-10-72
                                                                                                                                2009
                                                 Its Labor Force for the Military Buildup
                                                 Defense Infrastructure: Planning Challenges Could
                                   GAO           Increase Risks for DoD in Providing Utility Services      GAO-09-653       June 30, 2009
                                                 When Needed to Support the Military Buildup on Guam
                                                 High-Level Leadership Needed to Help Guam Address
                                   GAO                                                                    GAO-09-500R       April 9, 2009
                                                 Challenges Caused by DoD-Related Growth
                                                 Defense Infrastructure: Opportunity to Improve the
                                                 Timeliness of Future Overseas Planning Reports and                         September 17,
                                   GAO                                                                     GAO-08-1005
                                                 Factors Affecting the Master Planning Effort for the                           2008
                                                 Military Buildup on Guam
                                                 Defense Logistics: Navy Needs to Develop and
                                   GAO           Implement a Plan to Ensure That Voyage Repairs Are        GAO-08-427       May 12, 2008
                                                 Available to Ships Operating Near Guam When Needed
                                                 Defense Infrastructure: Planning Efforts for the
                                   GAO           Proposed Military Buildup on Guam Are in Their Initial    GAO-08-722T       May 1, 2008
                                                 Stages, with Many Challenges Yet to Be Addressed
                                                 Defense Infrastructure: Overseas Master Plans Are
                                                 Improving, but DoD Needs to Provide Congress                               September 12,
                                   GAO                                                                     GAO-07-1015
                                                 Additional Information About the Military Buildup on                           2007
                                                 Guam
	APPENDICES AND ENDNOTES




                                                 Significant Challenges Remain in the Realignment of
                                 DoD OIG                                                                  Progress Report   May 14, 2010
                                                 U.S. Forces from Okinawa, Japan to Guam
                                                 Processing of Nonimmigrant Worker Petitions in
                               Department of                                                                                 November
                                                 Support of U.S. Marine Guam Realignment Construction       OIG-11-14
                             Homeland Security                                                                                 2010
                                                 Activities

                                                 Report on Audit of Parts of a Proposal Submitted in          4201–         September 3,
                                   DCAA
                                                 Response to Solicitation No. N62742-09-R-0005            2010L27000002        2010

                                                 Audit of Portions of the Direct and Indirect Expense
                                                                                                              04901-
                                   DCAA          Rates included in Proposal under Solicitation No.                          April 2, 2010
                                                                                                          2010N27000001
                                                 N62742-09-R-0005
                                                 Use of Established Department of Defense Shipping
                               NAVAUDSVC         Agreements/Contracts for Department of the Navy           N2010-0043       July 22, 2010
                                                 Acquisitions on Guam
                                                 Department of the Navy Proposed FY 2011 Military
                                                                                                                            September 30,
                               NAVAUDSVC         Construction Projects Related to the U.S. Marine Corps    N2009-0051
                                                                                                                                2009
                                                 Okinawa/Guam Base Relocation


                           Guam Realignment Report
                                                                                       100
                           February 1, 2011
                                                    Appendix F. Guam-Related Completed Reports and Testimony

                                                                                                 Report
Agency or Office                         Project Title                      Report Number         Date
                   Department of the Navy Acquisition Checks and                             September 30,
 NAVAUDSVC                                                                   N2009-0050
                   Balances at Naval Base Guam Supported Activities                              2009
                   Ocean Bills of Lading for Naval Facilities Engineering                    September 16,
 NAVAUDSVC                                                                   N2009-0047
                   Command Marianas Contracts                                                    2009
                   Status of the Department of the Navy Processes and
 NAVAUDSVC         Controls Regarding the Management of the Government       N2009-0038        July 9, 2009
                   of Japan Funds Related to the Marine Corps’ Relocation
                   Verification of an Acquisition Strategy for the U.S.
 NAVAUDSVC                                                                   N2009-0028       May 8, 2009
                   Marine Corps’ Relocation Effort
                   Auditor General Advisory: Department of the Navy’s
 NAVAUDSVC         Processes Used to Establish Water Rates for Guam          N2009-0024       April 7, 2009
                   Waterworks Authority
                   Department of the Navy Proposed FY 2010 Government
                   of Japan-Funded Military Construction Projects                            September 17,
 NAVAUDSVC                                                                   N2008-0050
                   Related to the U.S. Marine Corps Okinawa/Guam Base                            2008
                   Relocation
                   Status of Internal Controls at the Joint Guam Program
 NAVAUDSVC                                                                   N2008-0030       April 8, 2008
                   Office




                                                                                                               	APPENDICES AND ENDNOTES




                                                                                    Guam Realignment Report
                                                         101                        February 1, 2010 1, 2011
                                                                                             February
                            Appendix G. Acronyms


                                Appendix G. Acronyms
                                AAFB			              Andersen Air Force Base
                                ASA(FM&C)		          Assistant Secretary of the Army (Financial Management and Comptroller)
                                CLTC			              Chamorro Land Trust Commission
                                CNMI			              Commonwealth of the Northern Mariana Islands
                                DAR			               Defense Access Road
                                DCAA			              Defense Contract Audit Agency
                                DFAS 			             Defense Finance and Accounting Service
                                DPRI	   		           Defense Posture Review Initiative
                                DOC			               Department of Commerce
                                DoD	    		           Department of Defense
                                DOI 			              Department of the Interior
                                DON			               Department of the Navy
                                DOT			               Department of Transportation
                                EAC			               Economic Adjustment Committee
                                EIS 			              Environmental Impact Statement
                                EPA			               Environmental Protection Agency
                                ERA			               Ecological Reserve Area
                                FHWA			              Federal Highway Administration
                                FY 			               Fiscal Year
                                GAO	    		           Government Accountability Office
                                GDOE			              Guam Department of Education
                                GOJ 			              Government of Japan
                                GovGuam		            Government of Guam
                                GWA			               Guam Water Authority
                                ICG 			              Interagency Coordination Group of Inspectors General for Guam
                                				                   Realignment
                                IG 			               Inspector General
                                IPG 			              Interagency Planning Group
                                JGPO	   		           Joint Guam Program Office
	APPENDICES AND ENDNOTES




                                MILCON			            Military Construction
                                NAVAUDSVC 		         Naval Audit Service
                                NAVFAC 		            Naval Facilities Engineering Command
                                NCTS			              Naval Computer and Telecommunications Station
                                NMFS			              National Marine Fisheries Service
                                OASN(FM&C)		         Office of the Assistant Secretary of the Navy (Financial Management and
                                			          	         Comptroller
                                OEA			               Office of Economic Adjustment
                                OIG 			              Office of the Inspector General
                                OUSD(C) 		           Office of the Under Secretary of Defense (Comptroller/Chief Financial 			
                                	   			                Officer)
                                ROD			               Record of Decision
                                SPEs			              Special Purpose Entities
                                UoG			               University of Guam
                                USMC			              United States Marine Corps


                           Guam Realignment Report
                                                                         102
                           February 1, 2011
                                                                                  Appendix H. Endnotes


Appendix H. Endnotes
1.	 Public Law 111-383, “Ike Skelton, National Defense Authorization Act for Fiscal Year 2011,”
    January 5, 2011, http://thomas.loc.gov.
2.	 Final EIS, “Guam and CNMI Military Relocation: Relocating Marines from Okinawa, Visiting
    Aircraft Carrier Berthing, and Army Air and Missile Defense Task Force,” Executive Summary,
    July 2010, http://www.guambuildupeis.us/final_documents.
3.	 “Agreement Between the Government of Japan and the Government of the United States of America
    Concerning the Implementation of the Relocation of III Marine Expeditionary Force Personnel and
    their Dependents from Okinawa to Guam,” February 17, 2009, www.mofa.go.jp/.
4.	 BDR 10-31, “Tracking Federal Spending in the Territory of Guam, Summary of Responses by
    Agency,” provided by the Office of Management and Budget.
5.	 “Where is the Money Going,” Recipient Reported Awards Map, Guam American Recovery and
    Reinvestment Act Funding, http://www.recovery.gov/Transparency/RecipientReportedData/pages/
    RecipientReportedDataMap.aspx. (Accessed: January 5, 2011)
6.	 “Interagency Coordination Group of Inspectors General for Guam Realignment Annual Report,”
    February 1, 2010, http://www.dodig.mil/Audit/guam/index.htm.
7.	 Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer, Response to DoD OIG
    data request, December 6, 2010.
8.	 “United States-Japan Roadmap for Realignment Implementation,” May 1, 2006, http://www.usfj.mil/.
9.	 “JGPO: Guam Military Realignment Overview,” February 5, 2008, http://www.jgpo.navy.mil/.




                                                                                                          	APPENDICES AND ENDNOTES




                                                                              Guam Realignment Report
                                                103                           February 1, 2010 1, 2011
                                                                                       February
                            Appendix I. Source Documentation


                                Appendix I. Source Documentation
                            •	 Public Law 111-84, “National Defense Authorization Act for FY 2010,” October 28, 2009,
                               Sections 2831 - 2837, http://thomas.loc.gov.
                            •	 Public Law 111-383, “Ike Skelton, National Defense Authorization Act for Fiscal Year 2011,”
                               January 5, 2011, Sections 2821 – 2824, http://thomas.loc.gov.
                            •	 “Interagency Coordination Group of Inspectors General for Guam Realignment Annual Report,”
                               February 1, 2010, http://www.dodig.mil/Audit/guam/index.htm.
                            •	 “Agreement Between the Government of Japan and the Government of the United States of America
                               Concerning the Implementation of the Relocation of III Marine Expeditionary Force Personnel and their
                               Dependents from Okinawa to Guam,” February 17, 2009, www.mofa.go.jp/.
                            •	 “Significant Challenges Remain in the Realignment of U.S. Forces from Okinawa, Japan, to Guam,” DoD
                               Inspector General Progress Report, May 14, 2010.
                            •	 Final EIS, “Guam and CNMI Military Relocation: Relocating Marines from Okinawa, Visiting Aircraft
                               Carrier Berthing, and Army Air and Missile Defense Task Force,” Executive Summary, July 2010,
                               http://www.guambuildupeis.us/final_documents.
                            •	 “U.S.-Japan Alliance: Transformation and Realignment for the Future,” October 29, 2005,
                               http://www.usfj.mil/.
                            •	 “United States-Japan Roadmap for Realignment Implementation,” May 1, 2006, http://www.usfj.mil/.
                            •	 House of Representatives, Report 111-559, “Military Construction, Veterans Affairs, and Related Agencies
                               Appropriations Bill, 2011,” July 22, 2010, www.rules.house.gov/111/CommJurRpt/111_milcon_rpt.pdf.
                            •	 American Forces Press Service News Article, “U.S., Japan Agree to Relocate Air Base on Okinawa,”
                               May 28, 2010, http://www.defense.gov/news/.
                            •	 Senate Report 111-226, “Military Construction and Veterans Affairs, and Related Agencies Appropriations
                               Bill, 2011,” July 19, 2010, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_
	APPENDICES AND ENDNOTES




                               reports&docid=f:sr226.111.pdf.
                            •	 DON, Guam and CNMI Military Relocation - EIS, “Welcome Message,” http://www.guambuildupeis.us/.
                               (Accessed: September 16, 2010)
                            •	 Final EIS, “Guam and CNMI Military Relocation: Relocating Marines from Okinawa, Visiting Aircraft
                               Carrier Berthing, and Army Air and Missile Defense Task Force,” Volume 10: Public Comments on the
                               Draft EIS, July 2010, http://www.guambuildupeis.us/final_documents.
                            •	 “Installation Mission Growth, Community Profile, U.S. Territory of Guam,” November 2009, Office of
                               Economic Adjustment, http://www.oea.gov/OEAWeb.nsf/5E1CC7A21054BCF7852576C100802153/$File/
                               guam_growth.pdf.
                            •	 “Futenma Replacement Facility Bilateral Experts Study Group Report,” August 31, 2010,
                               http://www.defense.gov/news/d20100831Futenma.pdf.
                            •	 “Record of Decision for Guam and CNMI Military Relocation including Relocating Marines from Okinawa,
                               Transient Nuclear Aircraft Carrier Berth, Air and Missile Defense Task Force,” DON and Department of the

                           Guam Realignment Report
                                                                               104
                           February 1, 2011
                                                                           Appendix I. Source Documentation

   Army, September 2010, http://www.guambuildupeis.us/record-of-decision.
•	 Associated Press, “Okinawa Election Result to Test U.S.-Japan Relations,” November 29, 2010,
   http://www.npr.org. (Accessed: December 16, 2010)
•	 “JGPO: Guam Military Realignment Overview,” February 5, 2008, http://www.jgpo.navy.mil/.
•	 BDR 10-31, “Tracking Federal Spending in the Territory of Guam, Summary of Responses by Agency,”
   provided by the Office of Management and Budget.
•	 “FY 2009 ARRA Program Funding for Guam,” provided by the Office of Management and Budget.
•	 “Where is the Money Going,” Recipient Reported Awards Map, Guam American Recovery and
   Reinvestment Act Funding, http://www.recovery.gov/Transparency/RecipientReportedData/pages/
   RecipientReportedDataMap.aspx. (Accessed: January 5, 2011)
•	 U.S. DoD, “DoD 101: An Introductory Overview of the Department of Defense,”
   http://www.defenselink.mil/pubs/dod101/. (Accessed: January 7, 2011)
•	 “Minutes from the Interagency Coordination Group meeting on April 23, 2010,” Deputy Inspector General
   for Auditing, DoD OIG.
•	 U.S. DOI, “Our Mission: Protecting America’s Great Outdoors and Powering Our Future,”
   http://www.doi.gov/whoweare/interior.cfm. (Accessed: January 7, 2011)
•	 U.S. DOI OIG, “About Us: Insular Area Audit Responsibilities,”
   http://www.doioig.gov/about-oig/about-us. (Accessed: January 7, 2011)
•	 “Interagency Groups Executive Summary Strategy,” obtained from the DoD OIG.
•	 “Interagency Planning Group Meeting Minutes,” August 11, 2010, obtained from the DoD OIG.
•	 Deputy Secretary of Defense, “Report to Congress: Role of Department of Defense in Management and
   Coordination of Defense Activities Related to the Guam Realignment,” March 2010.
•	 “Interagency Coordination Group of Inspectors General for Guam Realignment, Guam Realignment
   Comprehensive Oversight Plan,” Fiscal Year 2010, http://www.dodig.mil/Audit/guam/index.htm.




                                                                                                              	APPENDICES AND ENDNOTES
•	 Department of Homeland Security OIG Report No. OIG-11-14, “Processing of Nonimmigrant Workers
   Petitions in Support of U.S. Marine Guam Realignment Construction Activities,” November 2010,
   http://www.dhs.gov/xoig/rpts/mgmt/editorial_0334.shtm.
•	 DCAA Audit Report No. 4201–2010L27000002, “Report on Audit of Parts of a Proposal Submitted in
   Response to Solicitation No. N62742-09-R-0005,” September 3, 2010.
•	 N2010-0043, “Use of Established Department of Defense Shipping Agreements/Contracts for Department
   of the Navy Acquisitions on Guam,” July 22, 2010.
•	 DoD Financial Management Regulation, Volume 2B, Chapter 6, “Military Construction/Family Housing
   Appropriations,” December 2010, http://comptroller.defense.gov/fmr/.
•	 Defense Acquisition University, “Operations and Maintenance Funds,” https://acc.dau.mil/. (Accessed:
   November 16, 2010)
•	 Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer Response to DoD OIG data
   request, January 14, 2010 and December 6, 2010.

                                                                                  Guam Realignment Report
                                                    105
                                                                                          February 1, 2011
                            Appendix I. Source Documentation

                            •	 Title 10, United States Code, Section 2350k, http://uscode.house.gov/search/criteria.shtml.
                            •	 “Joint Guam Program Office: SAME International Business Opportunity Workshop,” February 22, 2007,
                               www.same.org/.
                            •	 “Implementation Guidance for the Department of Defense of the United States of America and the Ministry
                               of Defense of Japan on Projects funded by Japanese Cash Contributions,” June 30, 2009, provided by JGPO.
                            •	 Secretary of the Navy, “Report on Department of Defense Planning Efforts for Guam,” September 15, 2008.
                            •	 Embassy of the United States of America, Tokyo Note, No. 785, November 18, 2008.
                            •	 Assistant Secretary of the Navy (Financial Management and Comptroller), “Financial Management
                               Functions Related to the Government of Japan Funding Associated with the Movement of U.S. Forces to
                               Guam,” December 29, 2009.
                            •	 N2008-0050, “Department of the Navy Proposed Fiscal Year 2010 Government of Japan-Funded Military
                               Construction Projects Related to the U.S. Marine Corps’ Okinawa/Guam Base Relocation,”
                               September 17, 2008.
                            •	 USMC Manual MCO P7300.21, “Marine Corps Financial Execution Standard Operating Procedure
                               Manual,” March 29, 2001.
                            •	 DoD Financial Management Regulation, Volume 4, Chapter 17, “Expenses and Miscellaneous Items,”
                               December 2010, http://comptroller.defense.gov/fmr/.
                            •	 Final EIS, Volume 1, Chapter 3, “Overview of Alternatives,” July 2010,
                               http://www.guambuildupeis.us/final_documents.
                            •	 Final EIS, Volume 7, Chapter 2, “Overview of Best Management Practices and Proposed Mitigation
                               Measures,” July 2010, http://www.guambuildupeis.us/final_documents.
                            •	 Assistant Inspector General for Audit, Department of Education OIG Response to DoD OIG data request,
                               January 18, 2011.
                            •	 NAVFAC, Headquarters Response to DoD OIG data request, June 17, 2010.
	APPENDICES AND ENDNOTES




                            •	 NAVAUDSVC Response to DoD OIG Data Call, January 7, 2011.
                            •	 DCAA Response to DoD OIG Data Call, January 6, 2011 and January 12, 2011.
                            •	 Defense Criminal Investigative Service Response to DoD OIG Data Call, December 21, 2010.
                            •	 Investigative Policy and Oversight, DoD OIG Response to DoD OIG Data Call, December 21, 2010.
                            •	 Department of Homeland Security Response to DoD OIG Data Call, December 28, 2010.
                            •	 DFAS Response to DoD OIG Data Call, January 5, 2011.
                            •	 JGPO Response to DoD OIG Data Call, January 4, 2011.
                            •	 Office of the Secretary of the Air Force (Financial Management and Budget) Response to DoD OIG Data
                               Call, January 5, 2011.
                            •	 ASA(FM&C) Response to DoD OIG Data Call, January 14, 2011.
                            •	 NAVFAC, Headquarters Response to DoD OIG Data Call, January 18, 2011.


                           Guam Realignment Report
                                                                                 106
                           February 1, 2011
                                                                           Appendix I. Source Documentation

•	 USMC Response to DoD OIG Data Call, January 19, 2011 and January 25, 2011.
•	 OEA Response to DoD OIG Data Call, December 6, 2010.
•	 DOT Response to DoD OIG Data Call, January 19, 2011.
•	 Department of Labor Response to DoD OIG Data Call, January 7, 2011.
•	 DOC Response to DoD OIG Data Call, January 10, 2011.
•	 EPA Response to DoD OIG Data Call, January 7, 2011.
•	 GAO Response to DoD OIG Data Call, December 9, 2010.
•	 DOI Response to DoD OIG Data Call, January 7, 2011.
•	 Department of Education Response to DoD OIG Data Call, January 7, 2011.
•	 Department of Justice Response to DoD OIG Data Call, January 7, 2011.
•	 Air Force Audit Agency Response to DoD OIG Data Call, January 7, 2011.
•	 Army Audit Agency Response to DoD OIG Data Call, January 7, 2011.
•	 Department of Health and Human Services Response to DoD OIG Data Call, January 10, 2011.
•	 Department of Housing and Urban Development Response to DoD OIG Data Call, January 10, 2011.
•	 Department of Agriculture Response to DoD OIG Data Call, January 7, 2011.
•	 Department of Energy Response to DoD OIG Data Call, January 7, 2011.
•	 Federal Communications Commission Response to DoD OIG Data Call, December 8, 2010.
•	 National Endowment for the Arts Response to DoD OIG Data Call, January 7, 2011.
•	 U.S. Railroad Retirement Board Response to DoD OIG Data Call, January 6, 2011.
•	 Department of the Treasury Response to DoD OIG Data Call, January 4, 2011.
•	 Corporation for National and Community Service Response to DoD OIG Data Call, January 4, 2011.




                                                                                                               	APPENDICES AND ENDNOTES
•	 National Science Foundation Response to DoD OIG Data Call, January 5, 2011.
•	 Social Security Administration Response to DoD OIG Data Call, January 7, 2011.
•	 Department of Veterans Affairs Response to DoD OIG Data Call, January 6, 2011.
•	 DoD Defense Imagery, http://www.defenseimagery.mil.




                                                                                    Guam Realignment Report
                                                   107
                                                                                            February 1, 2011
Guam Realignment Report
                          108
February 1, 2011
                           Department of Defense Office of Inspector General
                                        400 Army Navy Drive
                                         Arlington, VA 22202

                          Department of the Interior Office of Inspector General
                                 1849 C Street, N.W. Mail Stop 4428
                                       Washington, D.C. 20240

                            The report is available online at: www.dodig.mil


Guam Realignment Report
February 1, 2011
